<html>
<title> - NOAA'S FISHERY SCIENCE: IS THE LACK OF BASIC SCIENCE COSTING JOBS?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                        NOAA'S FISHERY SCIENCE:
                         IS THE LACK OF BASIC
                         SCIENCE COSTING JOBS?

=======================================================================

                           OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, July 26, 2011

                               __________

                           Serial No. 112-52

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      



                  U.S. GOVERNMENT PRINTING OFFICE
67-648                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6b0c1b042b081e181f030e071b4508040645">[email&#160;protected]</a>  

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
     GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democrat Member

Don Young, AK                        Eni F.H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Jeff Duncan, SC                      Madeleine Z. Bordallo, GU
Steve Southerland, II, FL            Pedro R. Pierluisi, PR
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD                      Vacancy
Jeffrey M. Landry, LA                Edward J. Markey, MA, ex officio
Jon Runyan, NJ
Doc Hastings, WA, ex officio

                                 ------                                
      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, July 26, 2011...........................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     3
    Markey, Hon. Edward J., a Representative in Congress from the 
      Commonwealth of Massachusetts, Statement submitted for the 
      record.....................................................   110
    Sablan, Hon. Gregorio, a Delegate in Congress from the 
      Commonwealth of the Northern Mariana Islands...............     5
        Prepared statement of....................................     6

Statement of Witnesses:
    Angers, Jefferson, President, Center for Coastal Conservation    68
        Prepared statement of....................................    70
    Cadrin, Steven, Ph.D., Associate Professor, Department of 
      Fisheries Oceanography, School for Marine Science and 
      Technology, University of Massachusetts Dartmouth, and 
      Member, Science and Statistical Committee, South Atlantic 
      and New England Fishery Management Councils................    35
        Prepared statement of....................................    37
    DiDomenico, Gregory, Executive Director, Garden State Seafood 
      Association................................................    82
        Prepared statement of....................................    84
    Frank, Hon. Barney, a Representative in Congress from the 
      Commonwealth of Massachusetts, Oral statement of...........    10
    Gauvin, John, Fisheries Science Director, Alaska Seafood 
      Cooperative................................................    90
        Prepared statement of....................................    92
    Geiger, George, Owner/Operator, Chances Are Fishing Charters.    98
        Prepared statement of....................................   100
    Harris, Duane, Member and Past Chairman, South Atlantic 
      Fishery Management Council.................................    22
        Prepared statement of....................................    24
    Jones, Hon. Walter, a Representative in Congress from the 
      State of North Carolina....................................     8
        Prepared statement of....................................     9
    Mica, Hon. John, a Representative in Congress from the State 
      of Florida, Oral statement of..............................     7
    Morris, Julie, Assistant Vice President for Academic Affairs, 
      Office of the Provost, New College of Florida, and Former 
      Member, Gulf of Mexico Fishery Management Council and 
      Member of the Secretary's Marine Fish Advisory Committee 
      (MAFAC)....................................................    29
        Prepared statement of....................................    31
    Nelson, David, Charter/Commercial Fishing Captain, Ponce 
      Inlet, Florida.............................................    75
        Prepared statement of....................................    77
    Pearce, Harlon, Jr., Owner, Harlon's LA Fish LLC, and Member, 
      Gulf of Mexico Fishery Management Council and Chair of the 
      Council's Data Collection Committee, Representing the 
      Louisiana Seafood Promotion and Marketing Board and Gulf of 
      Mexico Fishery Management Council..........................    62
        Prepared statement of....................................    64
    Schwaab, Eric, Assistant Administrator, National Marine 
      Fisheries Service, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce................    13
        Prepared statement of....................................    14
                                     



OVERSIGHT HEARING TITLED ``NOAA'S FISHERY SCIENCE: IS THE LACK OF BASIC 
                        SCIENCE COSTING JOBS?''

                              ----------                              


                         Tuesday, July 26, 2011

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:10 p.m. in 
Room 1324, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Wittman, Duncan, 
Southerland, Harris, Runyan, Sablan, Pallone, Bordallo, and 
Hanabusa.
    Also present: Representative Frank.
    Mr. Fleming. The Subcommittee will come to order. The 
Chairman notes the presence of a quorum. Good afternoon. Today 
the Subcommittee on Fisheries, Wildlife, Oceans and Insular 
Affairs will conduct an oversight hearing titled, ``NOAA's 
Fishery Science: Is the Lack of Basic Science Costing Jobs.''
    Under Committee Rule 4(f), opening statements are limited 
to the Chairman and Ranking Member of the Subcommittee so that 
we can hear from our witnesses more quickly. However, I ask 
unanimous consent to include any other Members' opening 
statements in the hearing record if submitted to the clerk by 
close of day today. Hearing no objection, so ordered.

 STATEMENT OF HON. JOHN FLEMING, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Mr. Fleming. In 2006, Congress passed amendments to the 
Magnuson-Stevens Fishery Conservation and Management Act to 
require that fishery managers make harvest decisions based on 
science. These amendments also required that fishermen be held 
accountable to these new scientifically based harvest limits.
    These were, and are, worthy goals. However, I suspect if 
congressmen knew then what we know now, these amendments would 
have been written very differently. Those requirements were 
based on the model of fisheries management in the North 
Pacific, which has been held up as an example that the rest of 
the country should emulate. Unfortunately, the amount of data 
available for fisheries outside the North Pacific is radically 
different than that available to managers in the North Pacific.
    In addition to the 2006 amendments, the National Oceanic 
and Atmospheric Administration, otherwise known as NOAA, 
published revised National Standard 1 guidelines, which gave 
fishery managers additional requirements for dealing with the 
scientific uncertainty. These guidelines have led to the layer 
upon layer of precaution to be included when setting harvest 
levels for those fisheries for which there is inadequate or 
stale data.
    That means that for fisheries that have not been surveyed 
for many years, the harvest levels will be artificially low. 
This has become particularly troublesome for species on the 
East Coast and in the Gulf of Mexico. Counting fish is 
difficult. Having good data for fishery managers is not cheap, 
and tight budgets do not make this any easier.
    However, NOAA has made budget decisions that have taken 
money away from the basic fisheries research to fund new 
initiatives like marine spatial planning and satellite 
programs. In fact, the Fiscal Year 2012 budget request included 
funding for just one satellite that accounts for almost 20 
percent of the entire budget request.
    This has resulted in inadequate fisheries data for 
councils. To quote from a letter by the chair of the South 
Atlantic Council to Secretary Locke in April 2010: ``Fisheries 
management in the South Atlantic suffers from a chronic yet 
well documented lack of basic data, which hampers scientists' 
ability to evaluate exploited populations and managers' ability 
to develop and ensure accountability with management measures. 
This lack of data adds uncertainty at all levels of scientific 
and management processes.''
    Today, we will hear examples showing that the lack of data 
is resulting in reduced harvest levels, which in turn harms 
fishermen and coastal communities. This has become especially 
difficult for the charter fishing operations, who cannot book 
fishing trips when they cannot tell customers whether the 
fisheries will be open a week or a month from now.
    In addition, restrictions on fishing opportunities are not 
just because of the new Magnuson-Stevens Act amendments. The 
lack of adequate information on Endangered Species Act and 
Marine Mammal Protection Act listed animals is also causing 
fisheries problems. We will hear at least two examples today.
    In one case, NOAA has proposed uplisting the Atlantic 
sturgeon and splitting the population into five distinct 
population segments, when they admit that they have not 
conducted a comprehensive survey of any of the East Coast 
species of sturgeon, Gulf, shortnose, or Atlantic. Despite this 
admission, NOAA is likely to restrict a number of East Coast 
fisheries due to concerns about sturgeon interactions.
    We will also hear that NOAA's restrictions on the Bering 
Sea Pacific Atka Mackerel Fishery will result in losses of up 
to $60 million per year based on faulty stock assessments. Both 
of these examples will result in lost jobs and lost economic 
activity, and both examples raise concerns about whether NOAA's 
basic research activities are adequate to meet the requirements 
of the statutes that they are required to implement.
    Clearly, this is a view that is shared by the House 
Appropriations Committee as well. The House Appropriation 
Committee report to accompany H.R. 2596, the Commerce, Justice, 
Science Appropriations bill for Fiscal Year 2012 states the 
following, quote: ``The Committee notes that lack of accurate, 
up-to-date data for numerous economically vital fisheries has 
caused significant problems as NMFS works to implement 
provisions that were incorporated into the Magnuson-Stevens Act 
in 2006.
    ``NMFS has proceeded to implement these provisions, 
particularly as they relate to setting annual catch limits on 
all fisheries, in a manner that ignores profound shortfalls and 
requisite data. More robust stock assessments based on more 
frequent surveys are vitally important to improve management of 
our marine fisheries and meet the requirements of the MSA. The 
Committee supports targeting and prioritizing stock survey 
funds to address critical data gaps in fisheries that have 
suffered dramatically from inadequate data gathering.
    ``Additionally, the Committee supports the further 
utilization of fishery-independent data collection efforts and 
encourages NMFS to take advantage of existing non-Federal 
resources that are capable of providing timely and reliable 
data to improve stock assessments of critical fisheries,'' end 
quote.
    For today's hearing, we asked our witnesses a number of 
questions. How have the 2006 amendments, including the 
requirement that councils establish a mechanism for specifying 
annual catch limits to prevent overfishing affected domestic 
fishery management? Is the data generated by NOAA adequate for 
fishery managers to comply with these new provisions? How has 
the agency's guidance for councils' use of old data in the 
precautionary or risk-averse approach affected coastal 
economies and fishery-related jobs? Has the agency's use of the 
requirement for best scientific information available become a 
convenient excuse for the use of incomplete or old data in 
management decisions rather than gathering new or more complete 
data? And finally, will the creation of a new recreational data 
collection program provide better information to fishery 
managers and provide data for in-season management adjustments? 
If not, what does this mean for recreational fishing seasons 
and the ability of fishery-dependent businesses to plan given 
this uncertainty.
    I look forward to hearing from our witnesses today and hope 
that through this conversation we can find some solutions for 
the lack of data available to fisheries managers. And I will 
just encapsulate what is really a fairly long discussion here, 
and that is to say that because NOAA has been unable to do the 
surveys or unwilling based upon priorities, that we end up with 
inadequate data or stale data, and as a result, the assumptions 
have to be adjusted in a more conservative way, therefore 
cutting off adequate opportunities for fishing based on the 
fact that we underestimate in some cases the populations.
    I look forward to hearing the testimony of our 
distinguished witnesses, and now recognize our Ranking Member, 
Mr. Sablan, for any statement he would like to make.
    [The prepared statement of Mr. Fleming follows:]

          Statement of The Honorable John Fleming, Chairman, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    In 2006, Congress passed amendments to the Magnuson-Stevens Fishery 
Conservation and Management Act to require that fishery managers make 
harvest decisions based on science. These amendments also required that 
fishermen be held accountable to these new scientifically-based harvest 
limits. These were, and are, worthy goals. However, I suspect if 
Congressmen knew then what we know now, these amendments would have 
been written very differently.
    Those requirements were based on the model of fisheries management 
in the North Pacific which has been held up as the example the rest of 
the country should emulate. Unfortunately, the amount of data available 
for fisheries outside the North Pacific is radically different than 
that available to managers in the North Pacific.
    In addition to the 2006 amendments, the National Oceanic and 
Atmospheric Administration (NOAA) published revised National Standard 1 
guidelines which gave fishery managers additional requirements for 
dealing with scientific uncertainty. These guidelines have led to layer 
upon layer of ``precaution'' to be included when setting harvest levels 
for those fisheries for which there is inadequate or ``stale'' data. 
That means that for fisheries that have not been surveyed for many 
years, the harvest levels will be artificially low. This has become 
particularly troublesome for species on the East Coast and in the Gulf 
of Mexico.
    Counting fish is difficult. Having good data for fishery managers 
is not cheap and tight budgets do not make this any easier; however, 
NOAA has made budget decisions that have taken money away from basic 
fisheries research to fund new initiatives like marine spatial planning 
and satellite programs. In fact, the Fiscal Year 2012 budget request 
included funding for just one satellite that accounts for almost 20 
percent of their entire budget request. This has resulted in inadequate 
fisheries data for Councils.
    To quote from a letter sent by the Chair of the South Atlantic 
Council to Secretary Locke in April, 2010, ``Fisheries management in 
the South Atlantic suffers from a chronic, yet well-documented, lack of 
basic data which hampers scientists' ability to evaluate exploited 
populations and managers' ability to develop and ensure accountability 
with management measures...This lack of data adds uncertainty at all 
levels of scientific and management processes.'' The letter also 
states, ``In summary, the Council does not believe that a sufficient 
data delivery system is in place to properly implement the system of 
ACLs and AMs that the Council is establishing in Amendments 17A and 17B 
and the Comprehensive ACL Amendment.''
    Today, we will hear examples showing that the lack of data is 
resulting in reduced harvest levels--which in turn harms fishermen and 
coastal communities. This has become especially difficult for the 
charter fishing operations which cannot book fishing trips when they 
cannot tell customers whether the fisheries will be open a week or a 
month from now.
    In addition, restrictions on fishing opportunities are not just 
because of the new Magnuson-Stevens Act amendments. The lack of 
adequate information on Endangered Species Act and Marine Mammal 
Protection Act-listed animals is also causing fisheries problems. We 
will hear at least two examples today. In one case, NOAA has proposed 
uplisting the Atlantic sturgeon and splitting the population into 5 
distinct population segments when they admit that they have ``not 
conducted a comprehensive survey of any of the east coast species of 
sturgeon, Gulf, shortnose or Atlantic.'' Despite this admission, NOAA 
is likely to restrict a number of east coast fisheries due to concerns 
about sturgeon interactions.
    We will also hear that NOAA's restrictions on the Bering Sea 
Pacific Atka mackerel fishery will result in losses of up to $60 
million per year based on faulty stock assessments and that NOAA has 
now cancelled a tagging study that would have provided better 
information.
    Both of these examples will result in lost jobs and lost economic 
activity. And both examples raise concerns about whether NOAA's basic 
research activities are adequate to meet the requirements of the 
statutes that they are required to implement.
    Clearly, this is a view that is shared by the House Appropriations 
Committee as well. The House Appropriation Committee Report to 
accompany H.R. 2596, the Commerce, Justice, Science Appropriations bill 
for FY 2012 states,
        ``The Committee notes that lack of accurate, up-to-date data 
        for numerous economically vital fisheries has caused 
        significant problems as NMFS works to implement provisions that 
        were incorporated into the Magnuson-Stevens Act (MSA) in 2006. 
        NMFS has proceeded to implement these provisions, particularly 
        as they relate to setting annual catch limits on all fisheries, 
        in a manner that ignores profound shortfalls in requisite data. 
        More robust stock assessments, based on more frequent surveys, 
        are vitally important to improve management of our marine 
        fisheries and meet the requirements of the MSA. The Committee 
        supports targeting and prioritizing stock survey funds to 
        address critical data gaps in fisheries that have suffered 
        dramatically from inadequate data gathering. Additionally, the 
        Committee supports the further utilization of fishery 
        independent data collection efforts and encourages NMFS to take 
        advantage of existing non-Federal resources that are capable of 
        providing timely and reliable data to improve stock assessments 
        of critical fisheries.''
    For today's hearing, we asked our witnesses a number of questions:
        <bullet>  How have the 2006 amendments--including the 
        requirement that Councils establish a mechanism for specifying 
        annual catch limits to prevent overfishing--affected domestic 
        fishery management?
        <bullet>  Is the data generated by NOAA adequate for fishery 
        managers to comply with these new provisions?
        <bullet>  How has the Agency's guidance for Council's use of 
        old data and the precautionary or risk averse approach affected 
        coastal economies and fishery-related jobs?
        <bullet>  Has the Agency's use of the requirement for ``best 
        scientific information available'' become a convenient excuse 
        for the use of incomplete or old data in management decisions 
        rather than gathering new or more complete data?
        <bullet>  And finally, will the creation of a new recreational 
        data collection program provide better information to fishery 
        managers and provide data for in-season management adjustments? 
        If not, what does this means for recreational fishing seasons 
        and the ability of fishery-dependent businesses to plan given 
        this uncertainty?
    I look forward to hearing from our witnesses today and hope that 
through this conversation, we can find some solutions for the lack of 
data available to fisheries managers.
                                 ______
                                 

STATEMENT OF HON. GREGORIO SABLAN, A DELEGATE IN CONGRESS FROM 
        THE COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS

    Mr. Sablan. Thank you. Thank you very much, Chairman 
Fleming. Today the Subcommittee meets to hear testimony on 
science-based fisheries management. By the end of this year, 
the Regional Fishery Management Councils will have put annual 
catch limits or ACLs and accountability measures in place to 
end overfishing and rebuild overfished fish stocks as required 
by the Magnuson-Stevens Fishery Conservation and Management 
Act.
    In 1996, after witnessing the decline of important 
fisheries around the country, Congress first required the 
Councils to end overfishing and rebuild stocks that had been 
fished to perilously low levels. While the Councils implemented 
numerous reviewing plans, overfishing continued in many 
fisheries. In response, the Magnuson-Stevens Reauthorization 
Act of 2006 went a step farther and required that fishery 
management plans adopt ACLs and accountability measures for 
stocks subject to overfishing.
    Requiring ACLs was intended not only to prevent overfishing 
from occurring, but also to drive improvements in fishery data 
collection and research, and to develop a more precise 
assessment of the amount of fish that can be caught. The Act 
also included specific provisions to strengthen the role of 
science in fishery management decision-making. Science-based 
management is the proven way to end and prevent overfishing, 
and we must utilize the existing science that is being 
conducted across the Nation by the Regional Fishey Management 
Councils.
    Undoubtedly, there will always be uncertainty in managing 
fisheries, but ignoring the existing data and methods will 
simply put our fisheries at increased risk of overfishing, 
resulting in a more difficult and longer recovery. Protracting 
this recovery will prevent fishermen and coastal communities 
from realizing the economic value of rebuilding fish 
populations, which NOAA estimates to be a $31 billion increase 
in annual sales, and an additional 500,000 new jobs.
    The best way to support this recovery is through science-
based management. But unfortunately, funding for fisheries 
research and management in the Fiscal Year 2012, Commerce, 
Justice, Science Appropriations bill is 17 percent below the 
President's request.
    Clearly, we must do more now to invest in fishery science 
to ensure that fishing opportunities are available for 
generations to come. I look forward to hearing from our 
witnesses today about how science-based management is critical 
to preserving fish, fishing jobs, and coastal communities now 
and into the future. And thank you, Mr. Chairman. I yield back.
    [The prepared statement of Mr. Sablan follows:]

  Statement of The Honorable Gregorio Kilili Camacho Sablan, Ranking 
Member, Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Thank you, Chairman Fleming. Today the Subcommittee on Fisheries, 
Wildlife, Oceans and Insular Affairs meets to hear testimony on 
science-based fisheries management. By the end of this year, the 
Regional Fishery Management Councils will have put Annual Catch 
Limits--or ACLs--and Accountability Measures in place to end 
overfishing and rebuild overfished fish stocks, as required by the 
Magnuson-Stevens Fishery Conservation and Management Act.
    In 1996, after witnessing the decline of important fisheries around 
the country, Congress first required the Councils to end overfishing 
and rebuild stocks that had been fished to perilously low levels.
    While the Councils implemented numerous rebuilding plans, 
overfishing continued in many fisheries. In response, the Magnuson-
Stevens Reauthorization Act of 2006 went a step further and required 
that fishery management plans adopt ACLs and Accountability Measures 
for stocks subject to overfishing.
    Requiring ACLs was intended not only to prevent overfishing from 
occurring, but also to drive improvements in fishery data collection 
and research, to develop a more precise assessment of the amount of 
fish that can be caught. The Act also included specific provisions to 
strengthen the role of science in fishery management decision-making. 
Science-based management is the proven way to end and prevent 
overfishing, and we must utilize the existing science that is being 
conducted across the nation by the Regional Fishery Management 
Councils. Undoubtedly, there will always be uncertainty in managing 
fisheries, but ignoring the existing data and methods will simply put 
our fisheries at increased risk of overfishing, resulting in a more 
difficult and longer recovery.
    Protracting this recovery will prevent fishermen and coastal 
communities from realizing the economic value of rebuilding fish 
populations, which NOAA estimates to be a $31 billion dollar increase 
in annual sales and an additional 500,000 new jobs. The best way to 
support this recovery is through science-based management, but 
unfortunately, funding for fisheries research and management in the FY 
12 Commerce, Justice, Science Appropriations bill is 17% below the 
President's request. Clearly, we must do more now to invest in 
fisheries science to ensure that fishing opportunities are available 
for generations to come.
    I look forward to hearing from our witnesses today about how 
science-based management is critical to preserving fish, fishing jobs, 
and coastal communities now and into the future.
                                 ______
                                 
    Mr. Fleming. I thank the gentleman. Now, we will hear from 
our first panel.
    Mr. Sablan. Mr. Chairman, if I may, I ask unanimous consent 
that Congressman Frank, my good friend from Massachusetts, join 
us to testify at today's hearing.
    Mr. Fleming. Without objection, we welcome Congressman 
Frank to join the first panel.
    Mr. Frank. Thank you, Mr. Chairman.
    Mr. Fleming. Like all witnesses, Panel, your written 
testimony will appear in full in the hearing record, so I ask 
that you keep your oral statements to five minutes, as outlined 
in our invitation letter to you, and under Committee Rule 4(a).
    Our microphones are not automatic in this room. While I am 
sure you know how things work, I will just explain for everyone 
that you have five minutes to give your presentation. You will 
be under a green light. It will turn yellow one minute out, and 
then when the red light comes on, we ask that you wrap up as 
quickly as possible so we can get to everyone.
    I would now like to introduce our first panel. First, The 
Honorable John L. Mica, the gentleman from Florida. Welcome, 
sir. The Honorable Walter B. Jones, the gentleman from North 
Carolina. Is it this room or the other room that is named after 
your dad? It is the other room, I believe. And then, of course, 
The Honorable Barney Frank, the gentleman from Massachusetts.
    Chairman Mica, you may begin, sir.

STATEMENTS OF HON. JOHN MICA, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF FLORIDA

    Mr. Mica. Well, thank you so much, and I do want to really 
say how much I appreciate Chairman Fleming and the Ranking 
Member, also Mr. Hastings, the Chairman of the full Committee, 
for granting our request to hold this hearing. I have been 
asking that we pay more attention to this issue since March 
2009, when the South Atlantic Fishery Management Council voted 
by a very slim margin, seven to six votes, to impose a ban on 
red snapper fishing all the way from Florida up to the 
Carolinas.
    Let me say that even when Mr. Henry Brown was the Ranking 
Member, he sent a letter asking for a hearing. We sent a joint 
letter. Just about everybody in the Florida delegation and 
others signed it November of 2009. Nothing was done. So I can't 
tell you how pleased we are that this Committee under new 
leadership has responded.
    Now, from the very beginning--well, first of all, I don't 
know much about the fishing industry, even though I represent 
Florida. I should say I didn't know much, but I certainly 
learned in a hurry the incredible impact fishing, both 
commercial fishing and sports fishing, has in my state and my 
district.
    We heard from the very beginning, and we have reports back 
to 2009--I have commercial and charter fishermen who told us 
that we would impact not only businesses--this is an article 
which we will put in the record if it is appropriate--in St. 
Augustine, which is a major fishing point and center for our 
state, to put of business and take a toll. This is the 
projection on restaurants, hotels, and others in town.
    I have a recent assessment from Jody Lynn of St. Augustine, 
who has a charter fishing business, and she said just recently, 
``Since the ban went into effect, our charter business has 
dropped from 200-plus trips a year to just 104 trips.'' This is 
a $5 billion industry, so we have put people out of business, 
as predicted, and we have also just made employment so 
difficult in a very tough economic time to begin with. So huge 
economic damage.
    Now, let me just say, if a ban would preserve an endangered 
species, red snapper or others, I would support it. I 
introduced legislation that was ignored again by the committee, 
no hearing, nothing. I introduced H.R. 3307. And all I said is, 
let's confirm the data. Now, I am not a big fisherman, and I am 
not a marine biologist or scientist. So I looked at what others 
said, and back in 2009, a professor of marine biology in 
Florida, Dr. Raymond Waldner, said, ``Having examined the 
Federal Government's assessment and proposals regarding 
Atlantic red snapper, we conclude that the data used are of 
questionable reliability, which makes the resulting analysis 
and conclusions questionable as well.''
    So again, you have seen the incredible economic negative 
impact that was predicted; it took place. You have seen that 
they passed this without again having accurate data. It was 
passed on a seven-six vote. One thing I learned, interesting, 
from the fishermen too is 30 to 40 percent of the fish that--we 
are still catching red snapper, and 30 to 40 percent of them 
die when they throw them back in.
    You know, these fish don't come up and look to see what 
Congress has done lately as far as a ban. They are taking the 
bait, and we are killing them. The anecdotal reports I get from 
fishermen--you will hear from Captain Dave Nelson. We also have 
Syd Prescott, who represents some of the industry here. They 
can tell you about the runs and what they see.
    So based on science, the step I think was flawed. The 
action was premature. We never had the opportunity of this 
hearing before Congress or I think in the proper forums to 
consider this. So again, I am dismayed. I think that this 
committee needs to go back and look at the Magnuson Act, the 
overall Act, and also the actions that have resulted that have 
done inestimable damage to my district, the State of Florida, 
and the Nation's economy.
    I apologize. I have ten seconds left. I am going to have to 
speak and run because I have a bill on the Floor right at this 
time. Thank you for your consideration. I will leave two 
seconds to yield back.
    Mr. Fleming. Thank you for yielding back, Mr. Chairman, and 
certainly come and go as you need to, sir. We understand.
    Mr. Mica. And I will leave several documents for submission 
to the record.
    Mr. Fleming. Yes, thank you. And with unanimous consent, 
there is no objection.
    Mr. Fleming. Next we have Congressman Jones. Sir, you have 
five minutes.

 STATEMENT OF HON. WALTER JONES, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. Jones. Mr. Chairman, thank you for this opportunity. I 
can confirm that the Magnuson Act definition of best available 
science and the lack of science on fish stocks are causing 
serious job losses in the district that I represent in North 
Carolina. A great example of this is NOAA's December 2010 
approval of amendment 17(b) to the South Atlantic snapper/
grouper plan. That amendment closed Federal waters from 240 
feet to 200 miles offshore from Florida through North Carolina 
to protect two fish, speckled hind and Warsaw grouper, for 
which there are no valid stock assessments.
    In fact, the last stock assessment on speckled hind was 
completed 11 years ago. The last stock assessment on Warsaw 
grouper was completed over 20 years ago. Imposing such a 
massive closure based on outdated science is not a good policy. 
It is also costing my constituents their jobs. The annual 
economic loss to fishermen in my district from amendment 17(b) 
is over $1 million.
    I am pleased that NOAA is helping to get some of these 
fishermen back to work, but serious damage has been done. This 
unnecessary situation is the result of Magnuson Act 
requirements to set annual catch limits on species determined 
to be undergoing overfishing based on best available science. 
NOAA has interpreted the Magnuson definition of best available 
science to mean any available science, regardless of how old it 
is and how sound it is.
    So in the case of amendment 17(b), even though the science 
was over ten years old, it was used to produce a finding that 
the stocks are now undergoing overfishing. That finding 
triggered the Magnuson Act requirements for an annual catch 
limit which the agency set at zero. Unfortunately, this is not 
an isolated incident. Fishing communities around the country 
are suffering under similar circumstances.
    The fishermen that I talked to agree that at least two 
changes are necessary to fix the problem. First, Congress must 
improve the Magnuson Act definition of best available science. 
If the most recent stock assessment is more than five years 
old, it should not be considered as best available or used as a 
basis for management decisions.
    Second, we need more money for fishery science. That is why 
it is so troubling that NOAA is robbing money from the science 
budget in order to ram their job-destroying catch shares agenda 
down the throats of fishermen. For Fiscal Year 2012, NOAA 
proposed to redirect $17.4 million from science to catch 
shares. This again is unacceptable. It is troubling to see NOAA 
take tens of millions of dollars in Saltonstall-Kennedy funds, 
which are required by law to be spent on fisheries research, 
and instead use them to fund NOAA operations.
    In Fiscal Year 2009 alone, NOAA used over two-thirds of its 
$108 million in Saltonstall-Kennedy revenue on operating 
expenses, leaving less than one-third for fisheries research 
grants. At the very least, this practice appears improper. It 
may be illegal. In the interests of transparency and 
accountability, I believe the Inspector General of the Commerce 
Department or GAO should open an investigation into NOAA's 
administration of Saltonstall-Kennedy funds.
    Mr. Chairman, I would like to thank you and this committee 
again for this opportunity. As Mr. Mica said, it is time that 
we review what is sound science. And with that, I will yield 
back the balance of my time.
    [The prepared statement of Mr. Jones follows:]

    Statement of The Honorable Walter B. Jones, a Representative in 
               Congress from the State of North Carolina

    Mr. Chairman, thank you for the opportunity to provide testimony on 
this important topic. On behalf of Eastern North Carolina fishermen, I 
can confirm that the Magnuson Act's definition of ``best available'' 
science and the lack of science on fish stocks are causing significant 
job loss in North Carolina.
    A great example of this can be seen in NOAA's December 2010 
approval of Amendment 17B to the South Atlantic Snapper-Grouper 
Management Plan. That amendment closed federal waters from 240 feet to 
200 miles offshore from Florida through North Carolina to protect two 
fish species--speckled hind and warsaw grouper--for which there are no 
valid stock assessments. In fact, the last stock assessment on speckled 
hind was completed 11 years ago. The last stock assessment on warsaw 
grouper was completed over 20 years ago! Imposing such a massive 
closure based on such outdated science is terrible policy. It's also 
costing my constituents their jobs, as boats are literally tied to the 
dock because of this. The annual economic loss to fishermen in my 
district from Amendment 17B is well over $1 million dollars. I am 
pleased that NOAA is helping to get some of these fishermen back to 
work, but serious damage has been done.
    This unnecessary situation is largely the result of the Magnuson 
Act's requirements to set annual catch limits on species determined to 
be undergoing ``overfishing'' based on ``best available science''. NOAA 
has interpreted the Magnuson Act definition of ``best available'' 
science to mean ``any available'' science, regardless of how old it is, 
or how sound it is. So in the case of Amendment 17B, despite the fact 
that the only available science was well over 10 years old, it was used 
to produce a determination that the stock is currently undergoing 
overfishing. This finding triggered the Magnuson Act's requirement for 
imposition of an annual catch limit, which the agency found should be 
set at zero.
    Unfortunately, this situation is not an isolated incident. Fishing 
communities around the country are suffering under similar 
circumstances. The fishermen I talk to unanimously agree that at least 
two changes are necessary to fix this problem.
    First, Congress must pass legislation to improve the Magnuson Act's 
definition of ``best available'' science. If the latest available stock 
assessment is more than five years old, it should not be considered 
``best available'' or used as the basis for management decisions.
    Second, we need more money for fisheries science. That is why it is 
extremely troubling that this Administration continues to rob money 
from the NOAA science budget in order to ram their job-destroying catch 
shares agenda down the throats of fishermen across the country. For 
Fiscal Year 2012, NOAA proposed to redirect $17.4 million from science 
to catch shares. That is simply unacceptable.
    It is also troubling to see NOAA annually take tens of millions of 
dollars in Saltonstall-Kennedy funds--which are required by law to be 
spent on fisheries research--and instead redirect them to fund NOAA 
operations. In Fiscal Year 2009, NOAA used over two-thirds of its $108 
million in Saltonstall-Kennedy revenue on operating expenses, leaving 
less than one-third for fisheries research grants. At the very least, 
this practice appears improper. It may also be illegal. In the interest 
of transparency and accountability, I believe the Inspector General of 
the Commerce Department or the Government Accountability Office (GAO) 
should open an investigation of NOAA's administration of Saltonstall-
Kennedy funds.
    Mr. Chairman, I'd like to thank you again for holding this hearing. 
This is an important issue, and I appreciate the opportunity to 
testify.
                                 ______
                                 
    Mr. Fleming. The gentleman yields back. The Chairman thanks 
you. Mr. Frank, sir, you have five minutes.

 STATEMENT OF BARNEY FRANK, A REPRESENTATIVE IN CONGRESS FROM 
               THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Frank. Thank you, Mr. Chairman. And as he often does, 
Mr. Jones has put this case forward quite carefully and in a 
very well documented fashion. I am very pleased that we worked 
together on a number of things. We have one particular bill 
especially relevant in the funding situation. We uncovered a 
pattern, the Inspector General did, of the agency taking the 
money that they received from fines and using it quite 
improperly for their own benefit. So you have both an incentive 
for them to be levying fines more frequently and in larger 
amounts because they were the beneficiaries. And there were 
even some questionable expenditures, and it was money that 
could have gone to research.
    So one of the things we have is a bill that is before your 
committee that would take the fines and give them in the rest 
of this Fiscal Year, 80 percent to the Federal Government, 20 
percent to the States. But from the next Fiscal Year on, give 
them to the States to do the research because it is important 
that we have good research, and it is also important that we 
have independent research. It is important that we not simply 
have research that is done by the people who may have their own 
biases.
    So I recommend to you this legislation, which would make a 
significant amount of money available to do independent 
research, and it would convert the fines of the current system 
from an incentive to be excessively rigid--and I have to say, 
we have just all worked together to get an investigation of the 
way fishermen are treated. And I am a little bit disappointed 
in some of my friends in the environmental community who kind 
of thought we were crying wolf. And I have to say, as a 
liberal, if immigrants, political protestors, or members of 
racial minorities had been abused by law enforcement in the 
same way that fishermen had, there would have been very loud 
protests.
    And I am sorry it took so long for some of my friends to 
understand that the right to fair law enforcement should not 
depend on other policy terms. And I think we are finally 
getting there. We have a new head of law enforcement.
    But there are some other legislative changes that are 
necessary. The definition of science--and again, we want it to 
be good science. We want it to be science where there is some 
independence. We get a Catch-22 where the Magnuson Act does say 
that they could revise the amount that people can catch if 
there is a showing that this is having terrible economic harm, 
and you can justify it. But we have been told that they can 
only do that with data, but they can only do it with their own 
data. And we need to make that more flexible.
    There is a problem with the Magnuson Act definition also on 
the bycatch, as Mr. Mica talked about, where in multi-species 
fisheries, a shortage of one shuts down a whole fishery, and 
where you have this very rigid view about bycatch so that fish 
that are caught are thrown overboard when they could be made 
available for people.
    And finally, we had a successful experiment, again in a 
bipartisan way. We had the aid of Senator Snowe in the Senate, 
Mr. Jones, myself, and some others. We amended--it is 
particular relevant for the New England area--the Canadian 
Boundary Act because that had the requirement that is in the 
Magnuson Act that you have to rebuild the stocks within ten 
years. Ten years is very arbitrary. I asked Dr. Lubchenco at 
NMFS, is there any justification for the ten years. She said, 
well, the fact that it is in the statute is the only 
justification. I asked her if she would then change the 
statute, and she unfortunately, as is her wont, was 
uncooperative.
    But that ten years is arbitrary. If we are making progress 
in restocking the fish, and it is going to take 12 or 13 years, 
but steady progress is coming, and maybe there was an incident 
not related to fishing that slowed it down, there isn't any 
reason why we couldn't have some flexibility there. And I said 
to my environmental friends, we are not talking here about 
permanently fouling the water or deteriorating air quality. We 
are talking about the number of fish we have, and that is not 
an absolute number. But what we did in the Canadian boundary 
issue was to give flexibility so we don't have to live by the 
ten years, and that is working very well, and it will mean 
there will be enough fish.
    You know, we had a little debate at the end of last year 
that some Members will recall about lame duck legislation. 
Well, part of the problem is that the Magnuson Act under which 
we are now acting was a lame duck bill passed in 2006, in that 
lame duck session, with a chairman who unfortunately had been 
defeated. And I think that we suffer from that.
    So this is an example of legislation to go through. The 
bill we have in terms of how you use the fines is an example. 
And I think we can in fact amend the Magnuson Act to be fully 
protective of fish stocks.
    Just the last thing. The notion that fishermen want to fish 
stocks out of existence assumes that the current generation of 
fishermen, who love this, want to be the last fishermen ever. 
Nothing could be farther from the truth.
    Mr. Fleming. Well, I thank the gentleman. I would like to 
thank our colleagues for their interest in this important 
issue, and also for your time coming here today. It is a very 
busy time for Congress. I am just going to open the dais for 
any specific question of the gentlemen. I want to get them back 
to their duties as soon as possible. Rather than having a round 
of questions, we will just simply ask, if you have any 
questions, we do have another panel of scientific experts that 
are going to be coming up, which we are going to drill down on.
    Mr. Frank. And we won't be offended if you think they have 
more to tell you than we do.
    Mr. Fleming. So with that, anyone have specific questions 
for our colleagues today? Well, if not, gentlemen, thank you so 
much for your testimony.
    Mr. Frank. Thank you, Mr. Chairman and Members.
    Mr. Fleming. And as the gentlemen leave, we would ask for 
our next panel to step forward.
    [Pause]
    Mr. Fleming. I would now like to introduce our second 
panel. First we have Mr. Eric Schwaab, Assistant Administrator 
for National Marine Fisheries Service, National Oceanic and 
Atmospheric Administration; Mr. Duane Harris, Member and Former 
Chairman, South Atlantic Fishery Management Council; Dr. 
Steve--let's see. Well, I guess we are a little bit out of 
order here. But that is OK. Just stay where you are. We will 
switch around here. Next is Ms. Julie Morris, Assistant Vice 
President for Academic Affairs, Office of the Provost, New 
College of Florida; and Dr. Steve Cadrin, Associate Professor, 
Department of Fisheries Oceanography, School for Marine Science 
and Technology, University of Massachusetts Dartmouth.
    And again, like all witnesses, your written testimony will 
appear in full in the hearing record, so I ask that you keep 
your oral statements to five minutes as outlined in our 
invitation letter to you and under Committee Rule 4(a).
    Our microphones are not automatic. And again, lights work 
very straightforwardly. You have five minutes to give your 
testimony, four minutes under the green light. Then you will 
have one minute under yellow. When it turns red, we ask that 
you wrap up.
    So with that, I will now recognize Assistant Administrator 
Schwaab for your testimony. Sir, you have five minutes.

 STATEMENT OF ERIC SCHWAAB, ASSISTANT ADMINISTRATOR, NATIONAL 
  MARINE FISHERIES SERVICE, NATIONAL OCEANIC AND ATMOSPHERIC 
                         ADMINISTRATION

    Mr. Schwaab. Chairman Fleming, Ranking Member Sablan, and 
Members of the Subcommittee, thank you for the opportunity to 
testify today. My name is Eric Schwaab. I am the Assistant 
Administrator for Fisheries within the National Oceanic and 
Atmospheric Administration.
    Coastal and marine fisheries such as salmon in the Pacific 
Northwest, red snapper in the South Atlantic and Gulf of 
Mexico, and cod in New England have been vital to the 
prosperity and cultural identity of the coastal United States 
for hundreds of years. As of 2009, using our most recent 
complete estimate, U.S. commercial and saltwater recreational 
fisheries support 1.4 million full- and part-time jobs, many of 
these local jobs that cannot be outsourced, and generate $166 
billion in sales impacts.
    Sustainability of our Nation's fisheries relies on 
continual effort to monitor fisheries and update scientific 
information. So our science and that of partner agencies and 
organizations plays a critical role in ensuring the continued 
productivity of these resources.
    National standard two of the Magnuson-Stevens Act mandates 
that all fisheries' conservation and management measures must 
be based upon the best scientific information available. While 
there are challenges in securing sufficiently accurate, 
precise, and timely data that allow us to respond to changing 
conditions, on balance science-based management leads to 
improved productivity and sustainability of coastal jobs.
    Through the Magnuson-Stevens Act, the United States has a 
clear mandate to achieve sustainable fisheries. NMFS is 
committed to generating the best fishery science to help 
achieve this mandate. Strong science coupled with sound 
management is beginning to pay off. Over the ten-year period 
between 2000 and 2010, we saw 36 stocks once overfished achieve 
rebuilding goals and come off that list, and 36 stocks once 
undergoing overfishing managed at sustainable fishing levels 
and also removed from the overfishing list.
    In the Pacific Northwest, lean cod was designated as 
overfished in 1999. A variety of restrictions ended overfishing 
in 2005, and the stock was rebuilt ahead of schedule. Atlantic 
sea scallops were once severely overfished, but with 
cooperation from scallop fishermen, the stock was rebuilt in 
2001, and is now the top-valued fishery in the United States.
    Compared to when scallops were overfished, New England 
scallop fishermen are now sustainably harvesting an additional 
17.5 million metric tons per year, and ex-vessel revenues have 
increased by $93 million annually.
    The 26 stocks and stock complexes in the Alaska groundfish 
fisheries have long been managed under annual catch limits. 
None of these stocks is overfished or subject to overfishing, 
and all are near or above the abundance levels that support the 
long-term optimum yield from the fishery.
    These success stories are a product of strong leadership 
and investment by Congress, and hard work of scientists and 
fishermen across the country to obtain the data needed to 
effectively inform management decisions. But they do require 
long-term commitments.
    Our progress shows that investment in science and 
management results in sustainable fisheries. That is why NMFS 
and our partners have always focused on getting the most data 
and the highest priority and quality data by fully utilizing 
the funding Congress has provided. With sustained congressional 
support, we can continue to make substantial progress. 
Conversely, reducing commitments to science or retreating from 
the mandates of the Magnuson-Stevens Act will hurt our 
fisheries and reduce local economic benefits.
    As part of the President's Fiscal Year 2012 budget, NOAA is 
seeking to increase the expand annual stock assessment budget 
by $15 million, for a total of more than $61 million. This 
funding would allow NMFS to increase the number of stocks with 
adequate assessments, helping to verify that overfishing is no 
longer occurring and allow catch levels that support both 
sustainability and economic viability.
    It is important to note that this single budget line 
represents only about one-third of the total funding that NMFS 
spends on stock assessments and fishery monitoring, and that 
there are additional costs for infrastructure and for the sea 
days provided by the NOAA fleet for fish surveys. Investments 
such as this can help our fisheries and our economy grow. NMFS 
has estimate that if all stocks were rebuilt and harvested at 
their maximum sustainable yield, this could increase ex-vessel 
value by as much as $2.2 billion, which would generate $31 
billion in sales impacts and support 500,000 jobs.
    Sustaining the science to understand stock dynamics, 
document stock status, and develop and implement annual catch 
limits is paramount to reaching these goals.
    Mr. Chairman, thank you again for the opportunity to 
testify before you today. I am happy at the appropriate time to 
answer any questions you may have.
    [The prepared statement of Mr. Schwaab follows:]

   Statement of Eric Schwaab, Assistant Admistrator, National Marine 
  Fisheries Service, National Oceanic and Atmospheric Administration, 
                      U.S. Department of Commerce

    Chairman Fleming and members of the Subcommittee, thank you for the 
opportunity to testify before you today on the question, ``NOAA's 
Fishery Science: Is the Lack of Basic Science Costing Jobs?'' My name 
is Eric Schwaab and I am the Assistant Administrator for Fisheries, 
within the National Oceanic and Atmospheric Administration (NOAA), 
Department of Commerce. The National Marine Fisheries Service (NMFS) is 
dedicated to the stewardship of living marine resources through 
science-based conservation and management, and the promotion of healthy 
ecosystems. As a steward, NMFS conserves, protects, and manages living 
marine resources to ensure functioning marine ecosystems and 
recreational and economic opportunities for the American public.
    NOAA's fishery science adds value to our Nation's fisheries and can 
lead to increased opportunities for businesses and the employment they 
generate. National Standard 2 of the Magnuson-Stevens Fishery 
Conservation and Management Act (Magnuson-Stevens Act) mandates that 
all fisheries conservation and management measures must be based upon 
``the best scientific information available'' (16 U.S.C. 1851(a)(2)). 
While there are challenges in securing data of sufficient accuracy, 
precision and timeliness so as to understand and respond maximally to 
changing conditions, on balance, science based management leads to 
improved productivity and sustainability of fisheries and fishery 
dependent businesses.
    I will begin by describing the elements of fisheries science, 
focusing primarily on fish stock assessments, to explain current 
efforts. I will talk about the importance of the different types of 
data we use, how they contribute to stock assessments, and how stock 
assessments are used to advise fisheries managers. Fisheries science is 
a data-intensive endeavor, and NMFS and our management partners have 
always focused on getting the most data, and the highest priority, 
highest quality data, by fully utilizing the funding Congress has 
provided for us to do this vital work. This funding and the work it 
supports enable us to sustain and enhance our fisheries. Further, 
either reducing funding levels or retreating from the mandates of the 
Magnuson-Stevens Act, as amended, will hurt our fisheries and reduce 
the economic benefits they provide to coastal communities.
    I also note that NMFS has a broad and diverse science enterprise 
that supports not only fisheries management but also habitat and 
protected species programs. NMFS's science is necessary to implement 
the Magnuson-Stevens Act, Endangered Species Act, and Marine Mammal 
Protection Act. Sound science is needed to ensure that target fishery 
species, endangered species and marine mammals and their habitats are 
conserved. Scientific understanding and effective management decisions 
are essential to efforts to maintain or recover species to healthy and 
ecologically-sustainable levels. Through this understanding and 
management, fisheries will be sustainable, and activities like energy 
development and national security actions will proceed appropriately 
and consistent with relevant legislative mandates. Quality information 
will allow management to meet conservation objectives while also 
ensuring optimal levels of economic activity that can be sustainably 
supported by the resource.
    Marine fisheries, such as salmon in the Pacific Northwest and cod 
in New England, have been vital to the prosperity and cultural identity 
of coastal communities in the United States for hundreds of years. As 
of 2009, our most recent complete estimate, U.S. commercial and 
saltwater recreational fisheries supported 1.4 million full and part-
time jobs--including local jobs that cannot be outsourced--and 
generated $166 billion in sales impacts.\1\ Sustainability of our 
Nation's fisheries takes continual effort to monitor fisheries and 
update scientific information. With continued Congressional support, 
NMFS will continue to make substantial progress toward science-based, 
effectively managed, and economically viable commercial and 
recreational fisheries that will benefit coastal communities and the 
U.S. economy both today and for generations to come.
---------------------------------------------------------------------------
    \1\ National Marine Fisheries Service. 2011. Fisheries Economics of 
the United States, 2009, available at http://www.st.nmfs.noaa.gov/st5/
publication/fisheries_economics_2009.html.
---------------------------------------------------------------------------
The elements and data requirements of fisheries science
    Fishery science provides information needed to define and attain 
sustainable and valuable fisheries. Without high quality fishery 
science, we cannot be confident that the Nation is attaining optimum 
yield from its fisheries, or that we're preventing overfishing and harm 
to ecosystems and fishing communities. Attaining optimum yield requires 
an investment in information about fish stocks, their fisheries and 
their ecosystems. The United States has a clear legislative mandate to 
achieve sustainable fisheries, based on a strong regulatory structure 
in association with the Regional Fishery Management Councils. NMFS is 
committed to generating the best fishery science to implement this 
program. We are international leaders in fishery science, at the 
forefront of rebuilding overfished stocks and preventing overfishing, 
efforts that are beginning to pay off in many coastal communities. 
Today, we know more about our fish stocks than ever before, and it is 
vital that our science not regress, as this would inevitably lead to 
declines in our stocks and a loss in the economic and social values 
they provide.
    NMFS collects the data required for stock assessments through both 
fishery-independent observations, such as surveys of fish abundance, 
and through fishery-dependent observations, such as data collected by 
fishery observers and vessel trip reports provided by fishermen. In FY 
2011, this capability will be primarily supported through the Expand 
Annual Stock Assessments budget line which is funded at $53.4 million. 
Other significant contributions to the total stock assessment effort 
include Survey and Monitoring, Fisheries Statistics, Fishery 
Information Networks, Observer Programs, and others. In addition, NMFS 
utilizes NOAA Office of Marine and Aviation Operation's Fishery Survey 
Vessels as a primary platform for many of its stock assessment data 
collection activities. As part of the FY 2012 President's Budget, NOAA 
is seeking to increase the Expand Annual Stock Assessment budget by $15 
million, while at least maintaining funding from other contributing 
budget lines. This funding will improve assessments for high priority 
stocks; update assessments for stocks more frequently; and, conduct 
fishery-independent surveys to enable assessment of more stocks, 
including data poor stocks, 3-5 years from now. This funding will help 
verify that overfishing is no longer occurring and allow optimum catch 
levels to be set to support the sustainability and economic viability 
of fish stocks.
    The stock assessment process is generally considered to include 
both data collection and the analysis of that data by fishery 
scientists. Data for fishery science is based generally on three core 
components: fishery catch from fishery monitoring programs, fish 
abundance from fishery-independent surveys, and fish biology. By 
tracking these three components over time and incorporating these data 
into stock assessment models, scientists can estimate range and 
abundance of stocks, calculate maximum sustainable yield, determine 
whether overfishing has been occurring or whether the stock has 
declined into an overfished state, and can forecast a sustainable level 
of catch, which provides the foundation for setting annual catch limits 
in accordance with law. Because fish stocks and their fisheries are 
broadly distributed throughout state, national, and international 
zones, the monitoring programs needed to provide these data are 
geographically extensive. Finally, the amount and quality of data 
available are used to estimate degrees of uncertainty that can inform 
assessments and the level of risk associated with various management 
actions.
    Fishery catch information strives to measure total catch. One 
component is obtained by monitoring commercial landings, largely in 
partnership with the states and the marine fishery commissions. This 
landed catch information is augmented by at-sea monitoring of bycatch 
and information on discards collected by fishery observer programs. For 
recreational fisheries, NMFS' Marine Recreational Information Program 
is applying new and improved methods to the difficult challenge of 
estimating total catch by the millions of recreational anglers 
nationwide. Rarely are fishery catch monitoring programs focused on 
single species or fisheries; instead they are generally designed to 
monitor multiple species and fisheries over large geographic areas.
    NMFS has relied heavily on its partnerships with the states and the 
interstate marine fisheries commissions to conduct efficient and cost-
effective monitoring of commercial landings and recreational catches. 
The federally-funded Fisheries Information Networks have provided a 
means through which NMFS has been able to work collaboratively with its 
partners to design and implement well-integrated data collection 
programs that meet the management needs of both state and federally-
managed fisheries. Cooperative regional programs such as the Atlantic 
Coastal Cooperative Statistics Program, the Gulf Fisheries Information 
Network, the Pacific Fisheries Information Network, the Pacific 
Recreational Fisheries Information Network, the Western Pacific 
Information Network, and the Alaska Fisheries Information Network have 
worked effectively to eliminate unnecessary overlaps, standardize data 
elements and collection methods, and improve the timeliness of data 
processing, statistical analysis, and dissemination of catch statistics 
to all partners. Much of the commercial landings and recreational catch 
data is actually collected, processed, and managed by state agency 
personnel in accordance with procedures developed in collaboration with 
NMFS. Continued funding of the Fisheries Information Networks will be 
crucial for maintaining our current capabilities for monitoring 
commercial and recreational catches. The House Appropriations Committee 
mark up of the FY 2012 Commerce, Justice, Science and Related Agencies 
Appropriation bill includes a 30 percent cut from the FY 2011 spend 
plan in funding for the Fisheries Information Networks, which would 
considerably reduce the effectiveness of these programs.
    NMFS' National Fisheries Information System Program has provided a 
mechanism for cross-regional collaboration and sharing of ideas on how 
best to improve the timeliness, quality, and accessibility of 
commercial and recreational fishery catch information. The Fisheries 
Information System Program has been working to continue to develop 
electronic dealer reporting programs and electronic logbook reporting 
programs to provide more timely and accurate updates on commercial 
landings. The Fisheries Information System and the Fisheries 
Information Networks have also been working together to develop and 
implement information management architectures that will eventually 
allow comprehensive access to complete and up-to-date state and federal 
catch statistics within each region, as well as at the national level. 
Cooperative efforts are now also focused on improving quality 
management of catch data collection programs through enhanced reviews 
and evaluations of the current procedures for quality assurance and 
quality control. Improving the timeliness, accessibility, and quality 
of catch information is extremely important to facilitate the work of 
fishery managers in monitoring fishing performance.
    Fisheries observers are trained biologists placed on board 
commercial fishing and processing vessels, as well as in some shoreside 
processing plants. They are the most reliable, unbiased source of data 
on the actual at-sea performance of commercial fisheries. They collect 
data on bycatch, enabling accurate estimation of total mortality, a key 
component of stock assessment modeling. In some fisheries, they provide 
data on catches. They also provide high-quality data on interactions 
with protected species. This information is important to ensure that 
protected species remain healthy and their interactions with fisheries 
are minimized so that harvest opportunities are affected as little as 
possible. In FY 2010, NMFS logged over 68,000 observer days in 45 
fisheries.
    Fish biology information is most diverse in its sources, with 
important information coming from NMFS monitoring programs, academic 
studies, cooperative research and other programs. The outcome of these 
activities is vital information on fish longevity, growth, 
reproduction, movement, and other factors needed to calibrate fish 
stock assessment models. The biological information we collect includes 
age data for many of our most important stocks. With the addition of 
fish age data, we are able to apply more complex and sophisticated 
stock-assessment models that provide better information on changes in 
fish abundance over time, more direct information on fish mortality 
rates caused by fishing, and more precise forecasts of future changes 
in fish abundance and potential annual catch limits.
    Fish abundance information is best obtained from standardized, 
fishery-independent surveys covering the extensive range of the fish 
stocks. The average catch rate of fish typically is measured at 
hundreds of sampling locations over the range of a suite of fish 
stocks. These surveys are repeated, typically annually, to measure the 
change in catch rate over time, which is the cornerstone information of 
the fishery assessment models. When possible, NOAA vessels conduct 
these surveys to achieve the highest degree of standardization and to 
simultaneously collect the broadest range of associated habitat, 
ecosystem and environmental data. In some regions, the primary 
platforms for the surveys are chartered fishing vessels that may be 
partially funded through catch set-asides or other forms of cooperative 
research. Where fishery-independent surveys are not feasible, such as 
for open ocean tunas, or have not been funded, NOAA uses catch rates 
from the fishery as a proxy approach. Compared to fishery-independent 
surveys, this approach provides a lower level of confidence of 
standardization over time, because changes in commercial or 
recreational landings can be influenced by factors other than 
abundance, such as market forces or changes in regulations.
    NMFS partners with states in conducting some of our surveys, 
particularly in coastal waters. The state vessels are generally smaller 
than the NOAA vessels, and can operate in shallower, nearshore and 
estuarine areas. This is particularly important for providing data on 
stocks that occur in these important habitats. For example, the 
Southeast Area Monitoring and Assessment Program, commonly known as 
SEAMAP, is a collaboration dating back to 1977 involving NMFS, the Gulf 
States Marine Fisheries Commission, and the states bordering the Gulf 
of Mexico. SEAMAP provides much of the fisheries-independent data used 
in Gulf of Mexico stock assessments, and is funded at $5.1 million in 
FY 2011. These funds are transferred to the Commission and individual 
states via grants and cooperative agreements to conduct the surveys. 
There are numerous other surveys conducted by, or in partnership with, 
states that provide data to NMFS for stock assessments.
    While sophisticated stock assessments provide information on what 
changes have occurred in fish abundance, they do not tell why these 
changes occurred. For this, NMFS seeks to augment our fish assessments 
with habitat studies, fishery oceanography, ecosystem investigations 
and other programs to explain why changes have occurred and improve 
forecasts of long-term and short-term fishery available yield and 
holistic ecosystem impacts.
    It is important to note here that protected species surveys (marine 
mammals and threatened and endangered species) are also important, as a 
paucity of information on these species can lead to conservative 
assumptions regarding fishery interactions, which can lead to 
restrictions on fisheries.

Stock assessments, uncertainty buffers, and management advice
    From 2005 to 2010, NMFS had the data and capacity to assess an 
average of 95 stocks each year. With this level of assessment activity, 
NMFS is not able to provide adequate assessments for all of the 500 
plus stocks in U.S. Fishery Management Plans, but is able to provide 
regular assessments for the most important stocks. Assessment activity 
is distributed to address the most important needs to the extent 
possible. Some important stocks have been assessed every one to two 
years, while several other stocks that had not been previously assessed 
were assessed for the first time during this six-year period. Of the 
500 plus managed stocks, 230 have been identified as members of the 
Fish Stock Sustainability Index. These Fish Stock Sustainability Index 
stocks constitute over 90 percent of U.S. commercial landings. For the 
Fish Stock Sustainability Index stocks, NMFS has been able to increase 
the number with adequate assessments from 119 in 2005 to 132 in 2010. 
For the purpose of tracking performance, an assessment is considered to 
be adequate for five years after its most recent update. All of these 
132 adequate assessments meet this criterion. The overall index score, 
which tracks our knowledge about the stocks, as well as progress in 
ending overfishing, ensuring stocks are not overfished, and rebuilding 
stocks has increased by 63 percent since 2000. That substantial 
increase shows that investment in both science and management results 
in sustainable fisheries.
    Uncertainty is inherent in all fish stock assessments. Because fish 
abundance surveys and fishery monitoring programs have sampling error, 
fish stock assessment models are simplifications of all the complex 
processes occurring in nature. Neither ecosystem studies nor advanced 
technology surveys can eliminate this uncertainty completely. To 
address this uncertainty when setting fishery catch targets, fishery 
managers typically include a buffer between the overfishing limit and 
the target for allowable catch. The objective is to lower the 
probability that the overfishing limit will be exceeded, while not 
overly restricting fishing opportunities. The size of this buffer 
depends on the degree of uncertainty in the assessment result and the 
degree to which the Council's Fishery Management Plan seeks to avoid 
overfishing. For example, if the plan calls for no more than a 45 
percent chance that overfishing would occur, then a stock with a highly 
uncertain assessment would have a larger buffer than would a stock with 
a more precise assessment. Investments in more and better assessment 
data reduce uncertainty, and thus reduce the size of the buffer without 
increasing the chance of overfishing. This in turn allows for greater 
fishing opportunities and improved economic benefits. Conversely, 
reduced investment in assessments will lead to either increased 
uncertainty and lower catch limits or greater risk of overfishing.
    To ensure that we provide fishery managers with the best available 
science, NMFS includes extensive peer reviews as a component of our 
stock assessment processes. The peer review process provides fishery 
managers and constituents with confidence in the integrity of 
assessments and assurance that they represent the best available 
science. The Magnuson-Stevens Act clarifies that such peer reviews are 
a valuable part of the management process. The Regional Fishery 
Management Councils' Scientific and Statistical Committees use the peer 
reviewed stock assessment results as the basis for providing fishing 
level recommendations to their Fishery Management Councils. NMFS is 
working with the Regional Fishery Management Councils and their Science 
and Statistical Committees as each Council works to implement 
regionally relevant protocols for peer reviews and to expand the role 
of the Science and Statistical Committee in providing fishing level 
recommendations.

Provision and allocation of survey vessel time
    The provision and allocation of survey vessel time for conducting 
our fish surveys is a particularly important issue. Surveys provided by 
NOAA survey vessels are the primary sources of fisheries-independent 
data used to monitor stock abundance and are augmented by chartered 
commercial vessels for some surveys.
    Eight fisheries survey vessels, including four new Dyson-class 
vessels, conduct the majority of these fishery-independent surveys. A 
ninth vessel, the Miller Freeman, was recently removed from service due 
to numerous mechanical failures and declining safety. These vessels 
conduct dozens of surveys each year; however, this number is in 
decline. NOAA's Office of Marine and Aviation Operations' (OMAO) base-
funded days at sea for the overall NOAA fleet have declined from 
approximately 200 days per ship (average FY 2004--FY 2006) to as few as 
153 days per ship in FY 2010 (maximum operating tempo for NOAA vessels 
is 235 days at sea). In 2008, NOAA vessels conducted 56 surveys for 
fish assessments, protected species assessments, and supporting 
studies. Only 40 surveys were conducted in FY 2010, and 40 are planned 
to be conducted in FY 2011. Primary factors contributing to the 
reduction of capacity for the NOAA fleet include: changing composition 
of the fleet including new more sophisticated fisheries survey vessels 
with improved scientific capabilities; higher personnel costs 
associated with staffing, safety and regulatory requirements, and 
increased fuel and maintenance requirements, especially for aging 
vessels.
    Since 2007, NMFS has provided programmatic funds, called ``Program 
Funded Days'' to the NOAA fleet, so that critical surveys could be 
sustained. Additional funds have been provided for charter commercial 
vessels to conduct surveys for which NOAA vessels were not available or 
not appropriate. In FY 2011, NMFS will spend over $8 million on 
chartered surveys, using funds that otherwise would have been used to 
increase the pace and quality of stock assessments including 
investments in advanced technology. Some surveys have been shortened in 
length, limiting their effectiveness, and in other cases surveys have 
been cancelled altogether.
    This decreased survey time ultimately results in stock assessments 
that include estimates with a higher uncertainty, which must be 
considered by fishery managers when establishing annual catch limits to 
avoid overfishing as required by the Magnuson-Stevens Act. This could 
lead to more conservative annual catch limits. In uncertain situations, 
lower catch levels decrease the possibility of overfishing, thereby 
increasing long-term economic opportunity from a sustainably managed 
resource. Even if a stock is stable, without sea time to collect enough 
updated data on stock abundance and distribution, stock assessments 
cannot verify this stability without high uncertainty. An increased 
utilization rate for the fleet will result in more frequent and/or 
extensive fishery surveys, leading to updated stock assessments and 
increased confidence in establishing annual catch limits. NOAA is 
currently identifying several options for increasing days at sea, 
because a robust NOAA fleet directly benefits our coastal communities 
and increases fishery-related jobs. To reiterate, the FY 2012 
President's Request to the Expand Annual Stock Assessments budget, an 
increase of $15 million, will support fishery-independent surveys to 
enable assessment of more stocks.

Cooperative research
    Another valuable source of fisheries-independent data is 
cooperative research. The agency's cooperative research provides both 
targeted survey data and opportunities for hands-on, face-to-face 
interactions between fishermen and scientists from NMFS, other 
management agencies and academia. Cooperative research is essential to 
leveraging the knowledge, tools, techniques, skills, and experiences 
that fishermen possess that would otherwise be unavailable to our 
scientists. It also fosters better understanding and increased 
acceptance of our science by these vital stakeholders. In FY 2011, 
Congress provided over $16 million in funds for cooperative research, 
including: $10.1 million to the National Cooperative Research Program 
and $6 million for cooperative research activities from the National 
Catch Share Program.
    Regional cooperative research priorities are established 
collaboratively among the NMFS Science Centers and Regional Offices, 
Regional Fishery Management Councils, interstate Commissions, state 
fishery management agencies, academia, and interstate stakeholders in 
accordance with the cooperative research priorities in Section 318 of 
the Magnuson-Stevens Act. The agency's cooperative research portfolio 
corresponds on a regional basis to the respective Regional Fishery 
Management Council multi-year research priority plans. These plans are 
Regional Fishery Management Council functions under Section 302(h)(7) 
of the Magnuson-Stevens Act, which requires the Regional Fishery 
Management Councils, in conjunction with their Science and Statistical 
Committees, to develop multi-year research priorities for fisheries, 
fisheries interactions, habitats, and other areas of research that are 
necessary for management purposes every five years.
    Since NMFS's cooperative research program is designed to complement 
NMFS's base monitoring programs, most of the activities generate 
information that is not collected by agency assets. Improvements in the 
data available for management, including from cooperative research, 
allow for greater confidence in stock assessment estimates and less 
need to reduce allocations to protect against uncertainty.

Marine Recreational Information Program
    NMFS is now implementing the new Marine Recreational Information 
Program, which has been designed based on the recommendations of the 
National Research Council's 2006 review of the Marine Recreational 
Fishing Statistical Survey. NMFS is developing and testing new survey 
methodologies to improve the accuracy, geographic resolution and 
timeliness of recreational fishing catch and effort data. These 
improvements are necessary to support successful management of 
fisheries with Annual Catch Limits and Accountability Measures. The 
President's FY 2012 budget request includes an increase of $3 million 
to begin implementing improvements developed through the Marine 
Recreational Information Program.
    NMFS currently develops recreational fishery catch estimates for 
the Gulf and Atlantic coasts via three ongoing surveys. The coastal 
household telephone survey generates information on angler trips. The 
access point angler intercept survey provides data on catch per trip. 
The results of these two surveys are combined to generate catch 
estimates for shore and private boat angling modes. The for-hire survey 
and the access point angler intercept survey are utilized to provide 
estimates for the for-hire (charter and head boat) mode. The Marine 
Recreational Information Program is developing revised methods that are 
being phased in over the next two years to substantially reduce sources 
of error and improve the accuracy of effort and catch estimates based 
on a combination of telephone, mail and access point surveys. 
Currently, the Marine Recreational Information Program is implementing 
a new design-unbiased method to retrospectively estimate catch 
statistics from the Marine Recreational Fishing Statistical Survey for 
data from 2004 to the present. Next winter, the program will implement 
an improved sampling design for access point surveys that will further 
reduce the potential for error. These revised methods have been 
developed by a team of NMFS and independent survey experts and, as with 
all changes to our survey methods, have been subject to independent 
peer review. The same team, in collaboration with Pacific Recreational 
Fisheries Information Network and state natural resource agencies, has 
also reviewed survey methods in use in California, Oregon and 
Washington, and has recommended survey design improvements to address 
potential sources of error in those surveys. The states will be testing 
these recommendations with the Marine Recreational Information Program 
support over the next two years.
    In addition, NMFS implemented the National Saltwater Angler 
Registry Program in 2010 and has developed new survey designs for 
estimating fishing effort that are based primarily on sampling from 
lists of registered anglers who fish from shore or private boats or 
from lists of registered for-hire boats and their operators. The new 
registry-based approach will replace the coastal household telephone 
survey and upgrade the for-hire survey. NMFS expects that 
implementation of the new fishing effort surveys will begin in 2011. 
These changes address the highest priority findings of the National 
Research Council's 2006 review of our current survey methods.

 The potential for in-season management of recreational fisheries
    Improving the timeliness of catch estimate delivery that could 
support active, in-season tracking and management of recreational catch 
is a significant challenge. The Marine Recreational Information Program 
will continue to use sample survey methods to estimate recreational 
catch for private boat and shore fisheries. Currently, preliminary 
estimates of catch for these surveys for the Atlantic and Gulf coast 
fisheries are available for 45 days following a two-month sampling 
period. In March 2011, NMFS conducted a workshop with key management 
partners and stakeholders to assess needs for more timely catch 
estimates and the tradeoffs associated with improving data timeliness. 
The key outcomes of the workshop are posted at: http://
www.countmyfish.noaa.gov/workshop/Data%20Timeliness%20Workshop%
20Key%20Outcomes%20FINAL.pdf. A final report and recommendations for 
improving timeliness of recreational catch estimate delivery, and for 
improving methods for forecasting in-season catches, will be completed 
by late summer. During the workshop, managers expressed a need to 
shorten sampling periods from two months to one month for at least some 
portions of the year on the Atlantic and Gulf coasts. The President's 
Budget Request for FY 2012 includes an increase of $3.0 million for the 
Marine Recreational Information Program, of which $2.0 million is 
targeted at shortening sampling intervals for the Atlantic and Gulf 
coasts to address this need.
    The Marine Recreational Information Program is also developing 
electronic trip reporting methods for the for-hire fisheries. 
Electronic reporting, when mandated and strictly enforced and 
supplemented with independent validation, would enable near real-time 
tracking of the catch of the charter and headboat sector. Of the 
funding increase requested for FY 2012, $1.0 million is targeted at 
implementing electronic for-hire trip reports in the Southeast and 
Northeast Regions.
    Providing preliminary catch estimates to managers more frequently 
during fishing seasons, and improving models for projecting catch from 
such preliminary data, may enable managers to more confidently track or 
project recreational catch and consider in-season adjustments to 
prevent significant overharvest of catch limits, or to re-open 
fisheries that closed before annual catch limits were reached. In some 
cases, including fisheries with short open seasons or limited catch, 
such in-season capability will be difficult to achieve with sample 
survey methods, regardless of any efforts to shorten sample periods. In 
these cases, the Regional Fishery Management Councils may apply tools 
consistent with the National Standard 1 guidelines to prevent catch 
from exceeding catch limits, potentially triggering subsequent 
reductions in recreational sector catch limits. Such tools include 
setting catch targets at levels below the catch limits that are 
proportionate to the management uncertainty associated with the timing 
of the availability of catch estimates or setting multi-year catch 
limits with periodic adjustments to management measures in response to 
monitored catch over time. By improving the timeliness of our current 
estimates and applying the management tools available, NMFS and the 
Regional Fishery Management Councils can work together to maximize 
recreational opportunities while preventing overfishing.

Effect of 2007 amendments to the Magnuson-Stevens Act on domestic 
        fisheries
    The 2007 amendments to the Magnuson-Stevens Act have had a 
significant impact on fisheries management. A key element of these 
amendments is the requirement that the Regional Fishery Management 
Councils specify annual catch limits to prevent overfishing for all 
fisheries experiencing overfishing by 2010, and for all fisheries by 
2011. NMFS has been working hard to acquire the necessary data, conduct 
the stock assessments, and work with the Regional Fishery Management 
Councils and their Scientific and Statistical Committees to specify and 
put in place the required annual catch limits. NMFS and the fishermen 
it serves have benefited considerably from the funding we have received 
from Congress to meet these challenging requirements.q
    NMFS strives to provide as up-to-date stock assessments as 
possible. Fish assessments and their forecasts of potential fishery 
yield are not unlike weather forecasting. In both cases, complex 
natural forces cause fluctuations, which require monitoring and 
periodic forecast updates to avoid getting ``stale'' and to remain 
highly relevant. Just as a two-week old weather forecast can still tell 
you whether it is winter or summer, an old stock assessment can still 
have the average conditions about right even as it loses track of 
subsequent fluctuations. However, old stock assessments do not capture 
recent trend information, such as whether the stock is on a rebuilding 
plan or is collapsing. The best interval between assessment updates 
depends upon many factors including the degree of natural fluctuations 
for that stock, the value of the fishery and intensity of fishing 
activity, whether the stock is on a rebuilding plan, is overfished or 
undergoing overfishing, and other factors. In 2012, NMFS will deploy a 
comprehensive stock assessment prioritization strategy to ensure agency 
resources and efforts are directed to those stocks whose assessments 
are most in need of updating, or which are the highest priority for a 
new assessment.
    For the 40 stocks that were subject to overfishing in 2010, the 
average age of the assessment was 2.6 years. Further, of the 20 stocks 
that have been on the overfishing list since 2000, the average age of 
their assessments was approximately 3.5 years, versus 1.8 years average 
age for the other stocks on the list. Similarly, for the 48 stocks that 
were overfished in 2010, the average age of the assessment was 2.0 
years. Of the 13 stocks that have been on the overfished list since 
2000, the average age of their assessments was also approximately 3.5 
years, versus 1.4 years average age for the other stocks on the list.
    However, it is clear that there are stocks for which NMFS does not 
have adequate assessments. NMFS fully intends to make more progress in 
assessing these stocks, especially those identified as high priority, 
and there is some potential for gains through greater efficiency in the 
assessment process. However, fishery science is a data-intensive and 
labor-intensive endeavor, and making substantial improvements will 
require additional resources for data acquisition and analysis. In 
addition, NMFS is striving to conduct more surveys using advanced 
sampling technologies that can achieve higher standardization and, in 
some cases, can directly measure fish abundance at each survey 
location, not just a standardized catch rate. With such information, 
NMFS will be able to provide more precise and accurate assessments 
sooner. At present, these technologies are still in the developmental 
phase. In the future, they will enable greater efficiency and increased 
accuracy and precision for our assessments, but these benefits will 
take some years to be realized.
    Rather than resulting in unnecessarily reduced harvest levels, 
management under annual catch limits is in fact rebuilding stocks and 
leading to better and more sustainable harvests. For example, the 26 
stocks and stock complexes in the Alaska groundfish fisheries have long 
been managed under annual catch limits. None of these stocks is 
overfished or subject to overfishing, and all are at abundance levels 
that support the long term optimum yield from the fishery.
    NMFS is confident that, in the long run, these amendments will 
enable us to rebuild stocks, increase yields, and provide the economic 
benefits and employment that robust stocks can sustain. High quality 
fisheries science is vital for attaining these results. More timely and 
more precise estimates of abundance of targeted populations will enable 
better assessments, better management and ultimately better and, 
importantly, more sustainable profits to the fishing industry. 
Conversely, the loss of support for fisheries science and corresponding 
support for fishery management activities would have a very deleterious 
effect on the fisheries sector.
    The Magnuson-Stevens Act calls for annual catch limits in all 
fisheries such that overfishing does not occur. This is a forward-
looking, proactive approach to preventing overfishing and providing a 
clear indication of the target management level for the fishery. 
Various forms of catch quotas, which are basically annual catch limits, 
have been used successfully for decades in the implementation of some 
fishery management plans. With imprecise stock assessments and catch 
monitoring, we can never be completely certain that overfishing will 
not occur, even with annual catch limits. However, the probability that 
overfishing will occur can be calculated, which can inform socio-
economic analyses of the trade-off between the confidence in preventing 
overfishing versus the amount of foregone short-term fishing 
opportunity needed to achieve this confidence. One of the greatest 
challenges is in the data-poor fisheries where assessments are not yet 
possible. Here, NMFS is working on alternative approaches that provide 
preliminary determination of catch levels that will prevent 
overfishing.

Concluding remarks
    NMFS has made significant progress in improving the status of fish 
stocks. We recognize that robust data collection and stock assessments 
and responsive management programs are vital to rebuilding overfished 
stocks and strengthening economies. Of the 84 stocks determined to be 
overfished between 2000 and 2010, 36 stocks are no longer overfished. 
Of the 76 stocks determined to be subject to overfishing in the same 
time period, 36 stocks are no longer subject to overfishing. In 
addition, 23 stocks have been rebuilt over this same time period. For 
fisheries subject to overfishing, the Regional Fishery Management 
Councils and NMFS have taken final actions to end overfishing and put 
annual catch limits in place. The Regional Fishery Management Councils 
and NMFS are also on track to meet the 2011 deadline to have annual 
catch limits included in fishery management plans for all managed 
stocks. NOAA's FY 2012 budget request includes $7.6 million for NMFS to 
support the establishment, monitoring, and compliance of annual catch 
limits, and $5.6 million for the Regional Fishery Management Councils 
to set, evaluate, and revise annual catch limits and associated 
regulatory measures to end overfishing. One of the top priorities for 
use of the $15 million requested increase to Expand Annual Stock 
Assessments in FY 2012 will be to update assessments for stocks listed 
as overfished or subject to overfishing to verify that overfishing has 
ended.
    In the Pacific Northwest, lingcod was designated as overfished in 
1999, with overfishing occurring for several years. A variety of 
restrictions ended lingcod overfishing in 2005, and the stock was 
rebuilt several years ahead of schedule. Atlantic sea scallops were 
once severely overfished, but with cooperation from scallop fishermen 
the stock was rebuilt in 2001 and is now the top-valued fishery in the 
United States. Compared to the 1990-1999 time period when scallops were 
overfished, New England scallop fishermen are now sustainably 
harvesting an additional 17.5 million metric tons per year and ex-
vessel revenues have increased by $93 million annually.\2\
---------------------------------------------------------------------------
    \2\ National Marine Fisheries Service, Office of Science & 
Technology, Annual Commercial Landings Statistics, available at http://
www.st.nmfs.noaa.gov/st1/commercial/landings/annual_landings.html.
---------------------------------------------------------------------------
    NMFS has estimated that if all stocks were rebuilt and harvested at 
their maximum sustainable yield, this could increase ex-vessel value by 
as much as $2.2 billion, which would generate $31 billion in sales 
impacts and support 500,000 jobs across the broader economy. Sustaining 
the science to understand stock dynamics and document stock status is 
paramount to reaching these goals.
    The July/August 2011 issue of Sport Fishing contains two ``Bright 
Spots'' articles touting the benefits of eleven different conservation 
efforts that enabled stocks to recover from periods of low abundance. 
These range from flounder to salmon to billfish; from the Pacific 
Northwest, to the Gulf of Mexico, to the Northeast.
    Ending overfishing, rebuilding stocks and managing on a sustainable 
basis using sound science will have real benefits to the fishing and 
the communities that depend on fishing for employment.
    Thank you again for the opportunity to discuss NMFS's fishery 
science. We are available to answer any questions you may have.
                                 ______
                                 
    Mr. Fleming. Thank you, Mr. Schwaab. Next, Mr. Harris, you 
have five minutes.

  STATEMENT OF DUANE HARRIS, MEMBER AND PAST CHAIRMAN, SOUTH 
              ATLANTIC FISHERY MANAGEMENT COUNCIL

    Mr. Harris. Thank you, Mr. Chairman and Members of the 
Subcommittee. Thank you for allowing me to appear before you 
today to address the science required to support the mandates 
of the 2006-2007 amendments to the Magnuson-Stevens Fishery 
Conservation and Management Act, and how the lack of basic 
science has affected fishermen in fishing communities in the 
South Atlantic. My name is Duane Harris, and I represent the 
State of Georgia on the South Atlantic Fishery Management 
Council.
    The 2007 amendments have had a profound effect on fisheries 
management. The Council no longer has the ability to deviate 
from scientific recommendations, even when those 
recommendations are acknowledged to contain considerable 
uncertainty. The provisions to end overfishing immediately upon 
implementation, combined with the requirements of the 
scientific and statistical committee establish the limits that 
prevent overfishing remain the most important changes affecting 
management in the South Atlantic.
    In testimony I presented in 2009 before this Subcommittee, 
I used red snapper to illustrate problems as a result of the 
amended Act. That example is still pertinent to the issues I am 
addressing today. Initial red snapper stock assessment 
suggested large cuts in harvest were necessary to end 
overfishing, despite evidence that the stock was improving 
under regulations that reduced but did not eliminate 
overfishing.
    Although options existed that would achieve the rebuilding 
strategy while greatly reducing impacts on fishermen, they were 
not available to the Council because they would have resulted 
in continued overfishing on red snapper beyond the date when 
overfishing was mandated to end. Our scientific and statistical 
committee has struggled as it attempts to comply with a mandate 
to provide recommendations to end overfishing and rebuild 
overfished stocks in the absence of necessary information and 
stock assessments.
    As a scientific body, the SSC is hesitant to provide 
scientific advice when there is no science to support it. Under 
the amended Act, this is exactly what the SSC is required to do 
for the majority of species managed by the Council. This leads 
the SSC to provide very precautionary catch levels that may 
have significant impacts on the fishing industry.
    Forcing a scientific body to make recommendations to the 
Council in the absence of necessary data and stock assessments 
does a disservice to and threatens to undermine the integrity 
of the entire management system.
    Since the red snapper fishery closure, the Southeast 
Fishery Science Center has received additional funding to 
develop and implement a comprehensive fishery independent 
survey. This is a positive step forward. Without such a survey, 
the Council will have no way to evaluate improvements in the 
red snapper fishery or to compensate for the information lost 
as a result of the closure.
    Commercial fishing quotas are an essential management tool. 
However, unless commercial landings are tracked efficiently and 
correctly, the system breaks down. Fortunately, a system exists 
which will dramatically improve this program at no cost to NOAA 
Fisheries. That program is the more efficient Atlantic Coast 
Cooperative Statistics Program. The Southeast Fisheries Science 
Center needs to embrace and adopt this system.
    In 2008, a Spanish mackerel stock assessment was rejected 
by a panel of independent experts. That left Spanish mackerel 
without a recent stock assessment. As a result, the scientific 
and statistical committee selected a very precautionary 
allowable biological catch. Consequently, the Council's 
proposed Spanish mackerel annual catch limit would be expected 
to result in reduced ex-vessel revenues to commercial fishers 
of approximately $680,000 due to a reduction in commercial 
harvest.
    These reduced revenues could result in the loss of an 
estimated 17 harvester and 10 dealer processor full-time 
equivalent jobs. The Council supports efforts underway to 
resolve recreational data collection issues through the Marine 
Recreational Information Program, and we hope and trust this 
program will not only reduce uncertainty in estimates and 
considerably improve the timeliness of their availability, but 
also take advantage of technology to address fishermen's 
willingness to submit information.
    In summary, the goal of the 2007 amendments to the Act to 
end overfishing is absolutely necessary to recover stocks and 
provide additional opportunities for commercial and 
recreational fishermen. Despite the difficulty of the task at 
hand, ending overfishing is in the best interests of the 
Nation. But there is definitely a cost associated with ending 
overfishing in the other requirements of the amended Act.
    Data provided by NOAA Fisheries are currently insufficient 
for the majority of the stocks we manage. In some instances, 
the Council's mandated management actions have impacted 
fishermen and fishing businesses, resulting in reduced revenues 
and/or job losses. However, there have been improvements in the 
last couple of years in a number of areas, such as development 
of fishery-independent surveys, hiring more stock assessment 
scientists, and working with fishermen to collect scientific 
data through cooperative research programs.
    There is still much improvement needed. Improving the data 
on which stock assessments are based, both fishery-dependent 
and fishery-independent data is essential if we are to gain 
back the trust of the fishing public.
    Thank you, Mr. Chairman and Members of the Committee. I 
appreciate your time.
    [The prepared statement of Mr. Harris follows:]

               Statement of Duane Harris, Past Chairman, 
               South Atlantic Fishery Management Council

    Mister Chairman and members of the Subcommittee, thank you for 
allowing me to appear before you. My name is Duane Harris and I 
represent the State of Georgia on the South Atlantic Fishery Management 
Council (Council). Today I will address the questions posed and provide 
the information requested by the Subcommittee. All of my comments are 
made with the sincere intent of providing a clear understanding about 
how the 2007 amendments to the Magnuson-Stevens Fishery Conservation 
and Management Act (Act) have affected our Council's management of the 
marine fisheries resources in the South Atlantic. I will also address 
the NOAA Fisheries science required to support the mandates in the 
amended Act and how the lack of needed information has affected 
fishermen and fishing communities.

1.  How Magnuson-Stevens Fishery Conservation and Management Act 
        amendments have affected fishery management.
    The 2007 amendments have had a profound effect on fisheries 
management. The Council no longer has the ability to deviate from 
scientific recommendations, even when those recommendations are 
acknowledged to contain considerable uncertainty, be based on out-of-
date or ``stale'' information that may be contradicted by more recent 
anecdotal observations, or may result in numerous known and, in some 
cases, unintended consequences for fishermen and fishing communities. 
The provisions to end overfishing immediately upon implementation, 
combined with the requirements that the Scientific and Statistical 
Committee (SSC) establish the limits that prevent overfishing, remain 
the most influential changes affecting management in the South 
Atlantic.
    In testimony I presented on October 27, 2009 before this 
Subcommittee, I used red snapper to illustrate problems the Council was 
encountering as the result of amendments to the Act, and the red 
snapper example still is pertinent to the issues I am addressing today. 
An initial red snapper stock assessment suggested large cuts in harvest 
were necessary to end overfishing, despite evidence that the stock was 
improving under existing regulations that reduced but did not eliminate 
overfishing. The only way to achieve the mandated reductions was to 
prohibit directed harvest of red snapper and to shut down all effort in 
the multi-species snapper grouper complex fishery where red snapper 
were concentrated. Although options existed that would achieve the 
rebuilding strategy, while greatly reducing impacts on fishermen, they 
were not available to the Council under the amended Act because they 
would have resulted in continued overfishing on red snapper beyond the 
date for which overfishing was mandated to end. As would be expected, 
such measures were met with considerable opposition by a public 
experiencing the best red snapper fishing in over a decade. This led 
the Council to request a delay in closing a large area off of south 
Georgia and northeast Florida until the public's anecdotal observations 
could be vetted through our stock assessment process.
    A new stock assessment conducted in 2010 agreed in part with the 
observations of the fishermen and verified that a large year class of 
red snapper had entered the fishery. The biomass increased sufficiently 
for the Council to take action to recommend the Secretary of Commerce 
not implement the large area closure off of Georgia and Florida. 
However, the new stock assessment results indicated the prohibition of 
harvest on red snapper was still needed to end overfishing. Prior to 
the recent Magnuson-Stevens Act amendments, the Council could have 
chosen that option initially and developed regulations to phase out the 
overfishing over several years and in doing so balance the needs of the 
stock with those of the fishery. During this time, progress on other 
much needed stock assessments was delayed to accommodate resources 
directed toward red snapper. The Council also expended considerable 
time and effort evaluating numerous alternatives in its attempts to 
address the enormous social and economic impacts and public 
dissatisfaction. Public faith in the process declined considerably as 
the red snapper issue dragged on and still continues today.

2.  Increased role of the Scientific and Statistical Committee
    The South Atlantic Council's Scientific and Statistical Committee 
(SSC) has always played a strong role in the management process, with 
the Council typically adopting regulations consistent with SSC 
recommendations even prior to the recent amendments to the Act. 
However, the SSC has struggled as it attempts to comply with the 
mandate to provide recommendations to end overfishing and rebuild 
overfished stocks in the absence of the necessary information and stock 
assessments. For many species stock status or relationships between 
current landings and stock abundance and productivity are not 
available. As a scientific body, the SSC is, not surprisingly, hesitant 
to provide recommendations that will be considered scientific advice 
when there is no science to support them. However, under the amended 
Act, this is exactly what the SSC is required to do for the majority of 
the species managed by the Council. These circumstances lead the SSC to 
provide very precautionary catch levels that generally have significant 
impacts on the fishery.
    We have several Fishery Management Plans (FMPs), including Coral, 
Sargassum, Golden crab, and Dolphin Wahoo, that lack reliable data on 
landings, effective effort, and the basic survey information that is 
considered necessary for proper management. This is also true for many 
species in the Snapper Grouper FMP. Despite the lack of scientific 
information indicating the level of landings that would result in 
overfishing, the amended Act requires the SSC to provide an Allowable 
Biological Catch that will prevent overfishing from occurring. Forcing 
a scientific body such as the SSC to make recommendations to the 
Council in the absence of the necessary data and stock assessments does 
a disservice to the entire management system and threatens to undermine 
the integrity of all scientific recommendations.

3.  Mechanism for establishing Annual Catch Limits (ACLs) to prevent 
        overfishing.
    The mechanism we use for establishing Annual Catch Limits to 
prevent overfishing begins with our stock assessment process called the 
SouthEast Data, Assessment, and Review or SEDAR. SEDAR is a cooperative 
fishery management council process initiated in 2002 to improve the 
quality and reliability of fishery stock assessments in the South 
Atlantic, Gulf of Mexico, and US Caribbean. The improved stock 
assessments from the SEDAR process provide higher quality information 
to address fishery management issues. SEDAR emphasizes constituent and 
stakeholder participation in assessment development, transparency in 
the assessment process, and a rigorous and independent scientific 
review of completed stock assessments.
    SEDAR is organized around three workshops. First is the Data 
Workshop, during which fisheries, monitoring, and life history data are 
reviewed and compiled. Second is the Assessment process, which is 
conducted via webinars, during which assessment models are developed 
and population parameters are estimated using the information provided 
from the Data Workshop. Third is the Review Workshop, during which 
independent experts review the input data, assessment methods, and 
assessment products. SEDAR is a good stock assessment process. 
Unfortunately in most instances the data to feed the processes is 
lacking.
    After completion of a SEDAR stock assessment, all three workshop 
reports and all supporting documentation, including the findings of the 
independent experts relative to the status of the stock, is then 
forwarded to the Council's Scientific and Statistical Committee for 
certification as appropriate for management based on the ``best 
scientific information available''. The SSC then meets and develops 
specific management recommendations, including such things as 
Overfishing Level (OFL) and Allowable Biological Catch (ABC), as 
appropriate. For the species that have not had a stock assessment or 
for stocks considered data-poor, the SSC and Council have developed a 
control rule that provides a mechanism for providing an Allowable 
Biological Catch level. However, the problem this mechanism creates is 
when data are insufficient to determine what level of harvest will 
ensure that overfishing does not occur, the SSC must use the 
precautionary approach in developing its management recommendations to 
the Council, which results in very low Allowable Biological Catch.
    The SSC recommendations are provided to the Council and from these 
the Council must develop the Annual Catch Limit. Prior to the recent 
amendments to the Act, the Council was not bound by the SSC's 
recommendations and had more flexibility in establishing catch levels. 
We could consider such things as uncertainty in the stock assessment, 
the specific life histories of the stocks and characteristics of the 
fishery itself in establishing what could be done to rebuild fisheries 
and at the same time mitigate the social and economic impacts on the 
fishermen and fishing communities. The Council no longer has that 
flexibility and must establish Annual Catch Limits that do not exceed 
the Allowable Biological Catch recommendation of the SSC, regardless of 
the social and economic impacts.

4.  Whether data generated by NOAA are adequate.
    Data provided by the NOAA Fisheries are currently insufficient for 
the majority of the stocks in our jurisdiction. Stocks with reliable 
catch statistics, adequate biological sampling and measures of 
population abundance comprise only a very small percentage of the 
stocks managed by the Council. To compound this problem, many of the 
remaining stocks suffer from a lack of data in more than one of the 
necessary areas (catch, biological characteristics, and abundance 
measures). Because of this, data-poor approaches developed in other 
parts of the country to provide Allowable Biological Catch for 
unassessed stocks have not helped the situation in the southeast.
    In recent years there have been some improvements. Catch statistics 
have become more reliable. However, there is still a lack of resources 
to provide for much needed fisheries observers in the southeast. 
Without observer coverage, it is difficult to determine the accuracy of 
self-reported landings in logbooks. Biological data collection has 
increased considerably also, especially for age structures of fish 
(otoliths). Unfortunately, in many cases there are inadequate personnel 
resources available to analyze these otoliths. There have been 
improvements in the fisheries surveys conducted by NOAA Fisheries, but 
currently they are only a small fraction of what is truly needed for 
management.
    Since the red snapper fishery closure, the Southeast Fisheries 
Science Center has received additional funding to develop and implement 
a comprehensive fishery independent survey. This is a positive step 
forward. Without such a survey the Council will have no way to evaluate 
improvements in the red snapper fishery or to compensate for the 
information lost as the result of the closure. The importance of this 
survey to the future success of the Council's management program cannot 
be overstated and funding must be maintained.
    Another positive effort in recent years has been the Cooperative 
Research Program, where funds have been appropriated to enlist 
commercial and recreational fishermen to help with data collection. 
This program has been beneficial in a number of ways. Not only has it 
provided more resources for gathering information in terms of people 
and vessels, but perhaps most importantly it has increased the 
credibility of data collection in the eyes of the fishermen. Funding 
for this program should be continued.
    In addition, the Council has recommended developing a comprehensive 
biological sampling program. At the most basic level the program should 
include hiring additional port samplers to monitor commercial and for-
hire fisheries throughout the region as well as increasing sampling 
from recreational catches. Also, the Southeast Fisheries Science Center 
should become part of the Atlantic Coast Cooperative Statistics 
Program. There are two additional areas we believe that NOAA Fisheries 
should address: First is quota monitoring. The existing Atlantic Coast 
Cooperative Statistics Program (ACCSP) Commercial Quota Monitoring 
Program that operates in the states of North Carolina northward could 
be extended to the states of South Carolina, Georgia, and Florida at no 
cost for software. This ongoing ACCSP program provides automatic daily 
reports on species with a commercial quota. Contrast this with the 
existing system used by NOAA Fisheries in the southeast using black sea 
bass as an example: On July 6, 2011 the Council received a memo from 
the Regional Administrator to our Executive Director showing 
preliminary black sea bass landings of 139,052 pounds (45% of the 
quota) being landed as of June 30, 2011. On Friday July 8, 2011 we 
received a notice that the commercial black sea bass fishery would 
close on July 15, 2011, culminating in a 45 day season. This fishery 
will not reopen until June 1, 2012. The estimated level of landings for 
the season or what the revised quota was based on the commercial 
overage last season is still not available. It is unfair to have the 
fishermen pay the price for an ineffective quota monitoring program 
through payback of overages when the more efficient ACCSP system could 
have been used at no cost to NOAA Fisheries. We are concerned that once 
our Comprehensive Annual Catch Limits Amendment is implemented, which 
will add more species to the quota monitoring program, the NOAA 
Fisheries current system will crash and it will be the fishermen and 
the resource paying the price.
    The second area that should be addressed is bycatch monitoring. The 
existing NOAA Fisheries data programs do not provide estimates of 
bycatch mortality that can be used to calculate total mortality for use 
in tracking Annual Catch Limits. This has led our Council to specify 
Annual Catch Limits in terms of landings only and then examine the 
impacts of the unaccounted for bycatch mortality when stock assessments 
are conducted. To help resolve part of the problem in the snapper 
grouper fishery, NOAA Fisheries should increase the current 25% bycatch 
logbook coverage to 100% logbook coverage. In the absence of a fishery 
independent data program, 100% logbook coverage would greatly improve 
the current 25% coverage. The Council cannot meet the Magnuson-Stevens 
Act requirement to specify Annual Catch Limits to account for all 
sources of mortality with the existing data programs.

5.  Agency guidance on use of old or stale data.
    Overall, there has been very little guidance from NOAA Fisheries 
relative to use of ``old'' or ``stale``data. Generally, because of the 
lack of data noted earlier, the Council is forced to use the 
information that is available regardless of how old or stale it may be 
considered. It is either that or nothing.

6.  Is the precautionary approach combined with decreased funding and 
        depressed harvest levels impacting jobs and communities?
    Most of the stock assessments in the South Atlantic must rely 
largely on harvest data from the fishermen. These ``fisheries 
dependent'' data can give an accurate representation of what is being 
taken out of the water; however, they may not yield reliable 
information on the status of the stock. Without reliable fisheries 
independent and dependent data streams, true stock status cannot be 
determined. This is the scenario the Council and Scientific and 
Statistical Committee find themselves in many instances, dictating a 
precautionary approach to management. This generally results in low 
Allowable Biological Catch and Annual Catch Limits, ultimately 
restricting harvest, not because the stock status is known to be in bad 
shape, but because not enough information is available to make an 
accurate assessment. Error on the side of conservation is the phrase 
often used. We are already paying the price on stocks like red snapper, 
black sea bass and Spanish mackerel for inadequate sampling in the past 
that has led to the current precautionary management strategies.
    A recent example of how the lack of adequate data resulted in 
extremely negative impacts on commercial fishermen involves two minor 
fish stocks, speckled hind and Warsaw grouper. Both stocks were 
declared to be undergoing overfishing and overfished back in the early 
1990's by NOAA Fisheries, based on annual trends in fishermen's catches 
alone. At the time the Council took action to protect these species by 
eliminating all directed harvest, however, some incidental catch was 
allowed. No stock assessment has been completed on these stocks since 
the initial determination. The only data available since the 1990's 
have been derived from the very low incidental catches that have 
occurred. The directed fishery for these species has been closed nearly 
20 years. Without data and a new stock assessment, there is no way of 
knowing whether the stocks have rebuilt, are rebuilding, or continue to 
undergo overfishing and are overfished. Stock assessments have been 
scheduled for these species; however, these assessments have been 
postponed to deal with higher priority species such as red snapper, 
black sea bass, etc.
    The most recent revisions to the Act required the Councils to end 
overfishing by December 31, 2010 for all stocks that are undergoing 
overfishing. Without data to know whether or not overfishing had ended 
for speckled hind and Warsaw grouper and if they were still overfished 
or not, the Council's Scientific and Statistical Committee was required 
to set Allowable Biological Catch so that no landings of these species 
would be allowed. Subsequently, when setting the Annual Catch Limits, 
the Council was obliged to ensure that harvest of these two species be 
avoided. Fish that live at the depths inhabited by speckled hind and 
Warsaw grouper are almost always dead when brought to the surface, 
therefore fishing in areas where speckled hind and Warsaw grouper might 
be caught had to be closed. Based on the information available, the 
Council believed the only way to accomplish this was to close all 
bottom fishing from a depth of 240 foot seaward. This action in effect 
closed off more than half of the EEZ to bottom fishing, and resulted in 
significant losses to commercial and recreational fishermen (primarily 
fishing for blueline tilefish) and fishing dependent businesses. Due to 
lack of information, the impact of this closure was much greater than 
anticipated. The Council is just now completing an amendment that will 
rectify the current situation by reopening the closed area, and 
developing plans to implement other measures to protect speckled hind 
and Warsaw grouper.
    A specific example of how jobs can be affected when NOAA science is 
lacking occurred in the Spanish mackerel fishery. In 2008, a Spanish 
mackerel stock assessment was conducted. However, during the stock 
assessment process review phase (the final peer review phase) the stock 
assessment was rejected by the panel members due to too many 
uncertainties in the biomass values from the assessment. That left 
Spanish mackerel without a recent stock assessment, requiring the 
Scientific and Statistical Committee to use the data poor control rule 
to derive a precautionary Allowable Biological Catch. Consequently, the 
Council's proposed Spanish mackerel Annual Catch Limit would be 
expected to result in a reduction in ex-vessel revenues to commercial 
fishers of approximately $680,000 due to a reduction in commercial 
harvest and the accountability measure requirement that harvest, 
possession, and sale of Spanish mackerel be prohibited when the 
commercial quota is met. If compensating revenue is not obtained from 
alternative species, these reduced revenues could result in the loss of 
an estimated 17 harvester and 10 dealer/processor full-time equivalent 
jobs.

7.  Is the requirement to use the best available information becoming 
        an excuse to use old data rather than collect more data?
    I do not believe NOAA Fisheries reliance on using the best 
scientific information available is an excuse to use old data rather 
than collect more data. The impediment, at least in the southeast 
region, simply seems to be resources. Although recent budgets have 
provided more funding for data collection in the southeast, funding 
levels are still insufficient to resolve the lack of data needed for 
management.
    The Southeast Fisheries Science Center has shown a willingness to 
collect more data, e.g. added logbook discards for both commercial 
vessels and headboats, increased trip interview sampling, initiated a 
fisheries independent survey, expanded the Marine Resources Monitoring, 
Assessment, & Prediction Program (MARMAP) and the Southeast Area 
Monitoring and Assessment Program (SEAMAP) and added new stock 
assessment scientists. The problem is that all of these efforts still 
fall short of meeting identified needs due to funding shortages.

8.  Views on Marine Recreational Information Program, improving data 
        collection but perhaps falling short of providing info for in-
        season adjustments, thus impacting planning by industry.
    Concerns with recreational statistics provided through the old 
Marine Recreational Fisheries Statistics Program (MRFSS) are well 
documented by many sources and need not be repeated here. The Council 
supports efforts underway to resolve recreational data collection 
issues through the Marine Recreational Information Program (MRIP), and 
the Council hopes that Marine Recreational Information Program will not 
only reduce uncertainty in estimates and considerably improve the 
timeliness of their availability, but also take advantage of current 
technology to address fishermen's willingness to submit information.
    Recreational data collection improvements through the development 
of Marine Recreational Information Program are necessary to improve 
management under the amended Act. Precision and reliability are bigger 
concerns than timeliness in the South Atlantic, perhaps because many of 
our stocks have suffered from high uncertainty in old Marine 
Recreational Fisheries Statistics Program estimates. Whether the Marine 
Recreational Information Program will fall short of providing 
information to accommodate in-season adjustments remains to be seen. 
However, when the program is implemented, it will be the timeliest data 
on recreational catch and discard rates available to us.
    In some cases the recreational allocation for some of the stocks 
managed by the Council is very low. In the South Atlantic, the 
recreational fishing sector Annual Catch Limits for snowy grouper was 
523 fish per year under the rebuilding plan. Even under Marine 
Recreational Information Program, NOAA Fisheries will not be able to 
monitor the recreational catches in a timely manner. In 2010, 
recreational anglers were estimated to have caught more than 1,500 
snowy grouper. With Council required fishing sector paybacks 
(accountability measures) for overfished stocks, this could result in 
the recreational fishery for snowy grouper being closed for two years.
    Let me summarize the main points in my testimony this afternoon. 
First, the goal of the 2007 amendments to the Act to end overfishing is 
an absolute necessity to recover stocks and provide additional 
opportunities for commercial and recreational fishermen. Despite the 
difficulty of the task at hand as illustrated by the South Atlantic red 
snapper fishery closure, ending overfishing, is, without question, in 
the best interest of the nation. But there is definitely a cost 
associated with ending overfishing and many of the other requirements.
    Data provided by NOAA Fisheries are currently insufficient for the 
majority of the stocks we manage. In some instances, the Council taking 
mandated management actions without the accurate and timely data needed 
has impacted fishermen and fishing businesses, resulting in reduced 
revenues and/or job losses. However, there have been improvements 
during the last couple of years in a number of areas, such as 
development of fisheries independent surveys, hiring more stock 
assessment scientists and working with fishermen to collect scientific 
data through cooperative research programs. There is still much 
improvement needed. NOAA Fisheries must continue to improve fisheries 
data collection that is essential for providing accurate and timely 
stock assessments. Conducting a stock assessment for a species like red 
snapper every five or six years is not acceptable. The Science Center 
staff of stock assessment scientists needs to continue to be increased 
in order to provide this information. Improving the data on which stock 
assessments are based, both fishery dependent and fishery independent 
data, is essential if we are to gain back the trust of the fishing 
public. We cannot continue in the adversarial role that has been 
created between the Council and fishermen as the result of our recent 
management actions.
    The Southeast Region of the U.S., including the South Atlantic, 
Gulf of Mexico, and Caribbean, has not been funded at the level needed 
to provide data and stock assessments on as timely a basis as is needed 
for the three councils in this region to effectively and efficiently do 
their job. The budgets of the Southeast Fisheries Science Center and 
the Southeast Regional Office must be reviewed and increased as 
necessary to provide timely stock assessments on which the councils 
base management recommendations.
    Mister Chairman, in closing I would like to again thank you and the 
Subcommittee for allowing me to appear before you on behalf of the 
South Atlantic Fishery Management Council. We appreciate you holding 
this hearing and for your Subcommittee's interest in NOAA's fisheries 
science and how the lack of necessary data to effectively manage is 
impacting fishermen and fishing communities.
                                 ______
                                 
    Mr. Fleming. Thank you, Mr. Harris. Next we have Ms. 
Morris. You have five minutes, ma'am.

    STATEMENT OF JULIE MORRIS, ASSISTANT VICE PRESIDENT FOR 
    ACADEMIC AFFAIRS, OFFICE OF THE PROVOST, NEW COLLEGE OF 
   FLORIDA, FORMER MEMBER, GULF OF MEXICO FISHERY MANAGEMENT 
  COUNCIL AND MEMBER OF THE SECRETARY'S MARINE FISH ADVISORY 
                           COMMITTEE

    Ms. Morris. Thank you, Chairman Fleming and Ranking Member 
Sablan, for inviting me to speak to the Subcommittee this 
afternoon. My name is Julie Morris. I live in Sarasota, 
Florida. My testimony today is based on 18 years experience 
with science-based fish and wildlife management. Most recently, 
from 2001 to 2010, I served as a member of the Gulf of Mexico 
Fishery Management Council, and I served terms as both vice-
chairman and chairman of that group.
    Today I want to address uncertainty in fisheries 
management, some of the challenges in recreational fisheries, 
and some concluding thoughts about the future of fisheries 
management. The reauthorized Magnuson-Stevens Act told the 
Councils that we really do need to end overfishing, and that 
science committees should play a key role.
    It is common for science to include uncertainty. Let's 
think for a moment about political polling, which is very 
useful, even though the results are expressed with a certain 
margin of error. Fishery science is similar, but more 
complicated. And, of course, we can't pose questions to fish. 
Fishery science is not perfect, and frequently it is contested. 
But we know that it works.
    Fishery scientists deal with uncertainty head-on. They 
measure it. They account for it. They study how to reduce it. 
On the other hand, policy folks are generally uncomfortable 
with uncertainty. When the Gulf of Mexico Science Committee 
estimates the harvest level, they also tell us how certain they 
are, what the margin of error is that their estimate is 
correct.
    The logic is that we will be more certain about well-
studied, highly valued species. And because we are more 
certain, we can fish closer to the highest sustainable level. 
Other species are poorly understood or quirky. Their size and 
age may not be correlated, or they may have strong year classes 
at unpredictable intervals with weak reproduction in between. 
For these species, the estimate of the tipping point between 
sustainable and unsustainable fishing levels is foggier. And 
like driving on a foggy road, we need to slow down a little, 
turn on the lights, and fish more cautiously.
    In the Council's new method, the science committee will use 
standard stock assessment techniques to set acceptable catch 
levels. In cases where we have little more than a record of 
annual landings, and it is a little foggy, the science 
committee will set catch limits at the average landings until 
there is a signal that the stock is either plummeting or 
growing by leaps and bounds. This is a reasonable approach, and 
the science we have is sufficient.
    We were given the flexibility to figure out how to keep 
uncertainty in mind when we set acceptable biological catches. 
We have worked on it for over three years, and the Council is 
scheduled to adopt its new process in August. Council and 
science committee members are reasonable people who don't want 
to make things harder for fishermen. After all, the majority of 
council members are in the fishery business.
    At the same time, we know that fishing gets measurably 
better once we end overfishing. MSA holds the Gulf Council's 
feet to the fire on ending overfishing, and this will be good 
for fish and fishermen over the long term. That said, more 
data, especially fishery-independent data and observer data on 
catch and bycatch would be tremendously helpful. We look to 
Congress to provide funding for this, and we look to NOAA to 
make effective use of additional funding.
    Is precautionary fishery management leading to job losses? 
I don't see it in the Gulf of Mexico. First, our management is 
not very precautionary. Second, it has been a really tough 
decade for fishery jobs in the Gulf of Mexico, for reasons that 
have very little to do with fishery management. Fuel prices 
jumped. We had intense competition from imported seafood. 
Hurricanes wiped out our shoreside fishery infrastructure. 
Finally, the Deepwater Horizon disaster closed fishing grounds, 
contaminated some fisheries, and undermined the Gulf seafood 
brand in the eyes of the public.
    Before closing, I wanted to make a few comments about 
recreational fishing. Recreational fishing is difficult to 
manage in the Gulf of Mexico, especially when there are many 
capable fishermen and too few fish. This is not the fishermen's 
fault. They are committed conservationists. Since we can't 
count and weigh every fish, we rely on surveys. The Marine 
Recreational Information Program, which we call MRIP, will 
improve our survey data. But we need to add new tools to our 
management toolbox.
    There are good models from hunting that we can adapt to 
fishing. When greater than half the catch is recreational in 
several key Gulf species, the need for better tools has become 
acute.
    In conclusion, policy and management decisions can't wait 
until the science is perfectly clear because it never will be. 
We push ahead and make timely decisions based on our 
understanding of what will be best for both the fish and the 
fishermen. The Magnuson Act is working and being applied in a 
reasonable manner in the Gulf of Mexico. Let's allow it to 
work.
    Thank you, and I look forward to answering any questions 
you may have.
    [The prepared statement of Ms. Morris follows:]

              Statement of Julie Morris, Former Member of 
               Gulf of Mexico Fishery Management Council

Introduction
    Thank you for the opportunity to speak to the Subcommittee on 
Fisheries, Wildlife, Oceans and Insular Affairs. My name is Julie 
Morris. I reside in Sarasota Florida, and I work at New College of 
Florida, a public honors college within the Florida State University 
System. My title is Assistant Vice President for Academic Affairs, an 
academic administrative position.
    Since 1992, I have served in a series of decision-making positions 
for science-based management of fish and wildlife. I have been 
nominated/appointed to these positions by both Republican and 
Democratic Governors. From 1992-1999, I served as a commissioner of the 
Florida Game and Freshwater Fish Commission, Florida's Constitutional 
agency for all wildlife and freshwater fish. In 1999, an amendment to 
Florida's Constitution combined marine fisheries management with 
freshwater and wildlife creating a new agency, the Florida Fish and 
Wildlife Conservation Commission (FFWCC). I served as the first 
Chairman of the FFWCC from 1999-2000. In 2001, I was appointed by the 
Secretary of Commerce to be a member of the Gulf of Mexico Fishery 
Management Council (GMFMC). I was reappointed twice, serving on the 
Council until August of 2010.
    Today's testimony is based on my 18-year experience in state and 
federal management of fish and wildlife. As a layperson, I have worked 
hard to understand fisheries and wildlife science. I've gained an 
understanding of fisheries science, fishery economics, the applicable 
law, and the process of management. Commissioners and Council Members 
we are provided scientific and economic analyses. They also listen to a 
wide range of public testimony. They integrate these both into 
reasonable, fair, and equitable management measures for sustainable 
fisheries.
    In my testimony, I will make the case that the 2007 MSA amendments 
have resulted in positive changes for fisheries management in the Gulf 
of Mexico. More data would be a tremendous help and I support 
Congressional efforts to increase funding for fisheries data and 
assessment. That said, the GMFMC Scientific and Statistical Committee 
(SSC) has developed a reasonable methodology that uses available data 
to comply with the 2007 MSA amendments.
    I do not believe that precautionary fisheries management has 
resulted in a significant loss of fishery jobs in the Gulf of Mexico. 
Fisheries jobs have been lost, but the primary drivers have been the 
high cost of fuel, the great recession, the Deepwater Horizon disaster 
(fishing closures, actual contamination, and the misguided public 
perception that Gulf fish and shellfish are tainted), competition from 
cheap imported seafood, hurricane damage to fisheries infrastructure, 
and harmful algal blooms.
    I am convinced that we need better tools and better data to manage 
recreational fisheries in federal waters, especially in the Gulf of 
Mexico where recreational catches equal or exceed commercial catches in 
several key species.
    The bedrock goal of MSA is to maintain sustainable harvests for the 
long-term benefit of the nation. The 2007 amendments reinforce this 
goal by strengthening the role of science in determining acceptable 
biological catches, and ending the practice of fishing at unsustainable 
levels. Once we end overfishing, rebuilt stocks will provide expanded 
opportunities for economic activity based on sustainable fishing.
How have the 2007 MSA Amendments affected domestic fishery management?
    The GMFMC's management plan to set overfishing levels and the 
acceptable biological catch is scheduled for final adoption in August 
2011. This culminates a three-year process, which included four public 
scoping meetings, nine public hearings, and numerous Council and SSC 
work sessions.
    Management actions to end overfishing in four reef fish stocks were 
already underway prior to the 2007 MSA amendments. Between 2008- 2010, 
GMFMC adopted science-based catch limits and accountability measures 
for four overfished stocks (gag grouper, gray triggerfish, greater 
amberjack, and red snapper). As a result, overfishing has ended for 
gray triggerfish and red snapper. In anticipation of the 2007 MSA 
Amendments, the Council included accountability measures in these 
management actions.
    The 2007 MSA amendments direct the Councils to set catch limits 
that do not exceed the advice of their SSC. This is an important change 
that will prevent overfishing and maintain sustainable harvests over 
the long term.
    In response to the 2007 MSA Amendments, the GMFMC's Science and 
Statistical Committee (SSC) developed a consistent methodology (called 
the ABC Control Rule) to characterize the level of scientific 
uncertainty in their calculations of Overfishing Level (OFL) and 
Acceptable Biological Catch (ABC) for particular stocks. Estimating 
uncertainty is a normal practice in fisheries science.
    At the same time, the Council determined that they could accept 
risk ranging from 10%-40% that the estimate of OFL was incorrect. For a 
fast reproducing species, the Council can accept a 40% risk that the 
OFL might be wrong. For a long-lived, slow to recover, and easily 
depleted species the Council wants a smaller risk. The SSC uses this 
risk range in their methodology to create a buffer between OFL and ABC.
    Also in response to the 2007 MSA amendments, the Council added a 
new process for considering management uncertainty when setting catch 
limits. The new process will consider:
        <all>  How frequently the catch limit has been exceeded in the 
        past 4 years
        <all>  The precision of landings data
        <all>  Whether in-season accountability measures are used.
        <all>  Overfished and overfishing status of the stock.
    The GMFMC undertook a review of all of its managed species. This 
review led to a determination that about a third of GMFMC managed 
stocks no longer needed federal management. Species primarily caught in 
state waters will be managed by the states. Harvested stocks with 
annual catches below 15,000 pounds will no longer be managed. This is a 
useful streamlining of federal management.
    Managed stocks have been organized into groups based on geographic 
distribution, life history, and vulnerability to fishery. Some groups 
include an indicator species, a species that has been addressed in a 
stock assessment. If catch limits for the indicator species are 
exceeded, there will be accountability measures for the whole group. 
Other groups do not include an assessed species, and accountability 
measures will kick in only when the catch limit for the whole group is 
exceeded. One data-poor, minor species will not trigger a catch limit 
and accountability measure for the whole group.

Is the data generated by NOAA adequate for fishery managers to comply 
        with these new provisions?
    More data and more resources for stock assessments would be very 
helpful. In the Gulf of Mexico, we have a great need for fisheries-
independent data to understand how stocks are changing independent of 
the social and economic factors that affect harvests and landings. We 
also need observers to improve our data on bycatch and dead discards. I 
understand that Congress is considering adding funds for ocean-related 
activities, including stock assessments. I wholeheartedly support 
additional funds.
    In addition to NOAA, fisheries data comes from many sources, 
including state agencies, interstate commissions, universities, and 
private entities. The scientific basis for fisheries management has 
improved dramatically since I joined the GMFMC in 2001. We are gaining 
more information about the life history and reproductive potential of 
managed species. The models we use for stock assessments are constantly 
improving.
    Fisheries data and stock assessments are always contested, 
especially when valuable, highly targeted species are involved. It is 
very important that our stock assessments are subject to scientific 
peer review and equally important that assessments include a full 
description of assumptions and uncertainties. The 2007 MSA amendments 
and the new GMFMC's ABC Control Rule reinforce these good practices.
    In he plan scheduled for adoption this August, the SSC will have 
the flexibility to determine acceptable biological catches using one of 
three statistically sound methods in a tiered approach depending on 
type of data available.
        <all>  One method will be used when there is a standard 
        quantitative assessment that estimates MSY (OFL) and includes a 
        probability distribution around MSY (ABC) that reflects 
        uncertainty.
        <all>  A second method will calculate MSY (OFL) and ABC based 
        on a data-poor assessment methodology that can provide a 
        quantitative measure of uncertainty
        <all>  A third method will calculate OFL and ABC based on 
        landings history if no assessment is available. The SSC will 
        use its expert opinion and standard statistical techniques to 
        determine ABC at a level either above the mean observed 
        landings (if it is not necessary to constrain catches) or at or 
        below mean observed landings (if recent landings are likely 
        unsustainable). The Council determines how much risk it will 
        accept in setting ABC

What about NOAA guidance for using old or stale data?
    Viewed in one way, data is not stale or old or misleading. Viewed 
in another way, all data is out-dated as soon as it is collected, and 
it is not possible to have completely current data.
    At the outset of a stock assessment in the Gulf of Mexico, 
scientists thoughtfully consider how best to use available data. 
Available data is evaluated by the Southeast Data Assessment and Review 
(SEDAR) process. Historic data are valuable for understanding long-term 
trends and year-to-year variability. NOAA provides useful guidance for 
translating data collected under earlier protocols into a form that is 
comparable to data collected with current protocols. For the highly 
targeted and valuable species in the Gulf, data is regularly updated.
    There are always time delays between the collection of data and 
management actions. It takes time to collect data, analyze data, run 
data through assessment models, and conduct rigorous peer review of the 
assessment results. Once an assessment is complete, the Council process 
of amending a management plan takes 1-2 years, even longer if the 
management action is controversial. This is a frustrating reality of 
federal fisheries management.

Is the precautionary, risk-adverse approach combined with decreased 
        funding for fishery research and cooperative research resulting 
        in unnecessarily depressed harvest levels affecting economy and 
        jobs?
    I do not believe that precautionary fisheries management has 
resulted in a significant loss of fishery jobs in the Gulf of Mexico. 
Many fisheries jobs have been lost, but the primary drivers have been 
the high cost of fuel, the great recession, competition from cheap 
imported seafood, hurricane damage to fisheries infrastructure, harmful 
algal blooms and the Deepwater Horizon disaster (temporarily closed 
fishing areas, actual contamination, lingering misguided perceptions 
that Gulf seafood is tainted),
    Furthermore, a GMFMC staff analysis compared the current method for 
setting quota for grouper and tilefish with the method in the new 
management plan. The new method results in slightly higher quotas for 
these fisheries.

[GRAPHIC] [TIFF OMITTED] T7648.001


    The management actions that ended overfishing of Gulf red 
snapper in 2008 were taken based on the MSA requirements and NOAA 
guidance that existed prior to new risk-adverse approaches. Ending 
overfishing in red snapper was not precautionary. It was consistent 
with the long-standing MSA requirement for harvests to be sustainable. 
A 2007 stock assessment indicated that unsustainable catches of red 
snapper in the northern Gulf were preventing the depleted stock from 
rebuilding. Red Snapper immediately started to rebuild once overfishing 
ended, with allowable catches increasing from 5 million pounds in 2009 
to 7.185 million pounds in 2011.

Does the MSA requirement for use of best available scientific 
        information in management decisions become an excuse for using 
        incomplete or old data in management decisions rather than 
        gathering new data?
    In my experience, the requirement for use of best available 
scientific information has not become an excuse to avoid gathering new 
data.
    There is a well-established legal standard that ``best available 
scientific information'' is an acceptable basis for management. The use 
of ``best available scientific information'' is essential for Councils 
to fulfill their responsibility to make timely management decisions. At 
times, fishermen oppose changes in management and urge the Council to 
delay action until there is a new assessment or new update in hopes 
that the science advice will change. This can be an additional source 
of delay for scientifically defensible management actions, actions that 
are necessary to reach sustainable harvests.
    During the Council process, it is not uncommon for additional 
analyses to be run with updated information to address questions that 
come up in public testimony and committee deliberations.

What are my views on new recreational data collection program, to 
        provide better information for fishery managers, but not 
        providing data for 
        in-season management adjustments?
    When stocks are fully recovered, annual catches will gain stability 
and the year-to-year uncertainty of recreational fishing season length, 
bag limits and size limits will be minimized.
    Recreational fishermen are strong conservationists, interested in 
the biology of the fish, and committed to increasing the health of the 
fishery. They highly value the experience of catching and eating wild, 
beautiful fish. It is not their fault that recreational fishing is 
difficult to manage.
    Our tools for managing recreational fishing fall short in several 
ways. We need a management system that can respond quickly using timely 
in-season data. We need a system in which recreational fishermen can 
accurately report their catch and their discards and limit their 
catches to acceptable levels. These shortcomings in our management of 
recreational fishing have a significant negative impact on the health 
of the Gulf of Mexico reef fish fishery. It is a frustrating and 
uncomfortable situation for both anglers and managers.
    When a recreational fishery has the capacity to catch unsustainable 
numbers of fish, the traditional tools of bag limits, size limits, and 
open and closed seasons are not adequate to manage the fishery. In the 
GMFMC, recreational harvest accounts for half or more of the catch in 
three of our most valuable fisheries (red snapper, gag grouper, and 
King mackerel).
    We need to develop new management tools to increase accountability 
and management certainty for recreational fishing. Potential tools to 
explore (many drawn from recreational hunting models) include: fish 
tags, lotteries, catch shares for charterboat and headboat operators, 
specified catches that can be shared by members recreational fishing 
clubs or a particular charterboat fleet, real time electronic reporting 
of recreational catches, and improved estimation models and data 
collection methods for recreational catch and effort. I believe MRIP 
will greatly improve our understanding of the Charterboat and Headboat 
recreational catches, and will take us closer to in-season management 
measures in this sector of the recreational fishery.

Additional Comments
    The new methodology developed by the GMFMC to determine the buffer 
between overfishing level and the acceptable biological catch is 
scientifically defensible and an improvement compared to current 
practice. However, it is difficult for non-scientists to understand. In 
the Council process, one of our goals is to help the affected public 
understand why we take a particular management action. The ABC control 
rule is a hard one to explain.
    When the Council has very little data about a managed species, it 
is hard for our science committee to know what the right catch limit 
should be. In these situations, the GMFMC makes the reasonable choice 
of allowing current catches to continue; until there is a signal that 
something has changed in the fishery. Though reasonable, this approach 
is not really precautionary. It is an open question whether the Council 
process will be able to respond quickly to these signals.
                                 ______
                                 
    Mr. Fleming. All right. Thank you, Ms. Morris. Next, Mr. 
Cadrin. You have five minutes, sir.

    STATEMENT OF STEVEN CADRIN, Ph.D., ASSOCIATE PROFESSOR, 
DEPARTMENT OF FISHERIES OCEANOGRAPHY, SCHOOL FOR MARINE SCIENCE 
AND TECHNOLOGY, UNIVERSITY OF MASSACHUSETTS DARTMOUTH, MEMBER, 
   SCIENCE AND STATISTICAL COMMITTEE, SOUTH ATLANTIC AND NEW 
              ENGLAND FISHERY MANAGEMENT COUNCILS

    Dr. Cadrin. I thank the Members of the Subcommittee for the 
invitation to testify. My name is Steven Cadrin. I am a 
professor at the University of Massachusetts School for Marine 
Science and Technology. I was asked to address how the 2007 
amendment to the Magnuson-Stevens Act affects fishery 
management; more specifically, whether the data generated by 
NOAA are adequate for fishery managers to comply with the new 
requirements, and if using outdated information is affecting 
fishery-dependent jobs; second, if NOAA's reliance on using 
best scientific information available is a convenient excuse 
for defending outdated information; and finally, my views on 
the adequacy of data collection programs.
    My response to the Subcommittee is that current scientific 
information is inadequate to meet NOAA's approach to 
implementing the Act. The problem is twofold. There are major 
deficiencies in the quality and frequency of stock assessments 
and fishery statistics. And second, National Standard 
guidelines for implementing the Act pose unrealistic demands on 
the scientific system.
    In the context of decreased budgets, scientific resources 
need to be reprioritized. In addition, the national strategy 
for fishery management needs to be reconsidered so that demands 
on the scientific system are more suited to the current 
scientific capacity, and performance of the management system 
is more robust than the inherent uncertainties in fishery 
science.
    New requirements of the 2007 reauthorization act impose 
substantially greater demands on the fishery science and 
management system. My written testimony describes several 
examples to demonstrate that scientific inadequacies negatively 
affect fishing communities. National standard guidelines on the 
catch limit mandate require frequent and accurate stock 
assessments, comprehensive and real-time fishery monitoring, as 
well as risk analysis for each fishery.
    The Act mandates that fishery management be based on the 
best scientific information available. Current practice 
implements the best science mandate by adhering to official 
peer review processes for each region. Some regional peer 
review processes do not currently meet the other requirements 
of the Act, such as frequent status determination and 
specification of annual catch limits.
    A more efficient system of stock assessment and peer review 
is needed to increase scientific capacity. Scientific support 
for catch limits also involves in-season fishery monitoring 
that is timely enough to inform future catch limits and support 
fishery-dependent business decisions. Some components of total 
catch, such as commercial fishery discards and recreational 
fishery catch, are not well estimated, and estimates are not 
available in a timely fashion. Uncertainty and slow delivery of 
catch statistics precludes in-season management or adaptive 
fishing decisions to optimize catch allocations, incurring 
considerable cost to fishing communities.
    In the context of inadequate scientific information, there 
are several potential solutions to help improve the scientific 
capacity for supporting annual catch limits. Scientific 
resources can be reprioritized to support more frequent and 
accurate stock assessments, as well as more timely and accurate 
fishery monitoring data. Peer review processes can be 
streamlined using external expertise to solve scientific 
problems.
    NOAA's scientific capacity can be expanded and improved by 
partnering with universities and research institutes. Each 
regional scientific and statistical committee can be empowered 
to help serve the necessary peer review role and help solve 
scientific problems. The demands on fishery science can also be 
reduced in several ways. Exemptions from annual catch limits 
should be considered for those fisheries for which catch cannot 
be reliably monitored.
    The mixed-stock exemption from catch limits and 
accountability measures should be considered for bycatch and 
rebuilding stocks to avoid the wasteful and costly consequences 
of applying those approaches to mixed stock fisheries. More 
strategically, alternative management procedures should be 
considered that take advantage of the best of fishery science, 
rather than emphasizing the worst of it.
    In reply to the Subcommittee's specific questions, I 
conclude that the data generated by NOAA is inadequate for 
fishery managers to comply with the new requirements of the Act 
and associated National Standard guidelines, substantially and 
negatively affecting fishery-dependent jobs. NOAA's reliance on 
using best scientific information available is an inappropriate 
justification for defending outdated information. And finally, 
data collection programs are inadequate for providing in-season 
catch information, negatively affecting fishery-dependent 
business decisions and making fisheries accountable for 
scientific uncertainty.
    Thank you, Mr. Chairman and the rest of the Committee.
    [The prepared statement of Dr. Cadrin follows:]

 Statement of Steven X. Cadrin, Ph.D., Associate Professor, University 
  of Massachusetts Dartmouth, School for Marine Science and Technology

    I thank the Members of the Subcommittee for the invitation to 
testify before you today. My name is Steven Cadrin. I am an Associate 
Professor of Fisheries Oceanography at the University of Massachusetts 
Dartmouth, School for Marine Science and Technology. I have over twenty 
years of experience as a quantitative fisheries scientist with 
expertise in fish stock assessment and fishery management. I am proud 
to have been an employee of NOAA for the fifteen years before I started 
my current position. Although I am not representing any organization, 
my testimony draws on my experiences as chair of the New England 
Fishery Management Council's Scientific and Statistical Committee from 
2008 to 2011, a member of the South Atlantic Fishery Management 
Council's Scientific and Statistical Committee and associated 
interactions with Fishery Management Councils in all other coastal 
regions of the U.S.
    I was asked to address how the 2007 amendment to Magnuson-Stevens 
Fishery Conservation and Management Act affects domestic fishery 
management, with a focus on the new role of Scientific and Statistical 
Committees and the new requirement for annual catch limits to prevent 
overfishing. More specifically, the Subcommittee requested my views on:
        1)  whether the data generated by NOAA is adequate for fishery 
        managers to comply with the new requirements, and in the 
        context of decreased funding, if the application of a 
        precautionary approach using outdated information is affecting 
        coastal economies and fishery-dependent jobs;
        2)  if NOAA's reliance on using ``best scientific information 
        available'' is a convenient excuse for defending outdated 
        information; and
        3)  the adequacy of data-collection programs, including 
        recreational fishery statistics, the inability to provide in-
        season catch information, and the effect of uncertain catch 
        statistics on fishery-dependent business decisions.

1. Adequacy of Data Generated by NOAA
    The current scientific information used to support fishery 
management decisions is inadequate to meet the NOAA's approach to 
implementing the Act. The problem is twofold: 1) there are major 
deficiencies in the quality and frequency of stock assessments and 
fishery statistics, and 2) National Standard Guidelines for 
implementing the Act pose unrealistic demands on the scientific system. 
In the context of decreased budgets, scientific resources need to be 
reprioritized. In addition, the national strategy for fishery 
management needs to be reconsidered so that demands on the scientific 
system are more practically suited to the current scientific capacity 
and performance of the management system is more robust to the inherent 
uncertainties in fisheries science.
    My view is supported by two recent reviews that were commissioned 
by the National Marine Fisheries Service. A recent national review on 
scientific institution building concluded that ``NMFS needs more 
national scientific leadership, and better management, information 
systems and organizational structures, to plan and implement national 
programs'', and ``this problem has ramifications with respect to the 
science based roots of the agency and science as the foundation for 
policy and management'' (Sissenwine and Rothschild 2011). An 
independent assessment of the fishery management system in New England 
identified problems and challenges and formed recommendations including 
``conduct a comprehensive analysis of all NMFS data systems to identify 
areas that will improve data gathering, data management, data analysis 
and data use'' (Touchstone Consulting Group 2011).
    New requirements of the 2007 amendment to the Act impose 
substantially greater demands on the fishery science and management 
system. The current scientific capacity was more adequate for meeting 
the requirements of the previous version of the National Standard 
Guidelines which focused on status determination (i.e., relative stock 
size, sustainability of harvest) and general management advice. Even 
state-of-the-art fishery science cannot fully support the risk-based 
catch limits with accountability measures suggested in the current 
Guidelines.
    I will describe several examples to demonstrate that the failure to 
effectively adapt to new requirements negatively impacts fisheries, 
fishery resources and the communities that depend on them. Although the 
examples are primarily from New England, many of them exemplify similar 
problems or potential problems in other regions. National Standard 
Guidelines suggest that catch limits should be based on an estimate of 
the catch associated with overfishing and uncertainty in the estimate 
of the overfishing limit, or the catch that will allow rebuilding of 
overfished stocks; and fisheries should be held accountable for 
exceeding catch limits (NOAA 2009). Such implementation of the catch 
limit mandate requires frequent and accurate stock assessments, 
comprehensive and real-time fishery monitoring, as well as risk 
analysis for each fishery. Although the Act establishes National 
Standard 1 so that ``Conservation and management measures shall prevent 
overfishing while achieving, on a continuing basis, the optimum yield 
from each fishery for the United States fishing industry'', 
deficiencies in the scientific basis of fishery management decisions 
can result in either foregone yield or overfishing, both of which are 
costly to fisheries and fishing communities.
    As implemented in the National Standard Guidelines, specification 
of annual catch limits requires frequent stock assessments and 
projected catch over a short period (e.g., one to three years). Stock 
assessment involves an update of the most recent fishery statistics and 
resource surveys to evaluate stock status and provide a basis for catch 
forecasts. Catch limits that are based on recent stock assessments and 
short-term projections take advantage of the strengths of conventional 
fishery science, in which catch forecasts are almost entirely based on 
a synthesis of updated fishery and survey observations. Conversely, 
catch limits based on longer-term predictions (e.g., greater than three 
years) are based largely on assumed population dynamics rather than on 
current data. Long-term predictions rely on the ability to predict 
annual recruitment of young fish and their future vital rates, which is 
one of the most challenging problems in fishery science.
        Example 1--New England groundfish, our nation's oldest 
        commercial fishery and one of its most productive, serves as an 
        example of the inadequate frequency of stock assessments 
        provided by NOAA for fishery management decisions. NOAA 
        concluded that it did not have the capacity to provide annual 
        stock assessments for all northeast fisheries (Northeast 
        Fisheries Science Center 2009). The Northeast Regional 
        Coordinating Committee is in the process of revising its 
        assessment and peer review process, because the requirements of 
        the catch limit system far exceed NOAA's scientific capacity. 
        As a result of this deficiency in scientific resources, the 
        planned approach for specifying catch limits for the groundfish 
        fishery from 2012 to 2014 is medium-term catch forecasts, five 
        to seven years from the 2008 stock assessments. The New England 
        Fisheries Management Council's Scientific and Statistical 
        Committee advised NOAA and the Council that such medium-term 
        projections would not be an adequate basis for specifying catch 
        limits. The Council is now faced with the difficult task of 
        specifying effective catch limits based on outdated assessments 
        and unreliable catch projections, and the uncertainty will be 
        reflected in precautionary catch limits.
    In addition to the need for stock assessments to be frequent, 
accuracy is also required to determine appropriate catch limits. Only a 
small portion of stock assessments can accurately project catch 
associated with overfishing and its uncertainty, which is the technical 
basis of the National Standard Guidelines for deriving annual catch 
limits. Many assessments are data-poor, and are not informative enough 
to reliably evaluate stock size, fishing mortality, maximum sustainable 
yield reference points or catch projections to determine catch 
associated with overfishing. National Standard Guidelines suggest that 
Councils should be more precautionary in the face of such uncertainty, 
leading to lower catch limits and potential economic impacts as a 
result of scientific uncertainty. Despite the obvious deficiencies of 
data-poor stock assessments, the National Standard Guidelines require 
annual catch limits for all stocks, with few exceptions.
        Example 2--The New England skate complex offers an example in 
        which fishery landings cannot be identified by species. Mixed-
        species catch limits are required to meet separate-species 
        management objectives for ending overfishing and rebuilding 
        overfished stocks. In such data-poor situations, catch limits 
        are largely based on expert opinion, and their performance for 
        meeting fishery management objectives is unknown. Despite these 
        major uncertainties in the stock assessment of skates, the 
        fishery is accountable for overfishing, and fishing communities 
        are impacted from conservative catch limits in the face of 
        scientific uncertainty. The fishing industry has incurred 
        substantial costs in the form of lost jobs and income as a 
        result of inadequate scientific information. Precautionary 
        limits to the skate fishery caused 300 workers to be laid off 
        from seafood processors in New Bedford (Whiteside 2011).
    Other stock assessments are more informative than those for data-
poor stocks, but still have substantial uncertainties that cannot be 
quantified or used to determine catch limits. A troubling feature of 
many stock assessments in each coastal region of the U.S. is the lack 
of consistency from one stock assessment to the next. Retrospective 
inconsistency is the change in perception of previous stock size or 
fishing mortality when new data are added to the assessment. Managing a 
fishery based on an assessment with retrospective inconsistency 
involves setting an apparently appropriate catch that in retrospect 
caused substantial overfishing or foregone yield.
        Example 3--The fishery for Georges Bank yellowtail flounder, 
        one of the principle groundfish stocks off New England, is an 
        example of the frustrating and costly impact of retrospective 
        inconsistency. From 2006 to 2009, the fishery caught less than 
        the catch limit advised by the scientific process in each year. 
        However, the 2011 stock assessment indicates that those 
        apparently appropriate catches produced overfishing each year, 
        in some years more than five times the overfishing threshold 
        (Transboundary Resources Assessment Committee 2011). Despite 
        efforts to correct the stock assessment, the retrospective 
        problem continues to obfuscate perceptions of stock status and 
        obstruct attempts to manage the fishery or rebuild the 
        resource. After decades of overfishing, in the face of severe 
        restrictions to the fishery, the stock cannot rebuild within 
        the desired time frame, even with no fishery. Adequate 
        scientific information would have prevented these fishery 
        management failures.
    The implications of uncertain, infrequent stock assessments and 
inadequate fishery monitoring create potential economic impacts on 
fishing communities. National Standard Guidelines suggest partitioning 
scientific uncertainty from management uncertainty so that fisheries 
are only accountable for the latter. However, that approach is only 
successful for data-rich assessments that are frequently updated and 
accurately quantify scientific uncertainty. The examples above 
demonstrate that inaccurate stock assessments, infrequent updates and 
unquantified uncertainties can hold fisheries accountable for 
scientific uncertainty.

2. NOAA's Reliance on ``Best Scientific Information Available'' as an 
        Excuse for Inadequate Information
    The Act mandates that fishery management be based on the ``best 
scientific information available'', which is defined for application to 
fisheries by the National Research Council (2004) and Sullivan et al. 
(2006). Current practice and draft guidelines for National Standard 2 
implement the ``best scientific information available'' mandate by 
adhering to official peer review processes for each region. Some 
regional peer review processes do not currently meet the other 
requirements of the Act, such as frequent status determination and 
specification of annual catch limits. The two aspects of stock 
assessments required by the implementation of catch limits (greater 
frequency and higher-quality) are competing needs that draw on the same 
scientific resources. A more efficient system of stock assessment and 
peer review is needed in all regions to increase the capacity of the 
scientific system.
    Although independent peer review is an essential element of 
operational science, some regional peer review processes have produced 
inadequate information for implementing the catch limit management 
system, because it is not frequent enough and not reliable enough. Many 
regional peer review processes are slow to respond to new information 
and are generally unsuccessful for solving stock assessment problems. 
Some regional peer review processes focus on a few stocks each year and 
add a great deal of time to the fishery management system while adding 
little scientific value. A more streamlined peer review process that 
uses external scientific expertise to solve problems would be more 
suited to the catch limit system than some of the regional peer review 
processes.
        Example 4--The stock assessments produced by the Northeast 
        Regional Stock Assessment Workshop in the last year illustrate 
        the need for a more effective and efficient peer review system. 
        The 51st Stock Assessment Workshop attempted to develop 
        analytical assessments for silver hake, red hake and offshore 
        hake (Northeast Fisheries Science Center 2010). Despite decades 
        of fishery monitoring and survey data as well as months of work 
        from dozens of scientists and support staff, the Workshop was 
        not successful in developing stock assessments for any of those 
        stocks that could adequately meet the requirements of the catch 
        limit system. The 52nd Stock Assessment Workshop was similarly 
        unsuccessful in developing an analytical assessment for Gulf of 
        Maine winter flounder, a critical stock in the New England 
        groundfish fishery. In each of these cases, the Council is 
        faced with the difficult task of specifying a catch limit based 
        on inadequate scientific information.
    One provision of the Act offers a resource for efficient peer 
review and creative problem solving but is currently under-utilized. 
Each regional Fishery Management Council has established a Scientific 
and Statistical Committee to help develop, evaluate, and peer review 
scientific information for fishery management. Although catch limits 
are bound by the Committees' recommendations, some regional offices of 
NOAA and Councils insist on prioritizing the peer review process. The 
scope of Scientific and Statistical Committee responsibilities are 
often limited to applying results from the official peer review process 
without deviation from accepted methods and approaches. The defense of 
outdated science and problematic methods has precluded creative problem 
solving or responsive decision making. Empowering Scientific and 
Statistical Committees would improve the scientific basis for fishery 
management while serving the role of checks and balances.
        Example 5--Recent management decisions for the New England sea 
        scallop fishery provide an example of the limitations placed on 
        Scientific and Statistical Committees and the resistance to 
        deviate from the official peer review recommendations. In 2009, 
        the New England Scientific and Statistical Committee 
        recommended catch limits for sea scallops that were based on a 
        stochastic estimate of the overfishing definition. The 
        Northeast Regional Office of NMFS concluded that the Committee 
        did not have authority to revise the overfishing definition, 
        and catch limits should be based on the overfishing threshold 
        recommendation from the most recent official peer review. 
        Subsequent peer review of the sea scallop stock assessment by 
        the 50th Stock Assessment Workshop confirmed that the 
        stochastic estimate was the best scientific information 
        available (Northeast Fisheries Science Center 2010). The cost 
        of using outdated recommendations for managing the sea scallop 
        fishery was estimated to be over $60 million and 500 jobs 
        (Georgianna 2010).

3. Adequacy of Data Collection Programs
    Beyond the need for frequent and accurate stock assessments, 
scientific support for catch limits involves in-season fishery 
monitoring that is timely enough to inform future catch limits and 
support fishery-dependent business decisions. Several transitions to 
electronic monitoring have improved the timely collection and reporting 
of landings from commercial fisheries. However, other components of 
total catch such as commercial fishery discards and recreational 
fishery catch are not well estimated, and estimates are not available 
in a timely fashion. Uncertainty and slow delivery of catch statistics 
precludes in-season management or adaptive fishing decisions to 
optimize catch allocations, incurring considerable costs to fisheries 
and fishing communities.
    Accountability for overfishing is being implemented in a way in 
which fisheries `pay back' any catch that exceeds the annual catch 
limit in the form a reduced catch limit in the subsequent year. Such an 
implementation requires accurate in-season monitoring to allow 
fisheries to manage their own catch and avoid accountability measures. 
Therefore, in situations of slow or inaccurate monitoring, fisheries 
are indirectly accountable for scientific uncertainty.
        Example 6--Inadequate catch monitoring is demonstrated by 
        estimates of discards in New England. The Northeast Region has 
        adopted a Standardized Bycatch Reporting Method for commercial 
        discards that is based on data from at-sea observers (Wigley et 
        al. 2007). The stratification for observer sampling is stock 
        area and fleet, which is too coarse to efficiently estimate 
        discards, often inferring `phantom discards' (i.e., estimates 
        of discarded catch that are artifacts of the methodology rather 
        than a reflection of actual catch). Many groundfish sectors are 
        charged with discards against their allocation based on the 
        Standardized Bycatch Reporting Method, but the stock-wide 
        estimators assume that each vessel in the sector has the same 
        discard patterns. Some vessels have rare discards that have 
        been documented by NOAA observers and the NOAA study fleet, but 
        these vessels are charged the fleet-wide stock-wide discard 
        rate, and the sector is accountable for exceeding their catch 
        allocation, even if the overage is an artifact of an inaccurate 
        discard estimate. Furthermore, the Standardized Bycatch 
        Reporting Method removes any incentive for individual fishermen 
        to reduce bycatch.

        The Standardized Bycatch Reporting Method for yellowtail 
        flounder bycatch in the scallop fishery is both slow and 
        biased. Estimates of yellowtail bycatch are not available on a 
        timely basis, and the annual estimate of bycatch is not 
        provided until months after the fishing year ends. The estimate 
        of yellowtail discards in the scallop fishery is biased, 
        because observers are more likely to sample southern New 
        England, where there are more yellowtail, than the Mid Atlantic 
        Bight, where there are few yellowtail. When the observer data 
        are used for a stock-wide, fleet-wide estimate of discards, the 
        estimate of discards is more influenced by the southern New 
        England bycatch rate. When the same observer data are 
        appropriately stratified by region, the estimate of yellowtail 
        discards decreases. The Standardized Bycatch Reporting Method 
        indicates that the scallop fishery substantially exceeded their 
        allocation of yellowtail in 2010, which they will be 
        accountable for in the future, but alternative stratifications 
        that recognize regional patterns indicate that there was no 
        overage or only a slight overage. This example demonstrates how 
        fisheries are accountable for scientific uncertainty.

        Example 7--Recreational fishery statistics also demonstrate 
        slow delivery of uncertain catch estimates and how the catch 
        limit with accountability system implemented by the National 
        Standard Guidelines poses unrealistic demands on scientific 
        monitoring programs. For example, the recreational fishery has 
        contributed approximately 20% to 30% of the total catch of cod 
        in the Gulf of Maine over the last decade, and that portion is 
        reported to have increased substantially since the last stock 
        assessments. However, estimates of recreational catch are not 
        available for the analysis supporting 2012-2014 catch limits 
        for groundfish. Uncertainty in recreational fishery statistics 
        negatively effects catch limit monitoring as well as stock 
        assessments. Some components of catch are not being adequately 
        monitored to determine future catch limits, and fishery-
        dependent businesses that are accountable for exceeding catch 
        limits cannot plan according to timely catch statistics. 
        Alternative management procedures (e.g., size limits, bag 
        limits, gear restrictions, time/area closures) would be more 
        suited to the properties of recreational fisheries and more 
        robust to the problems associated with monitoring catch from 
        recreational fisheries.
    The fishery's accountability for scientific uncertainty is 
particularly a problem for bycatch species and rebuilding stocks. The 
catch limit system is most efficient when specific stocks can be 
targeted or the stock-specific limits reflect the mix of stocks 
available on the fishing grounds. When catch limits do not match the 
multispecies availability, catch limits for one stock constrain the 
ability of the fleet to catch the full allocation of healthy species. 
Several aspects of scientific uncertainty exacerbate the mixed-stock 
problem. When stock assessments underestimate stock size, catch limits 
are lower than they should be, and fishermen have difficulty avoiding 
the species that have artificially low catch limits. Furthermore, when 
some stocks are rebuilding, their catch limits remain relatively low 
while the stock rebuilds, increasing the challenge to avoid rebuilding 
stocks while targeting other stocks. These problems are intensified 
when accountability measures further reduce the catch limits on 
rebuilding bycatch stocks, thereby increasing the mismatch between the 
catch limit and the species mix on the fishing grounds. Therefore, 
scientific uncertainty and catch limits with accountability prohibit 
mixed-stock fisheries from harvesting their allocated catch limits and 
form a wasteful management strategy with huge economic losses.
        Example 8--The mixed-stock problem, intensified by scientific 
        uncertainties, severely limits the New England groundfish 
        fishery from landing its total multispecies allocation. For 
        example, southern New England winter flounder are behind 
        schedule in the agreed rebuilding plan largely because of 
        scientific uncertainties in the stock assessment, and only an 
        incidental bycatch is allowed. According to the National 
        Standard Guidelines, this restrictive approach to catch limits 
        needs to be maintained until the stock is completely rebuilt. 
        If rebuilding is successful, the challenge of avoiding winter 
        flounder will be exacerbated. Furthermore, if catch limits are 
        exceeded, the fishery will be held accountable in the form of 
        further reductions in catch limits of a rebuilding stock. This 
        example shows that scientific deficiencies for meeting the the 
        catch limit and accountability system implemented by National 
        Standard Guidelines impose substantial costs to the fishery. As 
        a result of the mixed-stock problem, the groundfish fishery 
        only caught 35% of the allocated catch in 2010, and employment 
        decreased by nearly 13,000 crew days from 2009 to 2010 (Kitts 
        et al. 2011).
    National Standard Guidelines suggest that catch limits should be 
based on each regional Fishery Management Council's desired risk 
tolerance for overfishing. However, such risk management decisions 
require evaluation of economic costs and benefits that are not 
routinely provided by the scientific process. Although some economic 
data are collected from fisheries, the information is not comprehensive 
enough to evaluate costs and benefits of alternative catch limits, and 
economic analyses are limited to impact statements that are completed 
after management actions are decided. A broader approach to informing 
risk tolerance would be management strategy evaluation, which has only 
been applied to few U.S. fisheries in a cursory way. Ignoring economic 
aspects of alternative catch limits poses unknown costs to fisheries.
        Example 9--The first iteration of the national catch limit 
        system was implemented in 2010 and 2011, and catch limits have 
        been largely driven by scientist's estimates of limits and 
        recommended probability of overfishing, or expert judgment for 
        the many stocks that have data-poor or problematic assessments. 
        Implicit risk tolerance ranges from 10% to near-50% probability 
        of overfishing, but most catch limits are not based on explicit 
        risk decisions. More extensive risk management would include 
        cost-benefit analyses, in which multiple utilities (revenue, 
        profit, employment, etc.) and consequences of events (e.g., 
        cost of overfishing, cost of triggering a rebuilding plan, cost 
        of foregone yield) would be considered in the evaluation of 
        risk tolerance. National Standard Guidelines need to be 
        expanded to include these important scientific analyses as a 
        routine aspect of deriving annual catch limits to help maximize 
        benefits, minimize costs and achieve optimum yield.
    In the context of inadequate scientific information provided by 
NOAA, there are several potential solutions to help improve the 
scientific capacity for supporting annual catch limits. Solutions can 
address both aspects of the problem: the adequacy of scientific 
information and the implementation of the catch limit mandate.
        1)  Scientific resources can be reprioritized to support more 
        frequent and accurate stock assessments as well as more timely 
        and accurate fishery monitoring data.
        2)  Peer review processes can be streamlined, using external 
        expertise to solve scientific problems.
        3)  NOAA's scientific capacity can be expanded and improved by 
        partnering with universities and research institutes that have 
        the human resources and infrastructure to help bear the burden 
        of the new requirements of catch limits.
        4)  Each regional Scientific and Statistical Committee can be 
        empowered to help serve the necessary peer review role and more 
        importantly help solve some of the major scientific problems in 
        stock assessments.
    The demands on fishery science can also be reduced in several ways.
        1)  Exemptions from annual catch limits should be considered 
        for stocks and fisheries for which catch cannot be reliably 
        monitored.
        2)  The mixed-stock exemption from catch limits and 
        accountability measures should be considered for bycatch and 
        rebuilding stocks to avoid the wasteful and costly consequences 
        of mixed-stock fisheries.
        3)  More strategically, alternative management procedures, such 
        as data-driven catch limits that are regularly reconsidered 
        through management strategy evaluation, should be considered 
        that take advantage of the best of fisheries science rather 
        than emphasizing the worst of it (e.g., Butterworth and Punt 
        1999).
    In summary, I conclude that the scientific information provided by 
NOAA is inadequate to meet the needs of the catch limit system as 
currently implemented, and the inadequacy of science is costing jobs. 
Most stock assessments are too infrequent and too inaccurate to derive 
annual catch limits that avoid overfishing while allowing optimum 
yield. Major components of total catch, such as commercial fishery 
discards and recreational fishery catch, are imprecisely estimated and 
not monitored in a timely way to support in-season management and 
business decisions. Economic data and analyses are insufficient to 
evaluate risk-based catch limits. In many cases, fisheries are 
accountable for scientific inadequacy, with major costs to fishing 
communities. The scientific information required to support the fishery 
management system specified in the National Standard Guidelines is much 
greater than NOAA's current scientific capacity.
    In reply to the Subcommittee's specific questions, I conclude that:
        1)  The data generated by NOAA is inadequate for fishery 
        managers to comply with the new requirements of the Act and 
        associated National Standard Guidelines, substantially and 
        negatively affecting coastal economies and fishery-dependent 
        jobs;
        2)  NOAA's reliance on using ``best scientific information 
        available'' is an inappropriate justification for defending 
        outdated information and avoiding creative problem solving; and
        3)  Data-collection programs are inadequate for providing in-
        season catch information, negatively affecting fishery-
        dependent business decisions and making the fishery accountable 
        for scientific uncertainty.
References
Butterworth, DS and AE Punt. 1999. Experiences in the evaluation and 
        implementation of management procedures. ICES Journal of Marine 
        Science 56: 985-998.
Cuddy D. Herring fishery could catch a break. The Standard Times July 
        19 2011, New Bedford MA.
Georgianna, D. 2010. Short term economic impact of scallop framework 
        21. Massachusetts Marine Fisheries Institute Report. January 5 
        2010.
Kitts A, Bing-Sawyer E, McPherson M, Olson J, Walden J. 2011. Interim 
        Report for Fishing Year 2010 on the Performance of the 
        Northeast Multispecies (Groundfish) Fishery (May 2010--January 
        2011). US Dept Commer, Northeast Fish Sci Cent Ref Doc. 11-07; 
        41 p. Available from: National Marine Fisheries Service, 166 
        Water Street, Woods Hole, MA 02543-1026, or online at http://
        www.nefsc.noaa.gov/nefsc/publications/
National Research Council. 2004. Improving the use of the ``Best 
        Scientific Information Available'' Standard in Fisheries 
        Management. The National Academies Press, Washington, D.C.
Northeast Fisheries Science Center. 2009. An Evaluation of Scientific 
        and Assessment Needs to Support the Development of Acceptable 
        Biological Catches (ABCs) and Annual Catch Limits (ACLs) for 
        Managed Fishery Resources in the Northeast Region. A White 
        Paper to the NRCC prepared by ACL Working Group with review and 
        consultation with the NEFMC/MAFMC/NERO/NEFSC ACL Working Group, 
        October 2009.
Northeast Fisheries Science Center. 2010. 50th Northeast Regional Stock 
        Assessment Workshop (50th SAW) Assessment Report. US Dept 
        Commer, Northeast Fish Sci Cent Ref Doc. 10-17; 844 p. 
        Available from: National Marine Fisheries Service, 166 Water 
        Street, Woods Hole, MA 02543-1026, or online at http://
        www.nefsc.noaa.gov/nefsc/publications/
Northeast Fisheries Science Center. 2011. 51st Northeast Regional Stock 
        Assessment Workshop (51st SAW) Assessment Report. US Dept 
        Commer, Northeast Fish Sci Cent Ref Doc. 11-02; 856 p. 
        Available from: National Marine Fisheries Service, 166 Water 
        Street, Woods Hole, MA 02543-1026, or online at http://
        www.nefsc.noaa.gov/nefsc/publications/
NOAA. 2009. Magnuson-Stevens Act Provisions; Annual Catch Limits; 
        National Standard Guidelines; Final Rule. Federal Register 74 
        (11): 3178-3213.
Sissenwine M and B Rothschild. 2011. Building Capacity of the NMFS 
        Science Enterprise. Unpublished report to NMFS, January 2011.
Sullivan PJ, JM Acheson, PL Angermeier, T Faast, J Flemma, CM Jones, EE 
        Knudsen, TJ Minello, DH Secor, R Wunderlich and BA Zanetell. 
        2006. Defining and implementing best available science for 
        fisheries and environmental science, policy, and management. 
        American Fisheries Society, Bethesda, Maryland, and Estuarine 
        Research Federation, Port Republic, Maryland.
Touchstone Consulting Group. 2011. A Review of the New England Fishery 
        Management Process. Report to NMFS April 2011
Transboundary Resources Assessment Committee. 2011. Georges Bank 
        Yellowtail Flounder. TRAC Status Report 2011/01.
Whiteside JF. 2011. Scientific and Statistical Committee's meeting 
        April 12, 2011. Memorandum to J. Pappalardo, New England 
        Fishery Management Council Chair, April 6, 2011.
Wigley SE, Rago PJ, Sosebee KA, Palka DL. 2007. The Analytic Component 
        to the Standardized Bycatch Reporting Methodology Omnibus 
        Amendment: Sampling Design, and Estimation of Precision and 
        Accuracy (2nd Edition). US Dep. Commer., Northeast Fish. Sci. 
        Cent. Ref. Doc. 07-09; 156 p.
                                 ______
                                 
    Mr. Fleming. Well, I think you, Mr. Cadrin, and thank you, 
panel, for your questions. At this point, we will begin Member 
questions for our witnesses. To allow all Members to 
participate and to ensure we can hear from all of our witnesses 
today, Members are limited to five minutes for their questions. 
However, if Members have additional questions, we can have more 
than one round of questioning. I now recognize myself for five 
minutes.
    Let's see. Mr. Schwaab, on several questions you have said 
that if stocks were rebuilt, it would increase the value of 
fisheries by more than $2 billion annually. However, when your 
agency requires significant, in some cases as many as three 
separate calculations levels, that is, of precaution, 
calculations levels of precaution, it significantly reduces the 
economic activity. So you can see kind of the conundrum that we 
get in there, is, yeah, when the fish levels get high, that 
opens up the economic benefits. But at the same time, if we are 
constantly underestimating the fish levels out there, then 
obviously we are sort of hurting ourselves economically.
    So is your calculation really relevant?
    Mr. Schwaab. Thank you, Mr. Chairman. I would make a couple 
of comments. First, the uncertainty that is factored into the 
management decisions, the catch limits and the management 
decisions that are made in the short term are designed to 
reflect the uncertainty that is inherent either in the 
scientific process, the ability to measure the number of fish 
out there, or the uncertainty that is inherent in our ability 
to execute the management approaches that are put in place.
    I don't think that there is necessarily a disconnect 
between factoring in that uncertainty in the short term in a 
way that ensures that we reach the longer-term goals. So in 
fact, by factoring in uncertainty at the appropriate level in 
the short term, we increase the chance of achieving the longer-
term goal that I spoke to that yields the kind of benefits I 
described.
    Mr. Fleming. OK. If all of the economic restrictions to 
fisheries caused by ESA restrictions were added up, how much do 
you think it would total per year?
    Mr. Schwaab. I have no idea, Mr. Chairman.
    Mr. Fleming. OK. All right. Let me go on to another 
question, another angle here. Congress appropriated more than 
$50 million each for four new fishery research vessels, and now 
the Fiscal Year 2012 projections are only to be used for only 
140 days at sea, previously 411 in Fiscal Year 2008. That means 
each vessel will be tied up for 225 days each year.
    Is it true that you maintain two separate crews for each 
vessel?
    Mr. Schwaab. Mr. Chairman, I am not familiar with the 
operations of the individual vessel crews, so I can't speak to 
the type of crew patterns that exist there. I can affirm 
generally the days at sea numbers that you described under 
current budget circumstances.
    Mr. Fleming. Can you get those numbers back to us offline?
    Mr. Schwaab. Yes, sir. I would be happy to.
    Mr. Fleming. We would appreciate that. OK. Now, what do 
both crews do when the ship sits idle--or assuming there are 
two crews out there. What does both or at least one do when the 
ship is idle?
    Mr. Schwaab. I will be happy to provide that information 
with you as well in that followup.
    Mr. Fleming. OK. So you don't have any idea at this point 
what they do when the ship is tied up.
    Mr. Schwaab. No, sir. The actual operation of the ships is 
conducted by a separate line within NOAA. And while there are 
certainly people that would have that level of understanding, I 
am not one of them.
    Mr. Fleming. OK. How many fishery surveys are currently 
being done using non-NOAA vessels?
    Mr. Schwaab. Well, I can't give you an exact number. I can 
tell you that there are quite a few fishery surveys that are 
being done through contract vessels. There are fishery surveys 
that are being done that feed into the assessment process 
through indirectly a number of academic institutions as well, 
and there are certainly fishery surveys that are underway 
across State-level jurisdictions as well.
    Mr. Fleming. Have you looked at the cost effectiveness of 
using the contractors or outside vessels and crews versus ones 
that you have in-house?
    Mr. Schwaab. Yes, sir. In a number of cases we do because 
of the cost effectiveness use either some of those other 
mechanisms that I spoke to, contract vessels. We certainly 
depend upon where data is produced by research institutions or 
State-level investigations, and those data are available. They 
are incorporated into the assessment process as appropriate.
    Mr. Fleming. OK. All right. Thank you. My time is up. I 
yield then to the Ranking Member, Mr. Sablan.
    Mr. Sablan. Thank you. Thank you, Mr. Chairman. Mr. 
Schwaab, recently there has been concern over how to manage the 
so-called data-poor species. Is it possible to manage fisheries 
in a sustainable manner without a full-scale stock assessment? 
Can you provide us with some example of how your agency is 
setting annual catch limits and accountability measures for 
data-poor species? And could you elaborate on what happens with 
some of the stocks when the accountability measures are 
triggered?
    Mr. Schwaab. I am sorry. I missed the last part.
    Mr. Sablan. Could you elaborate on what happens with some 
of these stocks when the accountability measures are triggered?
    Mr. Schwaab. Yes. So the data-poor situation first. There 
are, as you would note from at least our written testimony, a 
number of data-poor situations that exist out there. The agency 
and the Councils are challenged by those circumstances. We have 
been for a number of years now working very closely with the 
Councils' Scientific and Statistical Committees on an annual 
basis on a number of key issues. One of those issues of focus 
has been the issue of what to do with data-poor stocks.
    There are a number of techniques that have been employed, 
and they vary dramatically from stock to stock based upon the 
amount of information that is available and what types of 
circumstances might exist around that fishery. But, for 
example, we have worked very closely with the Councils in the 
setting of catch limits, for example, that are based on some 
representation of recent history, historical landings, where 
fishery-dependent data that would support that exists. There 
are other techniques also that we might employ.
    As to accountability measures, generally when catch limits 
are set, and those catch limits are reached, again from fishery 
to fishery, there are a number of techniques that might be 
employed. Some of those are just very simply a closure of a 
fishery. In others, there might be some anticipated further 
restrictions in, for example, recreational fisheries, seasons, 
or krill limits or bag limits. There are any number of 
accountability measures that might be employed as catch limits 
are approached or reached.
    Mr. Sablan. All right. And we may get back to that, but I 
have another question, Mr. Schwaab. We are on the verge of a 
major accomplishment here, I think, setting catch limits and 
accountability measures for all Federally managed stocks. Will 
these management measures prevent overfishing and avoid the 
overfishing problem that has plagued our domestic fisheries for 
decades, costing major losses in jobs and revenues?
    Mr. Schwaab. Mr. Sablan, I think you are exactly right. By 
reaching the full potential of the 2006 reauthorization, at the 
end of this year--at the end of last year, for stocks that were 
undergoing overfishing and at the end of 2011 for all other 
Federally managed species the Councils will have put in place 
catch limits and accountability measures that will ensure 
sustainable fishing, and in the cases where rebuilding is 
required, an appropriate rebuilding trajectory.
    This will, by every estimation, lead to much higher levels 
of productivity on a more sustainable basis across domestic 
fisheries over time.
    Mr. Sablan. All right. Thank you, Mr. Schwaab. Ms. Morris, 
in your written testimony you mentioned a few new management 
tools to improve accountability on the recreational sector. Can 
you expand on a few of those?
    Ms. Morris. Well, we should definitely be taking advantage 
of everybody's electronics for individual recreational 
fisherman to be able to timely report their catches. And, you 
know, there is an issue with verification of that, but I think 
that is one area where we can make tremendous progress.
    I think with the charter boat and head boat section of the 
recreational fishery, they are sort of coming together and 
organizing and wanting to come up with their own mechanisms 
using e-log books and weighing their catch, counting their 
catch, reporting their catch very accurately. I think with the 
MRIP surveys, we will start to get a much better sense about 
accountability in that fishery.
    And then if you look at models from hunting, there are 
tags, lotteries, lots of different fertile ideas that we can 
adapt from hunting, potentially for recreational fishing.
    Mr. Sablan. Thank you very much. Thank you, Mr. Chairman.
    Mr. Fleming. The gentleman yields back his time. Next up we 
have Mr. Duncan from South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman. Up until being elected 
to the U.S. Congress, I served as the chairman of the 
Agriculture and Natural Resources and Environmental Affairs 
Committee in the South Carolina House of Representatives, and 
had a lot of opportunity to speak with fishermen. And let me 
just say I am an avid fisherman myself. I enjoy going offshore, 
enjoy inshore. Living two and a half hours from the coast, it 
is a little difficult, more difficult for me than maybe the 
gentleman sitting to my right, to get on a boat and go out and 
catch red snapper or grouper or even an occasional sailfish off 
the coast.
    But I do have a lot of friends that do it on a regular 
basis, and I talk with a lot of the captains and others. So in 
the spring of last year, 2010, I chimed in as the chairman of 
that committee against the closure of the South Atlantic for 
red snapper, and that is the issue that I have on my mind today 
because talking with the captains and looking at the SEDAR 15 
and SEDAR 24 data, and trying to extrapolate from that where 
the commonsense was used in the data entry in coming up with 
some of the original baseline numbers--and I have to say that 
it appears to me that you have no idea how many fish are out 
there, because you are relying on a computer model that has a 
flawed baseline.
    And so I would suggest that before we close the fishery in 
the South Atlantic, that we would do more to get out to the 
docks and to build the relationships with the fishing boat 
captains, get on their boats as observers. I am not talking 
about just the head boats that are going out 30 miles. I am 
talking about the guys that are going out farther than that and 
fishing the reefs all down along the coast, not just off the 
coast of South Carolina, and collect the real data, and then 
use the 300 days at sea in the Atlantic area--I lost that 
chart, but to do the long lines, not just in the, you know, 50, 
75, 100 feet depths, but get out to 200, get out to 250, get 
out to 300 feet deep along the coast where the snapper are and 
really determine what is there as backup to what you are 
hearing from the head boat captains and the party boat captains 
and the guys that are out there doing it whose livelihoods are 
dependent upon days at sea taking sports out there to fish.
    And I can tell you, I am going to let Mr. Southerland talk 
about some data that was given to us that shows that the 
conclusions of only 500-and-something-thousand fish supposedly 
remaining in the South Atlantic, and if you take the actual 
catch data from the captains, there is no way, no way, that it 
adds up.
    And so I will use--Mr. Harris, you said April 2010 as chair 
of the South Atlantic Council you wrote to Secretary Locke and 
said that fisheries management in the South Atlantic suffers 
from a chronic yet well documented lack of basic data, which 
hampers scientists' ability to evaluate exploited population 
and a manager's ability to develop and ensure accountability 
with management measures, and this lack of data adds 
uncertainty at all levels of scientific and management process.
    So my question to you in just a second is do you still feel 
this is true because I am comparing this to, Mr. Chairman, the 
data that was used by the International Panel on Climate Change 
to come to a conclusion within the United Nations, fabricating 
data or using some sort of preconceived idea of what the 
baseline should be, and then extrapolating an end result.
    An example of the fishery data that is used in my district, 
or excuse me, in my State, the Catawba River, they are closing 
or holding up a permit for a dam that generates power on the 
Catawba River because there might be a shortnose sturgeon that 
hadn't been seen in that river system in over 70 years, because 
nobody has gone out there to look for it. But yet it might be 
there, so we are not going to allow the power process to go 
forward.
    And so, Mr. Harris, do you still stand by that statement?
    Mr. Harris. Yes, Congressman, I do. And I agree with your 
statement that we should go out and collect more data using the 
fishing public to add to the data that we already have. We have 
a good stock assessment process in the South Atlantic, however. 
And I will stand by that stock assessment process. It is not 
great, but it is the best we have had in a long, long time. We 
have a data workshop, an assessment workshop, and then we have 
a panel of independent experts that come in and review the 
results of those workshops and determine whether those data 
should be used--whether the stock assessment should be used for 
management or not.
    And you heard me say in the case of Spanish mackerel, they 
rejected it. And so we don't have a current stock assessment 
for Spanish mackerel because the independent experts rejected 
the stock assessment. We have to have more stock assessments. 
We have to have more data. We have to use the fishermen to help 
us collect those data. We have to do it throughout the entire 
range of the fishery in all depths. And once we can do that, 
then I think we can feel a lot better about the stock 
assessments that we have today. But we do have a good process 
in the South Atlantic.
    Mr. Duncan. Thank you, Mr. Chairman. I yield back.
    Mr. Fleming. The gentleman yields back. Next up is Mr. 
Runyan. You have five minutes, sir.
    Mr. Runyan. Thank you, Mr. Chairman. Mr. Schwaab, for the 
best decade, the Atlantic monkfish industry has been extremely 
important in New Jersey and several other States on the East 
Coast, and is valued at over $380 million between 1995 and 
2004, according to your agency's figures. But despite the value 
of the fishery, the species is still considered data-poor. It 
has been a struggle to get your agency to spend a million and a 
half dollars every three years to conduct a monkfish-specific 
survey, yet you have spent $15 million in the past seven years 
on Atlantic sturgeon research, for which you have never 
generated a stock assessment. We are not considering the Hudson 
River one a true stock assessment, for which there is no 
sturgeon.
    We now face a situation where precautionary measures to 
protect sturgeon under the Endangered Species Act may harm the 
monkfish fishery and kill jobs and revenues in our coastal 
communities. Can you please justify the priorities and how to 
make sense for the scientific management and socioeconomic 
perspectives?
    Mr. Schwaab. Thank you, Mr. Runyan. While I can't verify as 
I sit here the numbers that you just described, I don't have 
any reason to doubt them either. We have responsibilities under 
fisheries management. We have responsibilities under Endangered 
Species Act implementation. We have very specific requirements 
under the Endangered Species Act to investigate species status, 
particularly in response to listing requests.
    In the case of sturgeon that you described, that is exactly 
the process that we are in right now, conducting a listing 
investigation in response to a status request, a listing 
request.
    Mr. Runyan. But what about the differential? You obviously 
have the monkfish that are a huge driver of the economy there, 
and you are putting a lot of money into something that isn't.
    Mr. Schwaab. Again, the ways in which funds are allocated, 
we obviously allocate science fisheries management and research 
money across a wide variety of fisheries, of stocks. In the 
same way, we allocate Endangered Species funding across a wide 
variety of stocks that have either been proposed for or are 
already deemed to be appropriately listed.
    You know, as to the apparent discrepancy that arises there, 
I can't really speak to them necessarily as an either/or 
situation there. They are responsibilities that we share and 
have to divide in the context of our statutory requirements.
    Mr. Runyan. But it almost seems like it is defying common 
sense to where there is a fishery there that has a huge 
revenue--your office has admitted that--and the data is not 
there to allow something like that to continue to allow the 
industry to thrive. That is part of the reason why we are here 
frustrated.
    I mean, and it also carries over into other things. You 
have instances where you have snapper and sea bass, where they 
are not necessarily being overfished, but they are being taken 
out too quickly. There is no flexibility within this. You are 
just going to shut it down and walk away from it, not all 
instances, but certain instances. And this is where--and I 
think Mr. Frank kind of commented on it in the first panel. I 
don't think we are taking a commonsense approach to this. We 
are just saying yes or no, and again we are doing it all with 
bad data.
    It is frustrating, and it is frustrating to me, let alone 
the fishermen I interact with all the time, that they just 
don't get it. I don't even think you can respond to it because 
it is frankly frustrating. And obviously, the data is not there 
to back any of this up either way. And I think that is the 
frustrating part because as I said in the first question, we 
have a lot of money committed to this with no results coming 
out of it.
    Mr. Schwaab. I would just comment, sir, that we are 
certainly not doing it all with bad data. There are significant 
good data in these decisions. Are there stocks where we would 
like to have more data? Absolutely. Are there places where 
having more data would allow us to reduce some of the 
uncertainty buffers? Absolutely. But there are also many 
circumstances where good data has contributed to ending 
overfishing to rebuilding fisheries, and to creating more 
sustainable opportunity for both commercial and recreational 
fisherman.
    Mr. Runyan. Thank you. My time has expired. I yield back.
    Mr. Fleming. The gentleman from New Jersey yields back. 
Next, the gentleman from Virginia, Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. I would like to thank 
the panel members for joining us. I am going to begin with Mr. 
Schwaab, and this is a simple yes or no answer. Is NMFS going 
to have completed stock assessments for all 528 of the stocks 
under Federal jurisdiction by the end of this year, and within 
six months, as required under the 2007 Magnuson amendments, 
before you put in place annual catch limits?
    Mr. Schwaab. No, sir.
    Mr. Wittman. OK. All right. How then are you going to deal 
with the 400 species that you don't have stock assessments for, 
but you have to put in place an annual catch limit?
    Mr. Schwaab. Through a variety of proxies that depend in 
some cases on catch histories, in other cases on other sources 
of data.
    Mr. Wittman. Let me ask this then. I want to talk about a 
specific stock. And it is my understanding that the South 
Atlantic Fisheries Management Council is going to drop 39 of 
the 73 species from their snapper/grouper fishery management 
unit, effectively removing them from Federal jurisdiction. Is 
removing fish species from any and all Federal management one 
of these alternative approaches? And is NOAA going to be forced 
to take these approaches because of the impending ACL deadline?
    Mr. Schwaab. So there is already, Mr. Wittman, a process 
for an ecosystem component species, which is one that is not 
generally retained in the fishing process, and those ecosystem 
component species can be retained within the auspices of a 
fishery management plan. As to taking species that might be 
generally retained, thereby not falling within that definition, 
and moving them outside of the management plan for the purposes 
of meeting the requirement, it is not something that we would 
favor.
    Mr. Wittman. OK. Are the Councils, though, being forced to 
remove these species outside of management plans because of 
these ACL time constraints?
    Mr. Schwaab. Not to my knowledge, sir. Some of the Council 
representatives might have a view to offer.
    Mr. Wittman. Mr. Harris?
    Mr. Harris. What we are doing is looking at all of the 
species in the snapper/grouper complex and determining how much 
of that catch occurs in State waters as opposed to Federal 
waters. And we have a variety of options that are on the table 
right now, and we will come to a conclusion at our August 
meeting with respect to those. But if you have a species, for 
example, that only 10,000 pounds are caught in Federal waters, 
does it make sense to go through this involved process of 
setting annual catch limits for that species?
    And that is what the Council is debating right now. And we 
haven't come to a conclusion yet, but we have several options, 
20,000 pounds, 50,000 pounds, 5,000 pounds. If so much of the 
catch comes from State waters, perhaps it is more appropriate 
for the State to manage those species rather than the Council.
    Mr. Wittman. OK. Thank you. Mr. Schwaab, I want to read 
back to you one of your comments. You said one of the greatest 
challenges is in the data-poor fisheries, where assessments are 
not yet possible. Here the National Marine Fisheries Service is 
working on alternative approaches that provide preliminary 
determination of catch levels that will prevent overfishing.
    Can you let us know, what are some of these alternative 
approaches that you are working on to address these data-poor 
stocks, and can you tell us a little bit about how you are able 
to impose scientifically legitimate catch limits without 
adequate assessments?
    Mr. Schwaab. Yes, sir, Mr. Wittman. One example would be in 
a case where you have a stock that has sustainably produced or 
consistently produced at a particular level over a period of 
time, and you have some fishery-dependent reported data that 
can in fact confirm that level of productivity over a period of 
time. You can make some assumptions then about the ability of 
that stock to continue to sustain that level of production and 
set catch limits accordingly going forward.
    Mr. Wittman. You talked about the need for resources to 
evaluate these stocks, and that that was a limiting factor. Are 
there alternative approaches that NMFS is considering that 
would be more cost effective, especially since we are talking 
about such a large number, in what you are talking about within 
a finite realm of resources?
    Mr. Schwaab. Yes, sir. We spoke to some already in, for 
example, different platforms, use of contract vessels, 
relationships with academic institutions and the like. There 
are also new technologies that we are exploring, both to 
increase or to reduce cost, but in some cases to increase 
accuracy around certain species like reef fish that might be 
less appropriately surveyed through some of the traditional 
fishery-independent survey methods that have been in use.
    So there are any number of things from alternative 
platforms to new technologies to new modeling approaches that 
might be appropriate to reduce costs and continue to provide 
the data we need.
    Mr. Wittman. OK. Thank you, Mr. Chairman. I yield back.
    Mr. Fleming. The gentleman yields back. And I know the 
gentleman from Florida has an itchy trigger finger, Mr. 
Southerland. So we will give him five minutes as well.
    Mr. Southerland. Thank you, Mr. Chairman, and I thank all 
of the individuals here today. Than you for your time and 
testifying today.
    Ms. Morris, I want to ask you a question. I am from Panama 
City, Florida, live on the Gulf. I want to ask you, you are 
obviously familiar with the Gulf. Do you feel the level of 
actual survey data provided to the Gulf Council is adequate for 
management purposes?
    Ms. Morris. For the well-studied species and the most 
highly valued species, I think the science is getting better 
all the time. I think it is sufficient, and so my answer would 
be yes. For the lesser known species, the species that aren't 
as highly valued, aren't as highly targeted, it would be great 
to have a lot more data. And we really do need more fishery-
independent data. We need more observer data. It would be 
lovely to have the kind of observer data that they have in the 
North Pacific for our fisheries in the Gulf of Mexico. It would 
be very good to have more resources for data.
    Mr. Southerland. Do you agree that if the level of data 
provided to the Council increased, the likelihood of higher 
harvest levels would also increase? Or do you think they would 
decrease?
    Ms. Morris. Well, you know, I think the logic of the MSA 
was that with better science we could fish closer to the 
highest sustainable levels. And I think that is true. I have 
heard some of the recreational fishermen and charter boat 
fishermen say that if we had real data on how much is being 
caught in the recreational fishery, it would be more than we 
are estimating is caught now. And that would present its own 
issues and problems.
    So sometimes more data will lead to new challenges, new 
management challenges, new policy decisions.
    Mr. Southerland. Let me ask you, you stated here today that 
you had too many fishermen and too few fish. You actually said 
that today, so that kind of stuck. So should we continue to 
decrease the season for red snapper as well as the catch 
limits, based on your stated comment that we have too many 
fishermen and too few fish?
    Ms. Morris. Just to clarify what I said is that when we 
have a fishery with lots of capable fishermen and too few fish 
for them all to catch their bag limits, we have a very 
difficult recreational fishery management situation.
    Mr. Southerland. OK.
    Ms. Morris. And so if we have--I am sorry. Go ahead.
    Mr. Southerland. But are we in that situation now with red 
snapper?
    Ms. Morris. Fortunately, the red snapper catches are 
increasing every year. As the stock begins to rebuild, it is 
very cruel and counterintuitive that we have to continue to 
have a short season because the average weight of each fish 
that is caught by the recreational fishermen is greater. And so 
when you count the pounds, we are allowing greater pounds of 
catch. But that is creating a shorter season, and that is one 
of the reasons that I think we really do need to think outside 
the box to get additional tools for managing recreational 
fisheries.
    Mr. Southerland. One of the things that--you know, we have 
obviously fishermen in Florida that are absolutely dying. They 
are losing everything they had. You alluded to the storms. You 
alluded to Deepwater Horizon. You alluded to a lot of things. 
And yet we are seeing evidence, great evidence, in these 
pictures that we are showing around--those are my three 
siblings, Tim, Suzanne, and Shane. Those are our children, the 
next generation. You know, we have been out four times this 
year, catch fish similar to that in about an hour and a half, 
back to the hill in time to mow the grass, wash the cars, 
actually put snapper on the grill.
    And so instead of listening to people that seem to want to 
shrink the seasons, and they want to blow smoke--and you 
haven't done that necessarily in your testifying today. But 
please believe me, there are plenty who blow smoke and want to 
convince us that there are no fish in the Gulf of Mexico and 
want to continue to put pressure, in spite of pictures like 
this--and this is a weekly occurrence in our family. It is also 
family time, if you haven't noticed that. And so it is so 
aggravating to hear people come and testify before Congress 
blowing smoke that are not based--they don't have good data. 
They don't have good science. And yet we find that NOAA can 
have these partnerships with private individuals to get better 
data, and yet oftentimes we see shrinking budgets in those 
areas by choice.
    And so, you know, I put this up there because I want people 
to know that we are catching big fish, OK? Now, if we are 
catching big fish, and the fisheries are healthy, regarding 
snapper in the Gulf and other species, then it is only right 
and just that the rules by which we oversee these fisheries 
would be loosened a little bit because we are in Florida at 
historic unemployment numbers. The economy is woeful. And yet I 
feel that the boot of government is continuing to press down on 
those that make their living fishing.
    And so to have fish like these, OK--and in your words, you 
said you had too few fish, OK? I think these pictures beg to 
differ with that statement. And again, I didn't know any other 
way to do this, Mr. Chairman, than to actually bring some real 
data, OK? And so the only thing that I hate is that I am not in 
those pictures. But I didn't want to show you the ones that I 
was in.
    But so, I mean, it is hard. And what I am trying to do is 
make an argument for every day citizen, OK, that is working 
hard all week to try to go offshore and fish, and the data that 
we see is that the fishery in red snapper is healthy. The 
numbers are large. The fish are healthy, and it just is 
aggravating. So I guess I didn't really ask you a whole lot of 
questions. You answered the questions I did ask you, and I am 
over my time. So, Mr. Chairman, I yield back. I would love 
these pictures to be entered into the record.
    Mr. Fleming. Yes.
    Mr. Southerland. This would thrill my family.
    Mr. Fleming. Without objection.
    [NOTE: The pictures have been retained in the Committee's 
official files.]
    Mr. Southerland. And if you would like us to, I would say, 
you know, I would love to bring some up because we can fry 
those up with some cheese grits, some hush puppies, and we will 
all enjoy.
    Mr. Fleming. Well, based on the size of the fish, from my 
observation, I would like to see the one that got away. That 
must have been really large.
    Mr. Southerland. They are big. They are large. Thank you.
    Mr. Fleming. All right. The gentleman yields. Next up is 
Mr. Landry.
    Mr. Landry. Well, thank you, Mr. Chairman. I just walked in 
here, and I will be brief. I too share my distinguished 
colleague from Florida's regret in that I am not in that 
picture as well. I will tell you that I also echo his concern 
in that I can remember when I was young going out and doing 
snapper fishing, and it was everything we could to try to get 
the bait below the trigger fish before--so we could get down to 
some snapper. And that is not the case anymore. The case is I 
think the snapper have eaten all the trigger fish because I can 
tell you that the guys that I am talking to who are fishing out 
there in the Gulf of Mexico this year, as a matter of fact--and 
I note that this is a year after Macondo are catching record-
sized fish. And they too are concerned that we are not being 
generous enough. After we have been restrictive, I think the 
question is how do we find a balance. It seems like we swing 
from one end all the way to the other. And I am concerned about 
the guys out there who make a living catching this fish. And I 
just want you all to use sound scientific data.
    And I can tell you that probably the best scientific data 
you can find is on the other end of a rod. So I would just like 
to echo his concerns as well and let you know that not only in 
Florida are they doing that, but in Louisiana they are having 
abundant catches. And I think that it is for two reasons. One, 
I think we have an abundance of snapper, and two, we have great 
structure. That structure comes in the form of oil and gas 
structure off the coast of Louisiana.
    So with that, Mr. Chairman, I will yield back.
    Mr. Fleming. OK. The gentleman from Louisiana yields back. 
We have completed the first round of questions, and the panel 
has indicated interest to ask a second round. And if you are 
open to it, we will be happy to launch into it. With that, I 
will yield to myself.
    Let's see. Mr. Cadrin, you indicated that you argue that 
the current level of scientific information is not available to 
meet the National Standard 1 guidelines. Do you believe it is 
statutory language or the agency's interpretation of that 
statute that is causing the problem?
    Dr. Cadrin. Well, as I noted in both my written and oral 
testimonies, the problem is twofold. There are some 
inadequacies of science for any fishery management system. But 
those inadequacies are exacerbated by the National Standard 
guidelines and the way that the annual catch limit and 
accountability measures system is being implemented.
    In some ways, we are taking the worst of fishery science 
and focusing on that. Most of our catch limits are based on 
short- to medium-term projections, and looking forward is 
always more difficult than looking back. In some ways, there 
would be alternatives that could take advantage of the 
strengths of fishery science. By shoehorning all of our stocks 
in fisheries into a catch limit and accountability system, it 
has disadvantages, and in some cases are wasteful.
    So the problem is twofold, with scientific inadequacies 
exacerbated by the way the Act is being implemented.
    Mr. Fleming. OK. And I apologize, Dr. Cadrin. Excuse me for 
calling you Mister. But I am not sure if I am clear on your 
answer because the specific question is do you believe that it 
is the statutory language or the agency's interpretation. It is 
kind of a yes or no or A versus B question.
    Dr. Cadrin. I would have to say it is the interpretation 
because if exceptions to the annual catch limit mandate were 
allowed, it would relieve many of these frustrations.
    Mr. Fleming. OK. Thank you. Another question for you. How 
do time requirements of NEPA hinder the SSCs from getting 
timely data or restrict timely management decisions?
    Dr. Cadrin. NEPA is one constraint to the timeliness of the 
system and the decision making. However, there are ways of 
working within that system to have default catch limits that 
can be modified by current scientific information so that the 
NEPA process goes forward with a default catch limit that gets 
modified with subsequent information.
    So I agree that is a major constraint, but one that can be 
dealt with in adaptive ways.
    Mr. Fleming. OK. All right. That completes my questioning, 
so I will yield back to the gentleman, Mr. Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman. Mr. Schwaab, 
how do investments in stock assessments translate into greater 
fishing opportunities, more economic benefits and reduced risk 
of overfishing?
    Mr. Schwaab. Thank you, Mr. Sablan. The most direct way is 
in reducing these precautionary buffers. So we have 
requirements to end overfishing, to rebuild stocks in the cases 
where rebuilding is required, and we have some responsibility 
to achieve those goals with reasonable certainty given the 
science available. So that leads to where there is less precise 
or accurate science greater uncertainty, therefore buffers that 
are essentially left uncaught. Increased science allows those 
buffers to shrink in size, thereby allowing the greater harvest 
potential closer to the maximum yield to be accomplished in 
that individual's fishery.
    There are also obviously issues relating to the ability to 
account for bycatch and other factors that change over time 
that have to be accounted for that allow us to manage with more 
science on a more higher level and more sustainable basis.
    Mr. Sablan. All right. And what is your agency's plan for 
integrating the technological innovations in fisheries 
monitoring and data collection?
    Mr. Schwaab. So we actually have a team that is looking 
specifically at some technological innovations and new 
applications. We dedicate a portion of our research funding 
each year to both direct in-house investigations of alternative 
techniques, as well as to provide some outside funding to 
support research institution endeavors in support of new 
technologies or new applications.
    Mr. Sablan. All right. Thank you. Ms. Morris, I have 
several questions for you, if I may. Some of the panelists have 
referred to data as stale. And do you agree with this 
characterization of data, or do you believe that this data can 
still inform the management process?
    Ms. Morris. Well, so stale is sort of a negative way to 
cast data.
    Mr. Sablan. Yeah. When you talk stale fish, it is not good.
    Ms. Morris. Yeah, right. So data is data. And historic data 
is really valuable for figuring out the trends in the fishery 
and the variability in the fishery. And so, you know, we do 
have annual catch data and landings for just about all of the 
species that we manage. And so I don't think it is really a 
matter of data being old because old data is valuable to 
establish those trends. I think we just want data that gives us 
more--different kind of data that gives us more insight into 
what is actually going on with the fish. And that is what is 
missing.
    So there have been recent examples in the Gulf of Mexico 
where data that was collected under previous protocols and then 
new data is collected under newer protocols. NOAA gives us 
guidance about how to go back and translate the old data in a 
way that it can be compared with the new data and create a 
history that makes sense.
    Mr. Sablan. And you were just talking about the Gulf of 
Mexico Council?
    Ms. Morris. Yes.
    Mr. Sablan. So we are also hearing how the lack of data is 
causing a decrease in annual catch fish in fisheries. But you 
stated--you just said that the Gulf Council allows current 
catches to continue in situations where data is limited. Can 
you explain this discrepancy?
    Ms. Morris. Well, so Eric was talking about some of the 
strategies that the science committees use when they have 
species without much data. So one of the ways that the Gulf SEC 
is planning to handle that is if they have only landings and a 
record of landing for a species, they are going to sort of take 
the average catch over time and set the catch limit at that 
level, which seems like a pretty reasonable thing to do. And 
then if there is some indication in the future that either 
landings are really going down dramatically or there is a lot 
more fish out there than there had been previously, those will 
be reevaluated and changed at that time.
    Mr. Sablan. I yield back my time, Mr. Chairman.
    Mr. Fleming. OK. The gentleman yields back. We have Mr. 
Duncan from South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman. And I thank the 
panelists for hanging over for a second round of questioning. 
Mr. Schwaab, first off, what type of surveys are done in the 
South Atlantic by NOAA, and how often are they done?
    Mr. Schwaab. So, Congressman, there are actually a number 
of historic surveys that did look at, for example, fishery-
dependent data. Some of the newer innovations include a 2011 
trap and video survey that actually just--it is currently 
underway. There is an annual--a new red snapper and shark 
bottom longline survey, which began this week in the South 
Atlantic from Cape Hatteras to Miami. Those are the two most 
notable that I would reference for you in the South Atlantic as 
it relates to red snapper.
    Mr. Duncan. Looking at the fishing survey vessel days at 
sea, I notice that the East Coast has the Delaware II and the 
Bigelow, is the only ones I see on the East Coast. Can you tell 
me where those two boats are harbored?
    Mr. Schwaab. In the Northeast. We also have the Pisces, 
which works in the South Atlantic as well, which is in 
Pascagoula.
    Mr. Duncan. And it comes around Florida and does the South 
Atlantic there?
    Mr. Schwaab. Yes, sir.
    Mr. Duncan. OK. So you have basically one boat in the 
southern region, a lot of square miles for that boat to cover. 
I watch the ``deadliest Catch.'' I know how those boats go out 
there and just----
    Mr. Schwaab. I could provide to you a more complete summary 
of vessels and their coverage over place and time.
    Mr. Duncan. Yeah. I would love that, to see.
    Mr. Schwaab. Thank you.
    Mr. Duncan. And I want to emphasize again the relationships 
that are necessary. And I am sure you guys are doing this, but 
the relationships with the fishing boat captains and the guys 
that are out there doing it every day--and I just want to end 
in the little bit of time I have left, as the Chairman of the 
Ag Committee, I remember talking with a gentleman from New York 
who was over at the Ag Committee in the New York Legislature. 
And he was also a farmer.
    In New York, the Department of Health and Environmental 
Control, whatever it is called there, instituted a ban on 
spraying herbicide, Roundup, within--at the original 
implementation of that reg, within 500 feet of a road. And he 
called the person that was over at that agency and said, meet 
me out at my farm. And so she came out there, and before she 
got there, he had one of his hands walk out 500 feet from the 
road and put a little flag, a little survey flag. And she got 
out of the car, and they walked. He said, we are going to walk 
out here to the flag. That is 500 feet from the road. And so 
they started walking, and she started looking over her shoulder 
at the road, and they kept walking, and she kept looking over 
her shoulder at the road. And she said, you know, what, I think 
500 feet is a little excessive, when it should have been 50 
feet or 30 feet, to protect the ditches and to keep that 
herbicide from getting in the drain.
    And so the moral of that story and what I have remembered 
is a lot of times the folks that are inputting the data in the 
SEDAR 15 or SEDAR 24, or whatever the next report is, need to 
realize that, you know, the real world is a little different 
than possibly the cubicle or the office here in Washington. And 
I think it is necessary for these guys to get out there to 
build those relationships, get out on the boats, go to the 
dock, wait on those fishing vessels to come in, talk to those 
anglers, talk to the association guys like Jeff Angers with 
CCC, and find out really the real-life impact of the 
regulations that are being created within the Beltway here and 
the real-life impact on the guys that are dependent upon the 
fishing, dependent upon the resource, and what the true data 
really is because it is obvious to anyone that looks at the 
SEDAR 15 or 24 that the changes there going back to the 1955, I 
believe it was, really is flawed.
    And so before you close fishing in the South Atlantic--and 
went out last summer and fished, and we caught a beaucoup of 
fish. I questioned the data then, and I question it today, and 
I ask that you guys take in the real-life implications of the 
policies made here. And I yield back.
    Mr. Fleming. Thank you. The gentleman yields back. And next 
up again is Mr. Runyan.
    Mr. Runyan. Thank you, Mr. Chairman. Mr. Schwaab, on May 
4th a joint hearing of the Natural Resources and the 
Agriculture Committees submitted a number of important 
questions relating to NMFS' biological opinions for ESA-listed 
salmon. Can you pledge to provide answers to those questions in 
the next two weeks?
    Mr. Schwaab. Yes, sir. I will be happy to check into the 
status of those, and if at all possible meet that timeline.
    Mr. Runyan. I appreciate that. And just kind of going 
into--I have been kind of talking finances again, and I kind of 
want to touch on that because it is obviously clear that you 
don't have sufficient tools or resources to implement the 
scientific requirements of the Act that we are here discussing. 
But yet can you kind of explain how NOAA kind of internally 
diverts millions of dollars, whether it is coastal marine 
planning, regional ocean partnerships, marine protected areas, 
and catch share programs, when the basic core science all this 
is based on is not there.
    Mr. Schwaab. Thank you, Congressman. I would first suggest 
that it is not something I would characterize as a diversion. 
It is something that I would characterize as an allocation to a 
variety of different responsibilities. As I spoke earlier of 
the challenges both in protected species work and in--and we 
have been talking all afternoon about the science, fisheries 
science challenges that we have. We have substantial management 
challenges that we share with the Councils.
    So initiatives like supporting catch shares that are 
developed and adopted by the Councils are every bit as much a 
part of our responsibilities as securing some of the basic 
science that is needed to make some of these decisions. And in 
fact, one might argue, I think effectively, that putting, for 
example, catch share programs in place, where they are adopted 
and implemented locally, can yield improved management 
conditions that will actually reduce costs over time to the 
agency from a management perspective.
    Similarly, working very closely with fishermen in the 
context of coastal and marine spatial planning to ensure that 
important habitats, important fishing grounds are identified 
and addressed in the context of other uses that are being put 
into place on coastal and ocean waters is every bit as 
important in many regards as some of these science challenges 
that we are talking about.
    So we have a number of different challenges, a number of 
ways in which we support fishermen and others that require us 
to allocate all too scarce resources, and we do the best we 
can.
    Mr. Runyan. Well, to your knowledge, though, is there any 
hierarchy, more weight there to any one than the other of where 
you are going to allocate those funds?
    Mr. Schwaab. I wouldn't describe it as a hierarchy or a 
weight per se. I mean, there are all sorts of judgments that 
are made in how to meet the best extent possible all of these 
responsibilities, and we do the best we can.
    Mr. Runyan. Thank you, Chairman. I yield back.
    Mr. Fleming. The gentleman yields back. Next is Mr. 
Southerland.
    Mr. Southerland. Thank you, Mr. Chair. I want to thank you 
for giving me an opportunity to wish that I was with my family 
today. But I wanted to just ask a simple question. We make a 
lot of statements, obviously. Many of us are very aggravated 
where we find ourselves regarding our fisheries. And so you 
have the challenge of hearing that aggravation. But, you know, 
we have to find solutions based on what the problem is.
    This town is not known for that oftentimes. We just create 
bigger problems. I mean, just quickly, OK, without me making a 
statement, regarding the data--OK, we have talked about 
partnerships. We have talked about what you can do with people 
that are in the profession. You know, I tell you, if you really 
want buy-in, then the people that these regulations affect have 
to be a part, OK? That is just a must. And that is not just 
good principles to building a family, I believe that that is a 
good principle to build a society. Let them have a part.
    So with the time I have left, I would ask Mr. Schwaab 
regarding that, just real quickly, what is some low-hanging 
fruit here that is ready to pick? Here is your moment. I teed 
it up.
    Mr. Schwaab. Thank you, Mr. Southerland. There are a number 
of things that we have talked about already with respect to 
data collection, and obviously any number of ways that we are 
already seeking to improve our collection from implementation 
of new surveys, some of which I have referenced in the South 
Atlantic, closer working relationships with academic 
institutions and with fishermen, which we are constantly trying 
to incorporate more effectively into the work that we do.
    I will give you one specific----
    Mr. Southerland. One really good one. If you were king for 
a day, and you said, I am going to take this idea and implement 
it, what would it be?
    Mr. Schwaab. Well, I was just going to give you one example 
that we have actually been pursuing very explicitly with 
recreational fishermen, primarily because of concerns in the 
Gulf and the South Atlantic, and that is, you know, how can we 
do a better job of managing discard mortality.
    So if you have species that are protected, you don't want 
to, for example, if you can avoid it, close down a large area 
to fishing for other species because of incidental bycatch of 
those protected species. And we actually worked very closely 
with the Atlantic States Marine Fisheries Commission and 
leaders from the recreational community and academic 
institutions around the country to conduct essentially a 
bycatch workshop and look at techniques that we can identify 
and employ to allow fishermen to catch fish and then put them 
back in a way that doesn't yield 40 percent mortality.
    Mr. Southerland. Got you. Great idea. I think run with 
that. Run with that, OK? That should be your mantra.
    Mr. Harris, I want to compliment you on your comment you 
made earlier about relying upon the States. What a novel idea. 
You would think that our Founding Fathers never thought of 
that. OK? The States know best. Government governs best when it 
governs closest to the people. For us to sit here in Washington 
and say that we know better than the 67 counties that make up 
the State of Florida is a bit arrogant.
    So I commend you on that statement that you made earlier. I 
think that in regarding, you know, the data, we can really rely 
much more heavy on the States. And so I kind of picked yours 
out for you, Mr. Harris.
    Ms. Morris, I mean, you have been in the Gulf, and so, I 
mean, obviously, you know our neck of the woods there. So you 
are king for the day. What would it be?
    Ms. Morris. Data collection, right?
    Mr. Southerland. Yes.
    Ms. Morris. Boy, if we could just really find a way for----
    Mr. Southerland. Without hurting people, by the way.
    Ms. Morris. Yeah, without hurting people.
    Mr. Southerland. That is kind of a caveat.
    Ms. Morris. If we could find a way for recreational 
fishermen to accurately report their catch by species, and also 
accurately report their discards, that would be wonderful.
    Mr. Southerland. That is a great idea, and I would be 
willing to bet if you made them feel like they were part of the 
solution, you would get buy-in, because I am also a hunter. And 
I fill my buck tags, I fill my doe tags, and I stay within the 
rules. You have the luxury of 18 seconds.
    Dr. Cadrin. Thank you. One idea would be to develop a 
partnership with the fishing stakeholders that was a two-way 
partnership in which fishermen were provided incentives to 
providing more accurate data, and in turn getting more real-
time fishery monitoring so that they could make fishery 
business decisions.
    Mr. Southerland. Excellent. And I would say you have people 
that enjoy fishing that want to preserve it. And I want to fish 
with my great grandchildren. You just saw my children. And so 
those are all great ideas. Thank you very much. Mr. Chair?
    Mr. Duncan. Can I be king for a day?
    Mr. Southerland. You can be king for a day next.
    Mr. Fleming. The gentleman yields back. We have Mr. Landry 
of Louisiana.
    Mr. Landry. Yes. Thank you, Mr. Chairman. Mr. Schwaab, I 
almost lost my bearing for a second as to exactly who was in 
front of me. I thought maybe you were coming into our third 
panel. So let me quickly try to catch up with this issue that 
is very important to us down in Louisiana. You know, concern 
has been raised that an increase in sea turtle strandings is a 
result of there being a significant increase in sea turtles. 
More turtles would likely increase the interaction between 
turtles and fishermen. Is this likely? Because we seem to have 
a--my concern, I guess is a better way to put it, is that I 
understand there are some environmental groups that want to sue 
you all in trying to get our commercial fishermen to add 
additional tag devices because of lately some significant 
turtle deaths.
    Mr. Schwaab. Thank you, Mr. Landry. This is something that 
we have been concerned about, increases in turtle strandings 
over the last couple of years. We have been working out of our 
regional office and through our enforcement personnel in the 
Southeast region very closely with the fishing industry to try 
to ensure maximum compliance with existing tag requirements. 
And at the same time, we have initiated a scoping process 
through a series of public meetings to talk about what if any 
additional steps might be appropriate to get a handle on turtle 
strandings.
    Mr. Landry. Well, I am confused because it is my 
understanding that turtle nesting sites have gone from 800 to 
over 20,000 in 8 years. So, you know, that means that there are 
more turtles in the Gulf rather than less turtles in the Gulf. 
And my concern is that I don't think we need, especially at 
this time, to be placing any additional restrictions or 
regulations on my poor commercial fishermen down there, when in 
light of the fact that we had the Deepwater Horizon spill. We 
don't know what the impact of that is yet. I have my own 
opinion. But the biggest impact right now is from importation 
of domestic demand actually.
    Well, let me ask this question. Do foreign shrimpers in 
other countries, do they put tags on their boats?
    Mr. Schwaab. Mr. Landry, we actually have a process, and we 
have recently employed it with Mexico, to ensure comparable 
conservation practices to those that are in place here 
domestically for shrimp that are imported here.
    Mr. Landry. Well, and that is my point. I want to make sure 
that my shrimpers down here get on a level playing field 
because, you know, long after, as we see, it doesn't take long 
for the cameras to leave the Gulf of Mexico, and people are 
putting my poor shrimpers out on TV and saying these guys are 
going to be just destroyed. And yet, you know what, before that 
spill, we had every shrimp boat from Grand Isle to Delcambre 
because we had run the price of diesel up to $5 a gallon.
    And so my point is that at a time when our shrimpers are 
struggling from a perception standpoint and shrimp imports are 
increasing, and we have shrimp in the Gulf of Mexico, we don't 
need to add additional regulations on them just because we got 
more turtles in the Gulf of Mexico.
    Mr. Schwaab. So as it relates to your comment about a level 
playing field, I couldn't agree more. We certainly want to make 
sure that our domestic fishermen are on a level playing field 
with those who are importing product here. Obviously, with 
respect to turtle conservation, there is a responsibility that 
we carry there. We do our utmost to work very closely with the 
commercial fishing industry to strike the right balance.
    Mr. Landry. Well, have you all done an accurate--or when is 
the last time you did I guess a survey of turtles in the Gulf 
of Mexico before you reached this conclusion that maybe you 
need to do more enforcement? When is the last time we had an 
accurate I guess survey which told us how our turtle population 
is faring?
    Mr. Schwaab. So we do annual nesting surveys to take 
counts. Those are imperfect because there is a lag time, 
obviously.
    Mr. Landry. Right.
    Mr. Schwaab. The Fish and Wildlife Service and our agency 
completed a five-year review for Kemp's Ridley turtles in 2007 
as a part of a listing review. That would have been the most 
recent sort of comprehensive----
    Mr. Landry. And what did that show? You know, where were we 
from five years ago to today from an increasing turtle 
population?
    Mr. Schwaab. It simply affirmed the listing status that was 
in place at that time, which was endangered.
    Mr. Landry. Well, wait a minute. It was endangered at 800 
sightings, I guess is what you--I mean, turtle nesting sites. 
And now we have 20,000. How many do we got to have before it 
gets off the endangered species list? I mean, I don't know? 
When we got 100,000 nesting sites along the Gulf of Mexico? I 
mean, where is there a happy medium in this?
    Mr. Schwaab. So I don't have in front of me the nesting 
trends leading up to that 2007 review point. We did have that 
high year in--at least recent high in 2009, with over 22,000 
nests identified, although levels in 2010 and 2011 have been 
below that 2009 level.
    Mr. Landry. By how much?
    Mr. Schwaab. I don't have that information.
    Mr. Landry. Well, how can you say that if you don't know 
it?
    Mr. Schwaab. I can say that it was below the 2009.
    Mr. Landry. But, I mean, like 19,000 is below 20,000. I 
mean, there is a big difference.
    Mr. Schwaab. Yeah. I would be happy to provide you with 
some more----
    Mr. Landry. Please. I would like to see it.
    Mr. Schwaab.--explicit numbers. But I do not have them with 
me.
    Mr. Landry. OK. Thank you.
    Mr. Fleming. The gentleman yields back. And that completes 
our second round of questioning. I want to thank the panel of 
witnesses for your great effort today, and thank you for your 
patience as we held you for a second round. So thank you. You 
can be excused, and we would ask the third panel to step 
forward.
    [Pause]
    Mr. Fleming. Well, thank you, panel, for coming to be with 
us today. I can't see everyone's name tags, but they are a 
little bit different than my list here, so I will try to be 
sure and keep everyone in their proper order.
    First among our panel, we have Mr. Harlon H. Pearce, Jr., 
LA Fish, member of the Gulf of Mexico--is that LA or Louisiana? 
Louisiana, that is right. We just chatted, OK. Louisiana Fish, 
member of the Gulf of Mexico Fishery Management Council and 
Chair of the Council's Data Collection Committee; Mr. Jefferson 
Angers, President, Center for Coastal Conservation; Mr. Gregory 
DiDomenico, Executive Director, Garden State Seafood 
Association; Mr. David Nelson, a charter captain and commercial 
fisherman, Port Orange, Florida; and then on to Mr. John 
Gauvin, Fishery Science Projects Director, Alaska Seafood 
Cooperative; and then Mr. George Geiger, a recreational 
fisherman, Sebastian, Florida.
    Like all witnesses, your written testimony will appear in 
full in the hearing record, so I ask that you keep your oral 
statements to five minutes, as outlined in our invitation 
letter to you and under Committee Rule 4(a). Our microphones 
are not automatic, so please press the button when you are 
ready to begin. You have probably had a chance to observe how 
our timing lights work. Very simply, it is a green light for 
the first four minutes, then a minute of yellow light. And when 
it turns red, you need to wrap up your testimony.
    Mr. Pearce, you are now recognized for five minutes, sir.

STATEMENT OF HARLON PEARCE, JR., OWNER, HARLON'S LA FISH, LLC, 
  MEMBER OF THE GULF OF MEXICO FISHERY MANAGEMENT COUNCIL AND 
        CHAIR OF THE COUNCIL'S DATA COLLECTION COMMITTEE

    Mr. Pearce. Thank you, Chairman Fleming, Ranking Member 
Sablan, and Members of the Committee. My name is Harlon Pearce, 
and I am pleased to have this opportunity to testify before you 
today on several factors currently impacting seafood jobs in my 
home state of Louisiana.
    I am the owner of Harlon's Louisiana Fish, a seafood 
wholesaler based in Kenner, Louisiana. I serve as the chairman 
of the Louisiana Seafood Promotion and Marketing Board. And 
since 2006, I have been a member of the Gulf of Mexico Fishery 
Management Council. In every one of these forums, I have always 
advocated for developing a strong and sustainable commercial 
fishing industry that properly utilizes the Gulf of Mexico's 
abundant natural resources while also ensuring the longevity of 
our strong fishing tradition. Louisiana produces one-third of 
the domestic seafood produced in this country. We are number 
one in shrimp. We are number one in oysters. We are number one 
in crawfish. We are number one in alligator, and number two in 
crab, number two in fin fish, which means $2.4 billion to the 
economy of Louisiana yearly.
    One in 70 jobs in Louisiana is related to the seafood 
industry, and the Gulf of Mexico seafood community contributes 
to the employment of over 885,000 people across the country. 
And with national unemployment hovering near double digits, 
strengthening this economic powerhouse should be a top 
priority.
    As chairman of the Gulf Council's Data Collection 
Committee, I am supportive of requirements that the Regional 
Fishery Management Councils place an increased emphasis on data 
and science when determining catch limits to prevent 
overfishing. At the Gulf Council, we have instituted the use of 
annual catch limits based on recommendations from our science 
and statistical committee to prevent overfishing for several 
species. If the ACL is met or exceeded, accountability measures 
such as seasonal closures or quota closures are triggered.
    While this management concept is preferable in theory, in 
reality NOAA's lack of timely and thorough fishery data means 
our ability to enact fair catch limits is severely restricted. 
While I support NOAA and the Regional Fishery Management 
Council's ability to institute catch shares programs as a 
management tool, I firmly believe that available data must be 
improved prior to moving forward with these decisions.
    The Gulf of Mexico is a national treasure that belongs to 
every citizen, and we all have the right to utilize this 
resource. The inability of fishery managers to access needed 
scientific data and their continued reliance on best available 
science is doing the owners of our fishery a great disservice. 
When we rely on outdated science that does not reflect the 
health of certain rebounding stocks, a precautionary approach 
may be to set unnecessarily low catch limits that shortchange 
fishermen and consumers.
    In the Gulf of Mexico, only 10 of 12 of our stocks are 
considered data adequate. Seventy to eighty species of our 
stocks are considered data inadequate. We lack current data on 
Goliath grouper, red drum, cobia, 4 grouper species, and 11 
snapper species. Certain Gulf fisheries have been closed for 
over 20 years because there is insufficient data to conduct 
stock assessments.
    The use of closures as a management tool because of 
insufficient data is simply unacceptable. All fisheries 
closures should be accompanied by a rebuilding plan in order to 
preserve sustainability of the stocks, as well as 
sustainability of American workers.
    I have been called selfish at times because I want to get 
stock assessments for these fisheries, and I guess I am 
selfish. I am selfish for all your constituents that have 
ownership of that fishery that want to eat Gulf seafood at 
their table or eat at their favorite restaurant. I am selfish 
for all your constituents that want to come to the great Gulf 
of Mexico and fish on one of our great charter boats and catch 
the fish that they own. I am selfish for that private 
recreational fisherman that deserves access to his fishery in 
the Gulf of Mexico for the fishery that he owns. So I am 
selfish. I want our fishermen in the State to survive in a 
stronger way than they are today.
    Another concern is the five-year lag time between data 
collection and final implementation of fishery management 
plans. Currently, Gulf Council science is using data collected 
in 2009 to conduct a 2011 stock assessments, which cannot be 
incorporated into final management plans until after 
consideration by the full council in a lengthy public period 
process, which will likely take until 2014 with 2009 data.
    This five-year delay in translating the fisheries data into 
public policy is a serious concern. Yet we may be able to 
overcome this challenge with more cooperative research programs 
using fishermen that involve all fishing sectors. One key to 
the solution may be electronic recreational data collection 
programs. Development of a data collection program that 
provides recreational anglers with electronic reporting tools 
will fill in data collection gaps with real-time information 
and help resource managers to better understand all sectors of 
our fishery.
    During our upcoming Gulf Council meeting in August, I will 
begin formulation of a new recreational data collection 
advisory panel to better understand the specifics of this 
process. At this time, I am in full support of recreational 
data collection becoming part of our management solution as 
long as it is electronic.
    Another way to ensure annual catch limits are established 
using the most current data maybe to grant NOAA and other 
departments more time in order to fulfill their data collection 
duties. I understand that Congressman Wittman has introduced 
legislation, the Fishery Science Improvement Act, which 
provides flexibility in the timelines required to establish 
annual catch limits in cases where there is inadequate data.
    This measure may provide managers with much needed relief 
from the arbitrary December 31st, 2011, deadline for 
establishing catch limits where no scientific information 
exists on the health of the stock. In an effort to examine 
every possible solution to this problem, I would encourage the 
Committee to give this Fishery Science Improvement Act your 
full consideration.
    Also, Senate Bill 1400 by Landrieu and Nelson allocating 80 
percent of the penalty phase of the BP under the Water 
Management Act would give 5 percent of that money to the Gulf 
for research, sadly needed research. So I ask you to please 
support that bill so that we can get the money down to the Gulf 
Council.
    The Administration budget priorities may also be hindering 
U.S. fishery reduction numbers and jobs. In light of recent 
budget shortfalls, NOAA may be shifting funding away from stock 
assessments in order to fund other priorities, including 
expedited initiation of catch share programs. Of course, I 
would strongly encourage this Committee to take every action 
possible to ensure the solvency of NOAA assessment programs.
    And I agree with Representative Landry when it comes to the 
turtles. We have a problem with turtles, and we need to know 
what is out there with our turtles. And I am sure he will ask 
me some questions before this is over.
    All of the concerns I have described today are forcing U.S. 
fishery production into a downward spiral. In my written 
testimony, I have included two charts provided by the National 
Marine Fisheries Service that are outline employment in both 
recreational and commercial fisheries across the Gulf of Mexico 
from 2006 to 2009. While the charts do not establish a 
causality, it is plain to see a dramatic decline in fishery 
jobs that should give us all cause for concern. A renewed 
emphasis on fishery data collection combined with a commitment 
to rebuilding Gulf Coast fisheries impacted by the Deepwater 
Horizon spill should go a long way toward reversing these 
troubling trends.
    If we can Twitter and Facebook, we should be able to get 
electronic data into our fisheries, and get real-time data that 
we can really do a great job with at the Gulf Council. Thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Pearce follows:]

   Statement of Harlon Pearce, Owner, Harlon's LA Fish LLC, Kenner, 
 Louisiana, Representing the Louisiana Seafood Promotion and Marketing 
       Board and the Gulf of Mexico Fisheries Management Council

    Chairman Fleming, Ranking Member Sablan and Members of the 
Committee, my name is Harlon Pearce and I am pleased to have this 
opportunity to testify before you today on several factors currently 
impacting seafood jobs in my home state of Louisiana. In order to give 
you the most accurate perspective on this issue, I will be wearing my 
seafood wholesaler hat today, although my forty year career in 
Louisiana's fisheries goes beyond that. I am the owner of Harlon's LA 
Fish, a seafood wholesaler based in Kenner, Louisiana; I serve as the 
Chairman of the Louisiana Seafood Promotion and Marketing Board; and 
since 2006, I have been a member of the Gulf of Mexico Fisheries 
Management Council. In every one of these forums, I have always 
advocated for developing a strong and sustainable commercial fishing 
industry that properly utilizes the Gulf of Mexico's abundant natural 
resources while also ensuring the longevity of our strong fishing 
tradition.
    The state of Louisiana ranks as one of the United States' top 
seafood producers. Nearly one third of all domestic seafood consumed in 
the contiguous U.S. comes fresh from our waters. In addition to being 
the number one oyster producing state, Louisiana harvests more than 90% 
of our crawfish, 69% of our nation's shrimp, and more hard and soft 
shell crab meat than any other state in the country. As such, 
Louisiana's economy is highly dependent on a strong seafood supply 
chain. Nearly one in seventy jobs in Louisiana is seafood-related with 
a total economic impact of $2.4 billion annually. Many of these jobs 
are in family-owned and operated companies that have been in business 
for generations. Nationally, a NOAA Economic Impact Study determined 
that the Gulf of Mexico seafood community contributes to the employment 
of over 885,000 people across the country. With national unemployment 
hovering near double digits, strengthening this economic powerhouse 
should be a top priority
    Despite our vigorous production numbers, the Louisiana seafood 
community has faced its share of challenges in recent years, most 
notably with the horrific hurricane season of 2005, the Deepwater 
Horizon spill last April, and most recently the flooding of the 
Mississippi River which may have serious impacts on our oyster and crab 
fisheries. There are also several regulatory obstacles facing our 
community including a shortage of accurate fisheries stock assessments 
and a lack of updated fishery data which lead to uninformed and often 
overly-restrictive management protocols.
    At this point, a primary challenge to maintaining seafood jobs is 
the misperception that seafood from the Gulf of Mexico is tainted with 
toxins from the Deepwater Horizon oil spill. In a poll conducted by 
Louisiana State University on April 11, 2011, 69% of consumers express 
concern that seafood from the Gulf of Mexico might be tainted from the 
spill--a concern that is completely unfounded yet continues to plague 
our local economy. In fact, in October, 2010, the Food and Drug 
Administration (FDA), the Environmental Protection Agency (EPA) and 
NOAA announced that every seafood sample taken from the Gulf tested 
100-1000 times lower than the safety thresholds established by the FDA 
for oil residues and that ``American consumers can feel confident in 
the quality and safety of Gulf seafood.'' Sadly, the American public is 
not getting the message.
    In a misguided attempt to respond to these unfounded consumer 
concerns, several retailers and restaurants across the country have 
sworn off Gulf seafood entirely with some displaying signs telling 
their customers that they would not serve seafood from the Gulf of 
Mexico. On the supply side, as a result of precautionary closures of 
fishing waters during the spill, Louisiana seafood businesses lost 
continuity of supply and, in turn, lost our seat at the table with 
buyers. As a result of these combined obstacles, my business is down 
25-35% and will take at least three to five years to fully recover.
    In order to address lagging consumer perceptions of Gulf seafood, 
the five Gulf states have recently come together in an unprecedented 
fashion to form the Gulf Seafood Marketing Coalition. This Coalition 
was formed with a mission of working together to rebuild and enhance 
the image of Gulf seafood much like the beef, pork and milk industries 
have famously done in the past. The Coalition is currently undertaking 
extensive market research to help clarify exactly why consumers are 
shying away from our products and what it will take to bring them back. 
While this short-term work is imperative, restoring our brand 
internationally will take years and ensuring a steady stream of funding 
for this effort may prove difficult.
    Fortunately, Congress has an opportunity to assist in the Gulf 
seafood marketing effort by passing legislation that will dedicate at 
least 80% of BP penalties paid under the Clean Water Act (CWA) to the 
Gulf states to restore the ecosystems and economies damaged during the 
spill. Specific to seafood marketing, S. 1400, the RESTORE Act, lists 
``Programs to promote the consumption of seafood produced from the Gulf 
Coast'' among the authorized expenditures. This seafood marketing set-
aside from BP's penalties would cost the taxpayers nothing yet would 
fund critical consumer research and messaging programs to help restore 
confidence in Gulf seafood. I am certain that if Congress approves this 
legislation with the seafood marketing component intact, our five-state 
Gulf Seafood Marketing Coalition effort will prove to be a key part of 
the solution for strengthening the Gulf of Mexico seafood community 
well into the future.
    I would like to spend the remainder of my time outlining a few key 
areas of our federal fisheries management regime that may have an 
equivalent impact on seafood businesses in Louisiana and across the 
Gulf coast.
    As Chairman of the Gulf Council's Data Collection Committee, I am 
supportive of requirements that the Regional Fishery Management 
Councils place an increased emphasis on data and science when 
determining catch limits to prevent overfishing. At the Gulf Council, 
we have instituted the use of Annual Catch Limits (ACLs) based on 
recommendations from our Science and Statistical Committee (SSC) to 
prevent overfishing for several species. If the ACL is met or exceeded, 
accountability measures such as seasonal closures or quota closures are 
triggered. While this management concept is preferable in theory, in 
reality, NOAA's a lack of timely and thorough fishery data means our 
ability to enact fair catch limits is severely restricted. While I 
support NOAA and the Regional Fishery Management Councils' ability to 
institute catch share programs as a management tool, I firmly believe 
that available data must be improved prior to moving forward with these 
decisions.
    The Gulf of Mexico is a national treasure that belongs to every 
American citizen and we all have the right to utilize to this resource. 
The inability of fishery managers to access needed scientific data and 
their continued reliance on ``best available science'' is doing the 
owners of our fishery a great disservice. When we rely on outdated 
science that does not reflect the health of certain rebounding stocks, 
the ``precautionary approach'' may be to set unnecessarily low catch 
limits that short change fisherman and consumers. In the Gulf of 
Mexico, we only have adequate data on approximately 12 out of 80 
species. We lack current data on goliath grouper, red drum, cobia, 4 
grouper species, and 11 snapper species. Certain Gulf fisheries have 
been closed for over 20 years because there is insufficient data to 
conduct stock assessments. The use of closures as a management tool 
because of insufficient data is simply unacceptable. All fishery 
closures should be accompanied by a rebuilding plan in order to 
preserve sustainability of the stocks as well as the sustainability of 
American workers.
    Another concern is the 5-year lag time between data collection and 
final implementation of fishery management plans. Currently, Gulf 
Council scientists are using data collected in 2009 to conduct their 
2011 stock assessments which cannot be incorporated into final 
management plans until after consideration by the full Council and a 
lengthy public comment period--a process which will likely take until 
2014.
    This 5-year delay in translating fisheries data into public policy 
is a serious concern, yet we may be able to overcome this challenge 
with more cooperative research programs that involve all fishing 
sectors. One key to the solution may be electronic recreational data 
collection programs. The development of a data collection program that 
provides recreational anglers with electronic reporting tools will fill 
in data-collection gaps with real-time information and help resource 
managers to better understand all sectors of our fishery. During our 
upcoming Gulf Council meeting in August, I will begin formulation of a 
new Recreational Data Collection Advisory Panel to better understand 
the specifics of this process. At this time, I am in full support of 
recreational data collection becoming part of our management solution 
as long as it is electronic.
    Another way to ensure annual catch limits are established using the 
most current data may be to grant NOAA and their partners more time in 
order to fulfill their data collection duties. I understand that 
Congressman Wittman has introduced legislation, the Fishery Science 
Improvement Act, which provides flexibility in the timelines required 
to establish annual catch limits in cases where there is inadequate 
data. This measure may provide fishery managers with much needed relief 
from the arbitrary December 31st, 2011 deadline for establishing catch 
limits where no scientific information exists on the health of the 
stock. In an effort to examine every possible solution to this problem, 
I would encourage the Committee to give the Fishery Science Improvement 
Act your full consideration.
    The Administration's budget priorities may also be hindering U.S. 
fishery production numbers and jobs. In light of recent budget 
shortfalls, NOAA may be shifting funding away from stock assessments in 
order to fund other priorities, including expedited initiation of catch 
share programs. Of course, I would strongly encourage this Committee to 
take every action possible to ensure the solvency of NOAA's stock 
assessment programs.
    Another challenge facing Louisiana's seafood community is the 
current debate over the usage of Turtle Excluder Devices (TEDs). As you 
may know, NOAA is considering new guidance governing the use of TEDs in 
the Gulf of Mexico shrimp fishery. This regulatory action is intended 
to address a recent uptick in sea turtle strandings which occurred in 
2010 and the first half of 2011. While it is imperative that we protect 
sea turtles, there is currently no definitive link between the turtle 
strandings and the shrimp industry. In fact, the greatest number of 
strandings occurred at a time when a vast section of the Gulf of Mexico 
shrimp fishery was shut down in response to the Deepwater Horizon 
spill.
    In order to fully understand the dynamics leading to sea turtle 
strandings this year, this Committee should urge NOAA to make sea 
turtle stock assessments a top priority. NOAA is currently basing 
management decisions on outdated data for many fisheries and sea 
turtles are no exception. As a result of the Endangered Species Act 
listing and cooperation from the Gulf of Mexico shrimping community, it 
has been reported that the numbers of sea turtle nesting grounds along 
the coast of Mexico have exploded from 800 turtles in 2003 to over 
20,000 nests in 2011. This exponential population increase should be 
taken into account when determining the cause of recent strandings and 
whether or not additional TEDs requirements are necessary.
    As far as what the industry can do, a combination of sea turtle 
education and enforcement of current TEDs regulations will ensure this 
rebounding species continues to thrive. The State of Louisiana is 
slated to launch a new sea turtle outreach program designed to educate 
shrimpers about sea turtles and raise awareness about the appropriate 
usage of TEDs. Congress should work alongside NOAA to engage the 
broader shrimp industry in similar efforts to improve understanding and 
compliance. By partnering federal regulators with industry, we can work 
together to protect the health of our sea turtle populations and 
maintain jobs for American fishermen.
    All of the concerns I have described today are forcing U.S. fishery 
production into a downward spiral. In my written testimony, I have 
included two charts provided by the National Marine Fisheries Service 
that outline employment in both recreational and commercial fisheries 
across the Gulf of Mexico from 2006--2009. (See attachment) While the 
charts do not establish causality, it is plain to see a dramatic 
decline in fisheries jobs that should give us all cause for concern. A 
renewed emphasis on fisheries data collection combined with a 
commitment to rebuilding Gulf Coast fisheries impacted by the Deepwater 
Horizon spill should go a long way towards reversing these troubling 
trends.
    Again, I appreciate the opportunity to present these issues to the 
Committee for consideration and I look forward to answering any 
questions you may have.

[GRAPHIC] [TIFF OMITTED] T7648.002

[GRAPHIC] [TIFF OMITTED] T7648.003

                                 .eps__
                                 
    Mr. Fleming. Yes. Thank you, Mr. Pearce. Next, Mr. Angers.

           STATEMENT OF JEFFERSON ANGERS, PRESIDENT, 
                CENTER FOR COASTAL CONSERVATION

    Mr. Angers. Mr. Chairman and Members, I am Jeff Angers. I 
am the President of the Center for Coastal Conservation. I am a 
native Louisianian and a recreational fisherman.
    My testimony today is presented on behalf of my 
organization, the American Sport Fishing Association, the 
Billfish Foundation, Coastal Conservation Association, the 
International Game Fish Association, the National Marine 
Manufacturers Association, and the Congressional Sportsmen's 
Foundation.
    The question we face today has its answers in the famous 
admonition from former Defense Secretary Donald Rumsfeld in 
December of '04, quote, ``You go to war with the army you have, 
not the army you might want or wish to have at a later time.'' 
NOAA Fisheries should manage America's saltwater fish to the 
science they have in hand rather than the science they wish 
they had.
    But the Federal Government is today making major precedent-
setting fishery management decisions based on the science that 
it wished it had. Magnuson requires ACLs on all stocks by an 
arbitrary deadline of the end of this year. The agency and the 
Councils are moving to implement these hard limits by the 
deadline. Now, with 528 stocks of fish or complexes of stocks 
of fish under Federal management, but only 114 of those, quote, 
``adequately assessed,'' closed quote, how is the agency 
arriving at hard limits on the 80 percent of the stocks that 
are not adequately assessed? They are guessing. We heard 
reference to proxies. We heard references to biology. They are 
guessing.
    Terrestrial and freshwater wildlife resource management 
agencies would not think of operating without standardized 
stock assessments. Yet for our marine fishery resources, 
proponents of the status quo say that readily available 
information such as biology--let's just take biology--is 
adequate to replace a standardized, peer-reviewed, scientific 
stock assessment as the foundation of management, even when the 
decisions based on it will have dramatic economic and social 
consequences. A hodgepodge of information that perhaps may add 
up to an informed guess will always fall short of the standards 
we as a nation have used for managing our fish and wildlife 
resources.
    We should today reject the notion that a SWAG, a scientific 
wild guess, is good enough to be the foundation of management 
for the hundreds of marine stocks that have either never had an 
assessment or have been deemed inadequately assessed by NOAA 
Fisheries and for which there is no evidence that the stock is 
being overfished.
    Last year, NOAA Fisheries generated national estimates of 
effort and participation was 2006, 2006. But those numbers from 
five years ago indicate a few interesting facts. 24.7 million 
saltwater anglers taking four trips a year, 100 million 
recreational fishing trips a year. This great American 
business, marine recreational fishing generating $92 billion in 
total sales, employing 534,000 American citizens, contributing 
$622 million in license purchases, paying $650 million in 
excise taxes to be apportioned back to the States for fishery 
management and conservation purposes. How is the uncertainty of 
a SWAG, a management guess, affecting us?
    In a word, I will say gravely. All of us here can agree, 
fishing is good. Catching, cleaning, and eating fish with your 
family and friends is a good, healthy, all-American past-time. 
So fishing is good. I think we can all agree too that 
overfishing is bad. No one wants to have overfished stocks. 
Recreational fishermen respect, support, and propose many of 
the classic fishery management tools that ensure healthy 
fisheries. Those classic tools include seasons and quotas, time 
and area closures, size limits, krill limits. These tools work, 
and they will still be in place even without an arbitrary 
SWAG'ed ACL.
    We want America's oceans to be teeming with fish because 
for recreational fishermen and the inefficiencies of a single 
hook in the Lord's vast ocean, we need a lot of fish to be out 
there. So any attempt to end overfishing is generally appealing 
to a recreational fisherman. But the ramifications of the ACL 
provisions amending Magnuson in '06 were not truly appreciated 
at the time. It has become painfully apparent that NOAA 
Fisheries does not have the data to properly manage fisheries 
to the requirements of those provisions.
    Sadly, the terrestrial model of fish and game management 
that has been applied so successfully to ducks, to geese, 
turkey, bass, trout, elk, deer, everything, is not to be found 
in the Nation's oceans. Mr. Wittman and several of you filed 
the Fishery Science Improvement Act, H.R. 2304 last month to 
ensure that the Federal Government was not making fishery 
management decisions based on science it wished it had. The Act 
allows the agency to use sound science to inform its decision-
making, and it lifts the requirement to implement ACLs on 
stocks for which there is inadequate data and no evidence of 
overfishing.
    Let's not abandon classic fishery management tools for one-
size-fits-all ACLs when we do not have the science to set those 
ACLs. Let's give improved science a chance to work for 
conservation. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Angers follows:]

     Statement of Jefferson Angers, President, Center for Coastal 
 Conservation, on behalf of Center for Coastal Conservation; American 
      Sportfishing Association; Coastal Conservation Association; 
     Congressional Sportsmen's Foundation; International Game Fish 
    Association; National Marine Manufacturers Association; and The 
                          Billfish Foundation

    Good afternoon Mr. Chairman. My name is Jeff Angers, and I am the 
president of the Center for Coastal Conservation. I am native 
Louisianian and a recreational fisherman interested in science driving 
sound decision-making at the National Oceanic and Atmospheric 
Administration. I would like to thank you for this opportunity to speak 
to the Subcommittee as it addresses NOAA Fisheries Science: Is the Lack 
of Basic Science Costing Jobs?
    The Center for Coastal Conservation is a coalition of America's 
leading advocates for marine recreational fishing and boating. We are 
dedicated to promoting sound conservation and use of America's marine 
resources. Our organization includes the American Sportfishing 
Association, Coastal Conservation Association, International Game Fish 
Association, National Marine Manufacturers Association, The Billfish 
Foundation, as well as other institutions and individuals across the 
country. I offer testimony today on behalf of our members and the 
Congressional Sportsmen's Foundation.
    In order to properly answer the question that has brought us here 
today, ``Is NOAA Fisheries' lack of basic science costing jobs?,'' it 
first necessary to describe the economics of marine recreational 
fishing in America.
    In 2006--the last year the National Marine Fisheries Service 
generated national estimates of effort and participation--24.7 million 
saltwater anglers took nearly 100 million recreational fishing trips 
(97.7 million)--almost four trips per saltwater angler each year. The 
fact that national estimates of effort and participation have not been 
generated since 2006 speaks directly to the problem. Anglers tend to 
get the short end of the stick when it comes to the basic science that 
NOAA Fisheries and the Regional Fishery Management Councils are 
required to conduct when managing recreational fishing. (The best data 
in the country is in Alaska and the Pacific Northwest.)
    While the 2006 effort and participation numbers are impressive, 
even more impressive are their contribution to the economic 
sustainability of our coastal communities. In 2006, the last time 
economic data was collected from recreational fishermen nationally, 
saltwater recreational anglers generated $92.2 billion in total sales 
(in 2011 dollars). Of that total, anglers generated $15.2 billion in 
total sales from trip expenditures that included food, lodging, fuel, 
bait and charter fees, among other expenses. Trip expenditures are 
dominated by the cost of fuel used in personal vehicles to travel to 
and from the fishing site or marina followed closely by the purchase of 
food and beverages. Additionally, those same anglers generated $76.9 
billion from expenditures on durable goods that include tackle, gear, 
boats, houses and vehicles used for saltwater fishing. This category of 
spending is dominated by boat and vehicle purchases with boat purchases 
generating $6.8 billion in economic impact and vehicle purchases 
generating $5.3 billion in economic impact. The boat building business 
is almost an exclusive U.S.-based industry. Both trip and durable goods 
expenditures support 533,813 jobs across the U.S. In terms of economic 
impact, Florida has the highest numbers at $14.2 billion in total sales 
supporting 130,900 jobs followed in order by Texas, California, 
Louisiana and North Carolina.
    Actually, these recreational durable goods expenditures and impacts 
would be higher, but the Marine Recreational Fisheries Statistical 
Survey (MRFSS) and its successor survey, the Marine Recreational 
Information Program (MRIP) are unable to determine if a non-resident 
participant in one state is a participant from another coastal state or 
an inland state. As a result, the agency was forced to remove all non-
resident durable goods purchases from their estimates. While this lack 
of science isn't costing jobs directly, it means that any NOAA 
Fisheries or Council analysis of policy impacts fails to account for 
non-resident durable goods purchases. Non-residents are a huge part of 
saltwater angler participation. The largest segment of the marine 
recreational fishery is ``trailer-able'' boats. From the 2006 data, 
non-residents represent over 37% of all participants. The amount not 
being included by the agency is potentially huge.
    In addition to expenditures on trip costs and fishing equipment, 
anglers contribute a considerable amount to direct fisheries management 
at the state level. Across all states, recreational anglers contribute 
$621.5 million in license purchases and $329.8 million across just the 
coastal states (2010 estimates). The vast majority of this money 
returns directly to management and enhancement of recreational fishing. 
In addition to license sales, recreational anglers contribute to 
conservation through excise taxes on fishing equipment and fuel 
purchases. In 2010, these excise taxes generated $650 million 
nationwide and those monies are apportioned back to the states for 
fishery management purposes.
    As a matter of comparison, in 2006 commercial fishing in the U.S. 
generated $102.5 billion in total sales and supported 1.5 million jobs. 
This estimate includes impacts from the harvester right through to the 
consumer.
    While the economic impact of marine fishing is vast, it is not 
reflected in the management process. The primary reason may simply be 
the very nature of the two sectors. The number of commercial fishermen 
is small relative to the number of recreational fishermen. The number 
of businesses that commercial fishermen buy their supplies from and 
sell their fish to is an even smaller number of operators. As a result, 
the commercial activity moves through a smaller number of hands and is 
a larger payday in those businesses' pockets. This makes it much easier 
for the commercial sector to build a cohesive base that secures the 
attention from the agency responsible for collecting the science 
affecting their sector.
    Recreational fishermen spend their dollars at thousands of gas 
stations, grocery stores, marinas, marine dealers, mom-and-pop bait-
and-tackle shops, restaurants and hotels along with everybody else 
buying those goods and services. The local gas station or convenience 
store is not likely to band together with anglers to build a base of 
support to represent them before NOAA Fisheries. You are not going to 
see truck manufacturers clamor for better data for recreational anglers 
even though the purchase of trucks to tow boats is the second biggest 
durable goods expenditure made by anglers. As a result, policymakers do 
not truly recognize the large economic impact of recreational fishing.
    The result is you have a huge economic engine in recreational 
fishing that gets largely ignored in the agency and Council scientific 
process: from basic data collection to performing quality stock 
assessments for species important to recreational fishermen and 
everything in between. This neglect costs coastal economies jobs and 
incomes.
    To the credit of the leadership at NOAA, Eric Schwaab and Jane 
Lubchenco, there has been a substantial effort to try to solve this 
problem. But institutionally, the problem remains.
    The perfect example of this is the concern over the primary tool 
used to gather recreational harvest data, MRFSS/MRIP. In the 
transformation from the MRFSS to MRIP, the agency has expended 
substantial resources on improving the survey. Yet it is still a survey 
based on two-month sampling time frames and is of limited use for in-
season quota monitoring, a tool to which the Councils are turning more 
and more frequently to manage recreational fisheries. Thus inadequate 
data is being used to shut down fisheries and reduce economic 
activity--and the jobs supported by that economic activity. The new 
MRIP will do little to address this problem, even if substantially more 
resources are spent. If NOAA Fisheries and the Councils are going to 
manage stocks with in-season quotas, they owe the economic 
sustainability of our coastal communities a fair shake. NOAA Fisheries 
and the Congress owe our communities a survey that can estimate 
recreational harvest accurately so that jobs are not unnecessarily 
sacrificed.
    All the vast, positive effects of recreational fishing on the 
American economy are based on three things: good management of marine 
fisheries, a sustainable resource and access to that resource.
    Currently there is no attempt by the Councils to maximize the net 
benefit to society from fishery management. There are many ways 
managers could increase the value of our fisheries. Unfortunately, the 
lack of adequate science prevents moving in a direction that would 
improve the sustainability of our coastal communities.
    How has the agency managed the 24.7 million saltwater anglers who 
take four trips a year (97.7 million recreational trips)? How has the 
agency managed this great American business--marine recreational 
fishing--that generates $92.2 billion in total sales? That employs 
533,813 people? That contributes $621.5 million in license purchases 
($329.8 million across just the coastal states)? That paid $650 million 
nationwide in excise taxes to be apportioned back to the states for 
fishery management purposes? How is NOAA Fisheries managing us?
    In a word: Poorly.
    I'd like to establish that fishing is good. Catching, cleaning and 
eating fish with your family and friends is a good, healthy, all-
American pastime. So fishing is good.
    I'd like to also establish that overfishing is bad. No one wants to 
have overfished stocks. Recreational fishermen respect, support--even 
propose--many of the classic fishery management tools to ensure healthy 
fisheries. Those classic tools include things such as seasons, quotas, 
time and area closures, size limits, creel limits...those tools work.
    We want America's coastal waters and oceans to be teeming with 
fish. . .because for recreational fishermen--and the inefficiencies of 
a single hook in the Lord's vast ocean--we need a lot of fish out 
there.
    Any attempt to end overfishing is generally appealing to a 
conservationist, but the ramifications of the provisions amending MSA 
in 2006 were not truly appreciated at the time. Over the past few 
years, it has become painfully apparent to anyone associated with 
marine recreational fisheries that NOAA Fisheries does not have the 
data to properly manage fisheries to the requirements of those 
provisions. The terrestrial model of fish and wildlife management that 
has been applied so successfully to ducks, geese, turkey, bass, trout, 
deer, elk, etc., is not to be found in the nation's oceans.
    To understand the magnitude of the discrepancy between current 
federal marine resource management and most every other wildlife 
management regime, we must acknowledge that the Magnuson-Stevens Act 
allows for the management of fish stocks in the federal zone (three--
200 miles from shore generally). The term ``fish'' has been interpreted 
to cover hundreds of species of finfish, corals, vegetation and 
jellyfish. Of these the federal government has about 528 stocks of fish 
or complexes of stocks under management. Only 114 of the stocks are 
considered ``adequately assessed.''
    For the past few years, the agency has been doing about 80 stock 
assessments a year in Alaska and the North Atlantic on pretty much the 
same (commercially important) species. But they've only been assessing 
15 stocks a year in the Gulf of Mexico, South Atlantic and Caribbean 
combined. And that's not annual assessments on the same stock. That's 
different stocks of fish--and most of those assess commercial shrimp 
stocks. For the charismatic sport fish that anglers pursue, the agency 
does about six assessments per year.
    MSA requires annual catch limits (ACLs) on all stocks by the end of 
this year. And the agency and the Councils are moving to implement 
these hard limits by the deadline. How are they arriving at hard limits 
on the 80 percent of stocks that are not adequately assessed?
    They're making estimates based on a mountain of poor data.
    Terrestrial and freshwater wildlife resource management agencies 
would not think of operating without standardized stock surveys and 
assessments. Yet, for our marine resources, proponents of the status 
quo say that ``readily available information such as biology'' is 
adequate to replace a standardized, peer-reviewed stock assessment as 
the foundation of management, even when the decisions based on it will 
have drastic social and economic consequences. A hodgepodge of partial 
bits of information that perhaps add up to an informed guess will 
always fall short of the standards we as a nation have used for 
managing our fish and wildlife resources.
    We should reject the notion that a swag--a scientific wild ass 
guess--is good enough to be the foundation of management for hundreds 
of marine stocks that have either never had an assessment or have been 
deemed inadequately assessed by NOAA Fisheries and for which there is 
absolutely no evidence that the stock is being overfished.
    The ramifications of the swag are far reaching and long term.
    You could pick most any of the 528 stocks of fish. So let's call 
one the ``widget-fish.''
    When the Council and the agency take a swag and decide that the ACL 
on the widget-fish shall be 1 million pounds this year, that is a hard 
number. One million is a number that a federal judge will understand. 
Even though a swag, it's still a number. Federal judges may have 
trouble understanding Byzantine fishery management policies. But judges 
have no trouble understanding numbers. When that hard swag-induced ACL 
is exceeded (and it will be), the only jobs NOAA Fisheries will be 
securing will be those of environmental lawyers intent on shutting down 
fishermen who target the widget-fish. Environmental lawyers will have 
gainful employment suing the government to enforce the hard ACL on each 
of the 528 stocks--the vast majority of which are healthy stocks. In 
most cases, the enforcement of the swag will unnecessarily keep 
America's public fishery resources from American citizens. That will 
reduce the positive economic impact of fishing and will cost real jobs 
on our coasts.
    So an artificially low ACL based on a swag, combined with current 
statistical survey methods of recreational harvest, create the very 
real possibility that a very few widget-fish popping up in a survey 
will be extrapolated to project a total harvest number well in excess 
of the swag-produced ACL, especially if the widget-fish is uncommonly 
encountered by samplers. The result will be to not only shut down the 
widget fishery, but if the situation is perceived as significantly 
desperate, draconian management measures will be considered for other 
species that may produce a bycatch of widget-fish. This is the domino 
affect that occurred in the South Atlantic last year when managers were 
within inches of shutting down all bottom fishing in thousands of 
square miles to recover red snapper stocks. The shutdown was averted 
when unprecedented pressure and protest from all quarters compelled 
NOAA Fisheries to conduct a second full stock assessment on red 
snapper, which revealed that the stock was not in need of such drastic 
management measures.
    The widget-fish described above is an example of one of the fish 
stocks on which the agency has enough information to muster a swag 
about ``management.'' For many other stocks, if the agency is not even 
in a position to hazard a guess about an Annual Catch Limit, they are 
simply removing those fish from all management protections: Taking 
hundreds of species which are now under management and deleting them 
from Fishery Management Plans. In the Gulf last month, they deleted 18 
stocks. And in the South Atlantic next month, the Fishery Management 
Council will be deleting 39 stocks from management.
    When a stock is deleted from a Fishery Management Plan, it is 
removed from federal management protections. So these particular stocks 
are no longer protected for instance from prohibitions on taking them 
with drift gill nets or fish traps in federal waters. For federal 
managers: these stocks don't exist.
    The practical effect? Giving management of those stocks to the 
states. . .to perhaps manage with state landings laws. But the states 
neither asked for the management responsibility nor received funding to 
engage in management.
    If the federal government can't manage them, why should anyone 
think local jurisdictions are going to manage them? And what kind of 
message does that send? Do we really think fish 100 miles offshore in 
the Caribbean or Guam or North Carolina are going to have protections 
if the federal government just casts them aside?
    Focusing again on the South Atlantic Fishery Management Council: on 
August 9, 2011, the Council will drop 39 of the 73 species from their 
Snapper/Grouper Fishery Management Unit, which effectively removes them 
from federal jurisdiction. The 39 are species 1) that are not directly 
targeted; 2) that are usually caught as bycatch when fishing for other 
species, and 3) on which stock assessments are unlikely to ever be 
performed. Thus, under the current control rule for un-assessed stocks, 
if one of these ``lesser'' species is ever judged to be undergoing 
overfishing or in decline, the only mechanism the Council is likely to 
have to remedy the decline is to prohibit the harvest of a more 
valuable, managed stock, since the ``lesser'' species was caught as 
bycatch in that fishery.
    As noted earlier, responsibility for management would thus revert 
to the states, which are unlikely to receive any additional management 
funds in the near future. Management would be by landings laws. 
Currently the Council has little choice in the matter: they are faced 
with either keeping all the species in the fishery management unit or 
face possible management restrictions on the more valuable managed 
stocks or drop them. This is essentially management failure set in 
motion by the agency's interpretation and implementation of the ACL 
provisions in MSA.
    When Congress reauthorized the Magnuson-Stevens Act in 2006, none 
of us knew that NOAA Fisheries was so data-poor. NOAA Fisheries itself 
may not have fully understood they were managing so many data-poor 
stocks and complexes of fish. So the agency reports that it has these 
528 stocks of fish and fish complexes ``under management.'' It has up-
to-date assessments on 114 of those. So roughly 414 of the 528 are a 
mystery to the agency. They don't know how healthy they are. What is 
the level of fishing pressure on each? What is the likelihood each is 
overfished? Nonetheless, to comply with the year-end deadline by which 
it must stop overfishing, the agency is now faced with two options:
        <bullet>  apply highly restrictive ACLs based on very poor (or 
        in some cases non-existent) data, or
        <bullet>  remove species of fish from management.
    The eight Regional Fishery Management Councils are attempting--
pretty much in the dark--to amend fishery management plans to 
accommodate the statutory deadline by which they must end overfishing.
    As you know, your colleague Mr. Wittman has proposed to solve this 
conundrum with H.R. 2304, the Fishery Science Improvement Act. The 
legislation has three key provisions:
        1.  First, if the agency has not assessed a stock of fish in 
        the last five years and there is no indication that overfishing 
        is occurring, there is no requirement to set an Annual Catch 
        Limit.
        2.  Second, to avoid removing the fish species from management 
        and leave them in the jurisdiction of the agency, the bill 
        allows the agency to put certain fish into an ``ecosystem'' 
        category. This classification is already informally in use by 
        the agency but without strong parameters. FSIA statutorily 
        authorizes the category and broadens the eligibility for stocks 
        of fish that can be placed in the category.
        3.  Finally, the Fishery Science Improvement Act gives NOAA 
        Fisheries three years to go back and work with the Councils to 
        figure out how to implement science-based overfishing measures 
        that are appropriate for each region and its fish.
    The Wittman bill--already co-sponsored by two dozen of his 
colleagues--is very concise, simple and targeted. There is a very big, 
very specific problem with how NOAA Fisheries is implementing the 
Magnuson-Stevens Act, and Congress must act accordingly. Without 
Congressional action, arbitrary decisions affecting millions of anglers 
and thousands of businesses will continue to be made, and we can't let 
that happen to anglers on the coast of Virginia or Louisiana or 
California or Alaska.
    Today's hearing is a wakeup call beyond this Subcommittee. The 
millions of Americans who responsibly utilize the nation's public 
fishery resources and depend on them for jobs and recreation know this 
Congress can and will solve this problem.
    Mr. Chairman, that concludes my testimony, and I would be happy to 
take questions.

                                  ###

About our organizations. . .
    The Center for Coastal Conservation (Center) is a coalition of the 
leading advocates for marine recreational fishing and boating. It is 
dedicated to promoting sound conservation and use of ocean resources by 
affecting public policy through the political process.
    The American Sportfishing Association (ASA) is the sportfishing 
industry's trade association, committed to looking out for the 
interests of the entire sportfishing community. The association invests 
in long-term ventures to ensure the industry will remain strong and 
prosperous as well as safeguard and promote the enduring economic and 
conservation values of sportfishing in America. ASA also represents the 
interests of America's 60 million anglers who generate over $45 billion 
in retail sales with a $125 billion impact on the nation's economy 
creating employment for over one million people.
    The Coastal Conservation Association (CCA) is a national 
recreational fishing membership organization of some 100,000 members 
and is organized to do business in 17 States on the Atlantic, Gulf of 
Mexico and Pacific Coasts. It has been actively involved in the 
majority of the nation's marine resource debates since its inception in 
1977. Its membership is composed of recreational fishermen who fish for 
every important marine recreational fish available in the EEZ. CCA 
brings not only an educated perspective on how to fish, but a 
conservation ethic which recognizes the value of recreational fishing 
as a pastime and obligation to take care of the resource and use it to 
the best benefit to the nation.
    The Congressional Sportsmen's Foundation (CSF) is the most 
respected and trusted organization in the political arena promoting, 
protecting and advancing the rights of hunters and anglers. CSF is the 
leader in providing access and a voice for sportsmen with elected 
officials, land and wildlife management agencies, non-governmental 
organizations (NGOs), and sportsmen allied industry groups across the 
nation. CSF is a 501(c)(3) non-profit governed by a Board of Directors 
composed of leaders of the top conservation and outdoor industry 
organizations in the nation.
    The International Game Fish Association (IGFA), is a 70-year-old 
world renowned not-for-profit organization committed to the 
conservation of game fish and the promotion of responsible, ethical 
angling practices through science, education, rule making and record 
keeping. IGFA accomplishes its mission by enlisting the voice of over 
300 official IGFA representatives in nearly 100 countries, and more 
than 15,000 angler-members around the globe.
    The National Marine Manufacturers Association (NMMA), the nation's 
leading marine industry trade association, represents nearly 1,600 boat 
builders, engine manufacturers, and marine accessory manufacturers who 
collectively produce more than 80 percent of all recreational marine 
products made in the United States. The U.S. recreational marine 
industry contributes more than $30 billion in new retail sales and 
300,000 jobs to the economy each year.
    The Billfish Foundation (TBF) is dedicated to conserving and 
enhancing billfish populations around the world. The non-profit 
organization is an effective advocate for international change, 
synthesizing science and policy into fishery management solutions. By 
coordinating efforts and speaking with one voice, TBF is able to work 
for solutions that are good for billfish and not punitive to 
recreational anglers.
                                 ______
                                 
    Mr. Fleming. Thank you, Mr. Angers, And let's see. Next up, 
we have Mr. Nelson, I believe. Yes. You are recognized for five 
minutes, sir.

STATEMENT OF DAVID NELSON, CHARTER/COMMERCIAL FISHING CAPTAIN, 
                      PONCE INLET, FLORIDA

    Mr. Nelson. Thank you. Chairman Fleming, Ranking Member 
Sablan, and Members of the Subcommittee, thank you for the 
opportunity to testify before you today concerning NOAA's 
fishery science. I am Captain David Nelson, and I have been 
fishing the South Atlantic region in Florida my entire life. I 
represent all American fishermen, recreational and commercial, 
as well as the American seafood consumer. Many of the people I 
represent were here for the rally in February 2010, the 
fishermen's rally on Capitol Hill.
    Many coastal communities along the South Atlantic, from 
North Carolina to Florida, are suffering an economic crisis 
because of the chronic and well-documented lack of basic data 
and flawed science that has been used to determine the health 
of their fish stocks, as we have been talking about today. A 
prime example of these problems is the current closure on red 
snapper fishing in the South Atlantic, from North Carolina to 
Florida.
    Lack of data on red snapper in particular has led 
scientists to make non-science based assumptions about the 
stock. The evidence is clear in the first stock assessment 
known as CR-15, completed in 2008. In this assessment, 
scientists had to create catches or landings of fish that did 
not happen so that the computer model results would fit the 
minimal data that was available. I want to repeat that because 
it is worth repeating. In this assessment, NOAA scientists 
created catches or landings that did not happen.
    In a quote directly from SEDAR 15 concerning outdated U.S. 
Fish and Wildlife surveys--this is a quote from National Marine 
Fisheries scientists in the South Atlantic. ``Data from these 
reports--'' talking about the U.S. Fish and Wildlife surveys. 
``Data from these reports were not supposed to be included 
because the U.S. Fish and Wildlife Service deemed these data 
untrustworthy.'' But they were used anyways.
    Since they were used anyways, despite their unreliability, 
in SEDAR 15, over 30 million pounds of red snapper landings 
were created from thin air using these outdated Fish and 
Wildlife surveys. They were used regardless of their 
unreliability, as I said before. In other words, red snapper 
were deliberately killed off in the computer, not by fishermen.
    Just two years later, the 30 million pounds of fabricated 
landings were corrected in a new assessment, known as SEDAR 24, 
after an independent review by Dr. Frank Hester found serious 
flaws in SEDAR 15. However, these fabricated landings, the 31 
million pounds that was created out of thin air, forced a 
closure of the red snapper fishery in January 2010. This cost 
many people their jobs, caused businesses to suffer severe 
economic losses, and millions in lost tax revenue for the 
States and Federal Government. This vital fishery is still 
closed today.
    Due to the many flaws that were found in SEDAR 15, the 
National Marine Fisheries agreed to do another assessment on 
red snapper called SEDAR 24, as I have already mentioned. This 
was completed in 2010, with the full involvement of fishermen 
and other stakeholders. The 31 million pounds of fabricated 
landings were corrected, and it looked like an accurate 
assessment would be produced with SEDAR 24.
    Unfortunately, this did not happen because a computer model 
was chosen that destroyed the stock before 1975, before there 
was any data on red snapper, before any data on red snapper 
even existed. In SEDAR 24, a computer model was deliberately 
chosen that destroyed the stock with artificially created poor 
recruitment, which has to do with spawning potential and the 
number of offspring that the stock produces, based on zero 
science.
    This simply means that this stock of fish, one of the most 
highly reproductive species known to science, did not produce 
enough offspring to maintain its own existence. In other words, 
the red snapper, according to the new assessment, was conducted 
on a computer-generated path to extinction without any science 
or data to support this ridiculous notion. This goes against 
all available science on red snapper, and disregards the best 
science available on the spawn or offspring relationship known 
as the spawn or recruit curve.
    What happens is you have a certain number of spawning fish 
in the population, as many of you have heard, and then those 
without data produce a certain number of offspring. If you have 
no data, you go by the spawn or recruit curve, which they did 
not. This is a complete violation of Magnuson-Stevens, MS-2. 
Best scientific information available, as Mr. Schwaab mentioned 
earlier, must be followed. Well, that wasn't followed in SEDAR 
24. It was violated.
    With only two years between SEDAR 15 and SEDAR 24, there 
were no data changes regarding this recruitment or offspring 
from spawning. However, between the two assessments, the number 
of age one red snapper being produced from one assessment to 
the other was reduced by almost 6 million fish in a 20-year 
period, a complete fabrication with no data, because it is 
supposed to follow the spawn or recruit curve.
    Now, instead of fabricated landings destroying the stock, 
the CDAR that happened in SEDAR 15, in SEDAR 24 it was 
fabricated poor recruitment or lack of reproduction by the 
stock, with no data.
    Here is an explanation of the poor recruitment before 1976. 
These are National Marine Fisheries scientists, a quote from a 
National Marine Fisheries scientist involved in this 
assessment. ``Without any data prior to 1976, there is little 
information to estimate those historical recruitment deviations 
with accuracy. Thus, the estimate of historic recruitment 
should not be considered reliable.'' That's a National Marine 
Fisheries scientist about a closure that is going to shut 
down--make people lose jobs and shut down businesses. But he 
says that this should not be considered reliable information 
that we are give you here.
    Red snapper fishing has been closed for a year and seven 
months. And during this time, there has been a severe economic 
hardship in the region that has been affected. This is due to a 
stock assessment that their own scientists say should not be 
considered reliable.
    Now, because of the seriously flaws nature of the red 
snapper science, the recreational and commercial fishing 
industries are now calling for oversight hearings and have been 
lobbying for oversight hearings on the red snapper science. An 
investigation of fabricated landings and computer-generated 
extinction of a healthy fishery is necessary. I will be happy 
to answer any questions that you might have. Thank you.
    [The prepared statement of Mr. Nelson follows:]

Statement of Captain David Nelson, Charter/Commercial Fishing Captain, 
                          Ponce Inlet, Florida

    Chairman Fleming and members of the subcommittee: Thank you for the 
opportunity to testify before you today concerning NOAA's fishery 
science. I am Captain David Nelson and I have been fishing the region 
under the jurisdiction of the South Atlantic Council my entire life. 
This area of water is from North Carolina to Florida from 3 miles out 
to 200 miles and is referred to as the South Atlantic region for 
management purposes. I represent all American fishermen, recreational 
and commercial, as well as the American seafood consumers.
    For fisheries managers to follow the law under the Magnuson-Stevens 
Act the science that is being used must be accurate. When it comes to 
fisheries science, nothing is more important than the data. 
Unfortunately, the data that is being used to mange nearly all of our 
fisheries in the South Atlantic are not adequate. Unfortunately, many 
people involved in fisheries science continuously hide behind the 
``Best science available'' clause in Magnuson and this has led to many 
flawed assessments being produced by SEDAR in the South Atlantic 
region. SEDAR is a process of creating assessments that stands for 
Southeast Data Assessment and Review. Most of the problems in the 
assessment results are the result of not having data, misuse of 
unreliable data, and huge assumptions about many stocks.
    The recent stock assessment work has been conducted through the 
National Marine Fisheries Service (NMFS) SouthEast Data, Assessment and 
Review (SEDAR) process. SEDAR science is under the leadership of the 
NMFS Southeast Fisheries Science Center (SEFSC) located in Miami, 
Florida effecting fishing from North Carolina to Texas and the 
Caribbean Sea. The SEDAR process has a history of failed stock 
assessment products resulting in thousands of lost fishing jobs during 
recent years. Meanwhile the NMFS leadership does nothing to mitigate 
the damages to the fishing communities.
    A major problem in the southeast region is some of the best 
available fishery data on species like Atlantic red snapper has been no 
data at all. Some SEFSC scientists create assumptions amounting to a 
best guess about historical participation before recorded catches and 
landings were slowly mandated by the NMFS leadership. This 
misrepresentation of the past fishing efforts being utilized as the 
``best scientific information available'' should be considered a 
violation of the National Standard 2 intentions for the basic fishery 
sciences provided in the 2006 Magnuson-Stevens Fishery Conservation and 
Management Reauthorization Act (MSA).
    Counting how many fish are in the ocean is a daunting task with the 
best data. Regional science centers, such as New England, have decades 
of fisheries data from multiple sources. Even with this excellent data, 
the stock assessments in the New England region are still full of 
uncertainty. We are finding out now, that many fisheries are much 
healthier than their assessment results had claimed. In these cases 
under fishing is occurring on many stocks. The regions, where under 
fishing is occurring, costs the nation jobs and violates the Magnuson-
Stevens Act where maximum sustainable yield for the benefit of the 
nation is required.
    In the South Atlantic region, the problems with the science are 
multiplied because the data sources are extremely limited and the data 
that is available is often applied wrong due to lack of important data, 
science, and knowledge about the fish that is being assessed. Another 
problem in the South Atlantic is that the best available science and 
data on species like red snapper has not been used, which is also a 
violation of MSA. All of these problems with the science have led to 
job losses, businesses failing, and loss of important tax revenue.
    To accurately assess the status of a stock of fish, scientists need 
high quality data from a variety of sources, including fishery 
dependent and fishery independent data. Fishery dependent data comes 
from landings of fish by fishermen, and these are tied to many factors 
outside of actual abundance, such as effort and weather. This data can 
be collected by portside samplers or from fish markets reporting 
landings. Fishery dependent data really only shows the health of the 
fisheries landings and not the health of the stock itself. According 
to, Dr. Demaster of the NMFS, in his recent testimony before the Senate 
he claims, ``Basing stock assessments just on fishery dependent data is 
very risky''(Senate Testimony 56:45).
    Fishery independent data is collected by scientists and are not 
dependent on fishing, such as underwater video and diver observations. 
These data are usually collected by research vessels in a very 
controlled scientific manner. This type of data is extremely important 
in determining the health of a given stock of fish. In fact, without 
fishery independent data it is hard to know the true health of any 
stock of fish.
    In the South Atlantic region, all stock assessments with a few 
exceptions, are based solely on fishery dependent data. For example, 
fishery independent data on red snapper does not exist in the South 
Atlantic region. Red snapper is arguably the most important bottom 
species for all sectors in the entire region, and in over 30 years, the 
National Marine Fisheries Service has collected zero fishery 
independent data on them. This important species was assessed using 
only hook and line landings data which can be effected by many factors 
such as; regulations, effort, weather, current, cold water, economics, 
fish prices, alternative target species, angler experience, fish 
biology, feeding habits, available food, and many others. This limited 
data creates a lot of uncertainty.
    To add to this uncertainty the fishery dependent data that has been 
collected on red snapper is very limited and in many cases was not 
adjusted properly. For example, headboat data must be adjusted because 
they only fish a limited area and do not catch older red snapper. This 
data must be adjusted so that the computer model knows that the data is 
biased.
    The landings records and port sampling of catches come from four 
states; NC, SC, GA, and FL. The area of highest abundance for red 
snapper is North Florida and Georgia, from Cape Canaveral, FL to 
Savannah, Georgia. This sampling can also be broken down into sectors; 
commercial, recreational for-hire, and recreational private. The for-
hire sector includes head boats and charter boats. In this region, the 
largest group or sector is the private recreational fishery or private 
boat owners.
    This being the case then sampling should be focused in Georgia and 
North Florida and on the private recreational sector. In fact the 
opposite is true. In the South Atlantic region from 1977 to 2008 a 
total of 13 fishing trips were sampled in the entire state of Georgia 
in the recreational sector and all of these were head boat samples. In 
that same time period there were a total of five private recreational 
boats sampled in all four states combined, the largest sector of the 
red snapper fishery (Sedar 24 Table 2.6.2). From 1990 to 2001 headboat 
sampling was also extremely limited with less than 1% of trips sampled 
for the decade. (Table 2.6.2)
    It can easily be seen that the landings in the South Atlantic have 
not been properly sampled, especially in the private recreational 
sector. Since 1977 the most frequently sampled sector is the head boat 
sector. The sampling of this sector dropped off tremendously from 1990 
to 2008 and then increased somewhat in 2009. However, there is a heavy 
reliance on the headboat data in all assessments in the South Atlantic 
even though there are huge problems with this data.
    For data to be usable it should cover the entire range of the 
species that is being assessed. For example, red snapper live from near 
shore out to 100 miles from shore in many parts of the South Atlantic 
in water up to 350 feet deep. In comparison ninety percent of all 
headboats fish an extremely limited area inside of thirty miles and in 
water less than 120 feet deep. To reach 120 feet of water out of 
Jacksonville, Florida it is over 35 miles, too far for headboats and 
most recreational anglers. Headboat landings data covers less than 1/3 
of the red snapper habitat and does not cover the area of highest 
abundance from 120 to 160 feet of water. Another problem with the 
headboat data is that headboats are not able to target all age groups 
of red snapper. This causes more bias in the data. The headboat index 
for all species is overused and should not be relied upon to show the 
health of fish that live beyond the areas that headboats fish.
    In the case of red snapper this lack of quality data caused 
scientists to create catches of fish out of thin air using 40 year old 
data, so that the computer model would fit the data. In other words, 
fish were deliberately killed off in the computer, that were not really 
caught by fishermen. In Sedar 15 the reliance on the poor data from 
headboats leads to the following discussion by the assessment panel 
about getting the data to fit or fixing the problem, but never 
questioning the data itself:

Sedar 15 Assessment Workshop Pages 8-10:
    Catch-at-age model
        The catch-at-age model gave a poor fit to the 1978--1983 
        headboat length composition data. The problem has to do with 
        large number of year classes that have similar size range -
        confidence limits bound mean of 700mm. The model forces many 
        of older fish into that length range. The removal of those 
        predicted lengths during 1978-1983 requires either truncated 
        age classes from poor recruitment or removing those larger fish 
        using high fishing mortality prior to the 1978-1983 period.

        The first attempt to fix this problem examined changes to 
        selectivity patterns on larger fish early in the time series 
        and then allowing selectivity parameter to change annually. 
        This did not 8 Assessment Workshop Report South Atlantic Red 
        Snapper SEDAR15 SAR1 SECTION III provide a better fit to 
        headboat length composition and was not retained in subsequent 
        model runs.

        It was determined that the large number of recruits that were 
        artificially put into system with stock recruitment function 
        during 50s and 60s was carrying through into predicted length 
        composition during 1978-1983. To reduce this problem, 
        recruitment deviations were begun at earlier year (1971) in 
        model. Although this solution fixed the problem it may be doing 
        so at expense of missing a much higher F in the early years of 
        modeling period. Discussion also focused on fact that the 
        observed recruitment pattern may not be defensible. Next 
        attempt at fitting headboat length compostion data focused on 
        getting rid of larger fish using increased selectivities in 
        period 1. Assume in period 1 all selectivities are same across 
        fisheries and allow selectivities to change linearly (a50) each 
        year shifting towards left and getting steaper. This 
        effectively kills off the larger fish earlier. Also fix slope 
        of parameter in period 2. See Fishery selectivity section for 
        discussion of this approach. These changes in the fishery 
        selectivity functions did not improve fits to the headboat 
        length composition. The modifications of period 1 selectivities 
        was dropped.

        The following model runs went back to modifications of stock 
        recruitment function to reduce recruitment of fish during early 
        period. The initial period of poor stock recruitment fits were 
        argued to be a ``burn in'' period and there was discussion that 
        this might be defensible given that it includes 1950s and 
        1960s. If the ``burn in'' period was dropped from S/R curve it 
        looks good and would be defensible. Is this satisfactory? It 
        was decided that this approach was not satisfactory because of 
        possibly missing high fishing mortality during early period 
        that was documented in literature.

        The landings data from period 1 were re-visited. A new approach 
        of estimating MRFSS landings from 1946 to 1980 was attempted 
        using ratio of commercial to recreational from later periods 
        and applying that during period 1. These new MRFSS estimates 
        did not fix the headboat length composition fits; the increased 
        recreational landings in period 1 was not enough to remove 
        large fish predictions in the 1978-1983 headboat fishery. 
        Another approach allowed bias estimation of those earlier 
        landings which did fix headboat length fits.

    In the following paragraph the assessment group talks about using 
US Fish and Wildlife surveys that are 30 to 40 years old even though 
they were deemed unreliable by the US Fish and Wildlife Service.
        Data from these reports were not included in data workshop 
        because MRFSS? USFW? deemed these data untrustworthy. However, 
        the assessment group felt that creel surveys from the 1960s and 
        1970s could be considered trustworthy. Recreational landings 
        from these reports were much higher (order of magnitude) than 
        linear interpolation approach (from 1946 to 1980), ratio, and 
        bias estimation? approach. The next step was to linear 
        interpolate between red snapper landings data from USFW 
        reports; observed data for 1955, 1960, and 1965 was 
        interpolated through from 1945 to 1980. Results were similar 
        and a bias parameter on those new landings data. The base run 
        used these linear interpolations on the 1945 to 1980 for 
        recreational landings (headboat and private); this allowed 
        improvement of fits to headboat length compositions. Anchor 
        point years for linear interpolation of recreational landings 
        are 1946, 1960, 1965, 1970, and 1981. There are no head boat 
        landings before 1972 in base run. The biomass of the stock is 
        below 5% of virgin biomass at terminal year in base run but 
        also when setting recruitment at low levels in period 1. The 
        assessment group felt that high fishing mortality based on 
        survey from sportfishing report was more realistic and 
        defensible than low recruitment during period 1 and poor fit of 
        S/R relationship.
    At no time in the above discussion does anyone in the group 
question the data. The reason that the above discussion took place is 
that the computer was forced to match the data from the headboats even 
though the data was not a true picture of the red snapper in the SA. To 
help the computer results match the data 30 million pounds of red 
snapper were removed from the stock that were not actually caught by 
fishermen. This was done by using data that was deemed untrustworthy by 
the very group that had created them, the US Fish and Wildlife service. 
This was an assessment that was going to force a 40,000 square mile 
closure to all bottom fishing in the South Atlantic but was found to be 
fatally flawed and a new assessment was completed. Once these landings 
were corrected in the next assessment called Sedar 24, it was found 
that a bottom closure was not necessary and the region was saved from 
economic devastation that a bottom closure would have brought.

    Landings Corrected

    2008 Sedar 15 Inflated Landings       2010 Sedar 24 Actual Landings
    1955-1975--80 million pounds         1955-1975--50 million pounds

    Difference--30 million pounds of landings created from thin air due 
to lack of data.

    In response to the many problems found in Sedar 15 the NMFS did 
another benchmark assessment on red snapper in the South Atlantic with 
fishermen involved and the new assessment was much closer to reality in 
every area except for red snapper productivity. Sedar 24 still resulted 
in closing the red snapper fishery because of one glaring issue, how 
many juvenile red snapper were produced annually from 1955 to 1975 
before there was any data. Without any data the computer model is 
supposed to follow the spawner-recruit curve, which means that on 
average a stock must produce enough offspring or recruits, to cover 
natural mortality. Following the spawner/recruit curve without any data 
was the best science available. However, without any data on 
recruitment in Sedar 24, the computer was allowed to destroy the stock 
from 1955 to 1975 with no data or scientific basis. This is the 
explanation in Sedar 24 about the reliability of these recruitment 
numbers:
        Sedar 24 Assessment Workshop page 18
        http://www.sefsc.noaa.gov/sedar/
        The initial recruitment in 1955 was assumed to be the expected 
        value from the spawner-recruit curve. For the remainder of the 
        initialization period (1955-1975), recruitment was permitted to 
        deviate from the spawnerrecruit curve. However, without CPUE or 
        age/length composition data prior to 1976, there is little 
        information to estimate those historic recruitment deviations 
        with accuracy. Thus, the estimates of historic recruitment 
        should not be considered reliable
    The last line above is very troubling when thousands of jobs and 
hundreds of businesses depend on these estimates being reliable. This 
deviation from the spawner/recruit curve, was not the best science 
available and allowed the computer to remove over 5,000,000 red snapper 
from the stock by not allowing the stock to reproduce at a normal 
biological level. All of the best scientific information available on 
red snapper has shown that red snapper are the most productive bottom 
species in the entire South Atlantic without exception. In fact 
according to Brown-Peterson-, ``A single nine pound female can produce 
60 million eggs in one year'' (152) Red snapper fall under the category 
of fish known as ``Periodic strategists'' (Rose, Cowan, Winemiller, 
Hilborn, Page 299).
        ``The longevity and high fecundity (egg production) of periodic 
        strategists should more than offset their low early 
        survivorship, resulting in periodic strategists having the 
        highest compensatory reserve'' (Rose, Cowan, Winemiller, 
        Hilborn, -Page 300)''
    Compensatory reserve is the ability to offset high mortality either 
natural or fishing. This means that of all of the bottom fish in the 
South Atlantic, red snapper should be the healthiest in spite of 
fishing. However, the computer model base run that was chosen shows red 
snapper did not even produce enough offspring to make up for natural 
mortality. This also violates the laws of nature according to the 
following, ``Population stability, which can include bounded 
fluctuations, implies that, averaged over a long enough time period, 
reproduction is balanced by mortality'' (Rose, Cowan, Winemiller, 
Hilborn- page 295)
    The red snapper fishery in the SA is a hook and line fishery for 
all sectors. According to all scientific information available this is 
one of the most environmentally friendly and sustainable types of 
fishing. In fact, line caught fish are recommended by most 
environmental groups as good choices for the environment. The facts are 
that you have an extremely productive species of fish that has been 
harvested since the early 1900's by a very sustainable and 
environmentally friendly method, hook and line. This is a fish that has 
a broad range of habitat and before it was closed in 2009 was 
rebuilding in a healthy manner.
    According to Sedar 15 the stock collapsed in 37 years under fishing 
pressure. When the fishing pressure was corrected in Sedar 24 the stock 
collapsed because it did not produce enough offspring to even exist and 
was on its way to extinction without fishing. An important question 
that needs to be answered is how did red snapper in the SA, one of the 
most highly productive species in the region being caught using a 
sustainable method such as hook and line, completely collapse in 37 
years under limited fishing pressure? Did the stock of fish really 
collapse or is the science wrong? It should be obvious that the science 
is wrong and the fishery should be opened immediately by emergency rule 
to help save businesses barely hanging on by a thread.
    According to the last assessment Sedar 24, there are only 511,000 
red snapper left from North Carolina to Florida out to 100 miles from 
shore. This would make it nearly impossible for anyone regardless of 
experience to go out and catch just one red snapper. Over the past 
three years an overwhelming number of people in the region have given 
public testimony that the red snapper population in the region is 
healthier than it has been in decades. In the recent tagging trips 
conducted by the state of Florida every trip has been a huge success 
with numbers near 70 to 100 red snapper tagged in a single day. In the 
recent NMFS long line survey conducted for one year in 2010-2011 the 
most prevalent reef species caught besides black sea bass was red 
snapper. In fact, the ratio of red snapper to red grouper caught on the 
NMFS long line trips was 100 to 1 and these fish share the same 
habitat. According to NMFS red grouper outnumber red snapper 3 to 1 in 
the computer models, however even their long line survey showed that 
this is not true. In the last 3-5 years red snapper landings have 
outnumbered red grouper more than 100 to 1 in the region between North 
Florida and South Carolina, yet, we can still fish for and catch red 
grouper but not red snapper. Red snapper outnumber mangrove snapper in 
the offshore waters from North Florida to South Carolina and we can 
keep mangrove snapper but not red snapper. It just does not make sense.
    On a personal note my summer charter income is down 90% since the 
red snapper closure. My winter commercial income is down 70% since the 
closure. Headboat and charter boat revenues are all down in the region, 
since the closure. Fish market revenue is down since the closure. If 
this closure was actually necessary then all of these businesses would 
be supportive and I would too. However, this crisis has been created by 
lack of data and not lack of fish and the current plan is to keep red 
snapper closed until 2014. This is completely unacceptable and there 
needs to be an investigation into this matter. There needs to be an 
emergency opening of red snapper so that the people who are left 
standing can still make something with what is left of the summer 
season. Open it for three years back to old regulations that were 
working and during that three years make a concerted effort to collect 
data. Then in three years, complete a benchmark assessment with the 
best available data that is adjusted properly and everyone in the 
region will accept the results gladly.
    The problems with the science in the South Atlantic region are too 
numerous to count; from lack of data and knowledge about species to 
limited sampling and zero fishery independent data. These assessments 
can cause huge economic hardships such as lost jobs and bankrupt 
businesses. These assessments can destroy people's lives with their 
results and no one is held accountable because it was the best science 
available. If there is not sufficient data as is the case with red 
snapper, there should be no changes to regulations until data is 
collected that can accurately determine the status of this fishery. 
Science should not be able to destroy people's lives unless that 
science at least resembles reality. The science on red snapper is not 
even on the same planet as reality. We need someone in Congress to step 
up and help us to get this fishery open and put people back to work. 
Two other committees that we hope to get involved in this are `Science 
and Technology'' which investigates science that is produced by 
government agencies and the Oversight and Investigations committee that 
oversees the Commerce department under which NOAA and its' science 
would be included.
    Businesses are being destroyed and jobs are being lost because of a 
crisis created in a computer. The red snapper population in the South 
Atlantic region has been rebuilding in a healthy manner since 1992 and 
thousands have testified to that fact. For the science to claim that 
there are only 511,000 red snapper left from North Carolina to Florida 
is an insult to the hard working Americans who have been denied access 
to this healthy natural resource. Please help us get this extremely 
healthy fishery opened.
    Chairman Fleming and other members of the subcommittee, thank you 
for allowing me to testify on this important matter. I will answer any 
questions that you might have.
References and Sources
        1.  Regional Differences in Florida Red Snapper Reproduction
                NANCY J. BROWN-PETERSON1, KAREN M. BURNS2, and ROBIN M. 
                OVERSTREET1
                \1\Department of Coastal Sciences, The University of 
                Southern Mississippi,
                 703 East Beach Dr., Ocean Springs MS 39564, USA
                \2\Mote Marine Laboratory, 1600 Ken Thompson Parkway, 
                Sarasota FL 
                34236, USA

SEDAR 15

SEDAR 24

http://www.sefsc.noaa.gov/sedar/
                                 ______
                                 
    Mr. Fleming. Yes. Thank you, and let's see. Mr. DiDomenico, 
you are next, sir.

  STATEMENT OF GREGORY DiDOMENICO, EXECUTIVE DIRECTOR, GARDEN 
                   STATE SEAFOOD ASSOCIATION

    Mr. DiDomenico. Thank you, Mr. Chairman and Members of the 
Subcommittee. My name is Greg DiDomenico. I represent a trade 
association of commercial fishermen called the Garden State 
Seafood Association.
    I have several examples from the Mid-Atlantic, several 
species, four actually, where the state of the science and the 
system are failing us, along with several recommendations for 
how we might improve the current situation for scientists, 
fishermen, managers, consumers.
    The first species is butterfish. The stock was assessed in 
2004, and a rebuilding plan was required due to an overfished 
status at that time. In 2010, an assessment was conducted, but 
could not determine if the stock was in an overfished 
condition. More importantly, it did determine that the 2004 
assessment was not suitable for management purposes, yet a 
rebuilding plan remains in place using that faulty data.
    We also have learned that its natural mortality and 
environmental factors are determining stock size and rebuilding 
rates, not management, not the fishing industry. While 
overfishing has never been determined for butterfish, and the 
population strength has been underestimated by an inappropriate 
survey, we are enduring precautionary management and are under 
rebuilding plans that are not measurable.
    Monkfish. In 1999, a permanent closure of the fishery was 
pending due to an inaccurate abundance estimate. A closure was 
avoided by a cooperative survey combining commercial fishing 
expertise and a rigorous scientific methodology of the National 
Marine Fisheries Service scientists. This joint effort 
estimated the stock size to be two times as large as they once 
thought.
    Despite the scientific success, the industry had to pursue 
earmarks from Congress since 2000 to fund the surveys, instead 
of receiving funds from NOAA. While the fishery was worth $17 
million in 2009, the assessment was considered data poor, and 
the result is inconsistent management. Instead of making this 
research a priority, NOAA will allocate money to catch share 
programs.
    Sturgeon. In 1998, the National Marine Fisheries Service 
enacted a complete prohibition on the harvest of sturgeon. At 
that time, the National Marine Fisheries Service did not list 
the species as endangered. Today, currently, the Service is 
reconsidering its status only 12 years into a 41-year 
rebuilding plan. Yet, without a stock assessment, the Service 
concludes in 2010 the stock has failed to recover since the 
moratorium was put in place.
    This conclusion is based upon an estimate of the Hudson 
River population between 1986 and 1995. We have been told by 
the National Marine Fisheries Service in this case 25-year old 
data is the best available science.
    During the last three years, two fishermen on one vessel 
with scientists in 66 research days tagged and released 323 
sturgeon, individual sturgeon, in Delaware Bay. 140 of these 
were mature large fish, a size previously thought nonexistent. 
This data has yet to be considered by the National Marine 
Fisheries Service.
    Atlantic mackerel. The National Marine Fisheries Service 
encouraged the industry to Americanize its fishery in the 
nineties, urging a million dollars in private investments. In 
2006, the stock assessment recommended a combined U.S.-Canadian 
quota of 186,000 metric tons, and concluded the resource was 
not overfished, overfishing was not occurring.
    In 2009, U.S. and Canadian scientists collaborated on an 
assessment. The results were an overall quota reduction of more 
than 100,000 metric tons and an unknown overfishing status. In 
2001, the Mid-Atlantic Science and Statistical Committee 
recommended an 80,000 overall metric ton quota, but to account 
for additional scientific and management uncertainty, in 
accordance with National Standard 1 guidelines, the U.S. quota 
was reduced by another 15 percent by the Council.
    I want to summarize with recommendations. For butterfish, 
expand the current MSA--I am sorry, expand the current 
Magnuson-Stevens Act short-lived exemption for monkfish. 
Recommend the agency conduct a fourth monkfish cooperative 
trawl survey. For sturgeon, recommend the National Marine 
Fisheries Service conduct a stock assessment immediately to 
determine the actual stock condition to inform the ESA listing 
process. And for mackerel, recommend the U.S. implement a 
research program with Canada and recommend the Service 
implement an exemption from Magnuson-Stevens Act control rules 
based on the shared stock characteristics of this resource.
    In my last 10 seconds, I am going to try to do something 
extremely difficult, but I am going to do it. One final 
recommendation. In an attempt to briefly describe the general 
Magnuson-Stevens quota-setting framework, you should know the 
following. The annual catch limit is reduced from the 
acceptable biological amount, which is reduced from the 
overfishing limit, which is also known as the maximum 
sustainable yield.
    Remember, maximum sustainable yield is the national 
objective of the Magnuson-Stevens Act. To put it in simpler 
terms, under the new MSA requirements, we routinely reduce a 
harvest potential to avoid overfishing by 25 percent. We 
consider both scientific and management uncertainty to reduce 
quotas further to compensate for the lack of science. We closed 
directed fisheries at 80 to 90 percent of their target amounts. 
And just in case we exceed one of these already conservative 
quotas, we apply other provisions like accountability measures 
to reduce and penalize future quotas.
    To truly understand the effects of Magnuson-Stevens Act, 
the quota-setting framework and impacts poor science has had on 
our economy, we highly recommend the Subcommittee to request 
from the National Marine Fisheries Service the specific quota-
setting calculations for each species managed by the regional 
councils.
    Thank you very much for your time.
    [The prepared statement of Mr. DiDomenico follows:]

         Statement of Gregory DiDomenico, Executive Director, 
         Garden State Seafood Association, Cape May, New Jersey

    Chairman Fleming, Ranking Member Christensen, and distinguished 
members of the Subcommittee, I appreciate the opportunity to speak with 
you today about the implementation of the Magnuson-Stevens Fishery 
Conservation and Management Act of 2006 (``MSA'') and the affect it has 
had on domestic fishery management and the industries under its 
authority.
    My name is Gregory DiDomenico, Executive Director of the Garden 
State Seafood Association (GSSA). The GSSA membership is comprised of 
commercial fishermen, vessel owners, seafood processors and associated 
businesses in the State of New Jersey. GSSA and its members are 
involved in all aspects of the fishery management process. Our members 
occupy advisory panel seats on management councils, participate in 
cooperative research, and have a healthy respect for the ocean 
environment, all combined with a serious business acumen.
    For today's hearing I intend to explain how two major policy 
changes implemented via the 2006 MSA reauthorization are impacting the 
U.S. fishing industry and ultimately our coastal economies. Those two 
policy changes are: (1) the enhanced role of the Science and 
Statistical Committee (SSC); and (2) the establishment of setting 
annual catch limits to prevent overfishing. As a result of the 
reauthorization, NOAA's NMFS revised guidance for implementing National 
Standard 1and did so in February of 2009. The NS1 guidelines were 
revised to provide guidance to the Councils on how to implement certain 
provisions that are now required components of federal fishery 
management plans to address scientific and management uncertainty when 
setting quotas. The revisions were designed to prevent overfishing on 
the managed resources, rebuild overfished stocks, and achieve optimum 
yield (OY).
    Unfortunately the new guidance manifested into an interpretation by 
some SSC members that is overly precautious and risk averse and in the 
worst case, an acknowledgement that in the absence of information, we 
must reduce quotas. In addition, the Annual Catch Limit (ACL) and 
Accountability Measure (AM) requirements of the MSA created standards 
that are apparently beyond the capabilities of our current fisheries 
science program, resulting in several layers of uncertainty buffers 
that are reducing fishery yields and will continue to do so in the 
future unless our science drastically improves.
    In our opinion, the situation is preventing the fishery management 
councils from meeting other important provisions of the NS 1 guidelines 
such as achieving OY from each fishery for the benefit of the Nation.
    The domestic commercial fishing industry believes strongly that the 
ACL/ACM/SSC requirements under NS 1 are contrary to achieving OY and if 
this approach continues, quotas will not be based upon the best 
scientific information, but instead merely on what information is 
available which will ensure that quotas will be reduced by scientific 
uncertainties to compensate for avoiding overfishing at any cost and 
achieving rebuilding in as short a time as possible.
    Clearly, we must work to reduce scientific uncertainty by 
increasing funding and ensuring that key stocks are assessed on a more 
regular basis in every single region. We must support the councils and 
ensure they have the necessary information so that quota decisions are 
accurate and precise rather than exercises in precautionary management.
    My testimony includes 4 species that are critically important to 
our Mid Atlantic commercial fisheries. Each species is unique, 
biologically and each is plagued by the same management issues stemming 
primarily from a lack of adequate science. Those 4 species are; 
butterfish, monkfish, Atlantic sturgeon and Atlantic mackerel. The 
proper management of each of these stocks is crucial to the success of 
our fishermen and the economies of our fishing communities.

1) Butterfish
2004 Stock Assessment and Mandated Rebuilding Program
    In 2004, a Scientific Assessment Review Committee (SARC) was 
convened to assess the status of the butterfish stock. The SARC is an 
independent panel of experts that reviews the assessment. The SARC 
concluded that the stock was not undergoing overfishing but was in an 
overfished condition. The Mid-Atlantic Fishery Management Council 
(MAFMC) was notified by the National Oceanic and Atmospheric 
Administration's (NOAA) National Marine Fisheries Service (NMFS) on 
February 11, 2005 that the butterfish stock was designated as 
overfished and a rebuilding plan would have to be established requiring 
rebuilding of the stock in a time as short as possible but not to 
exceed 10 years.

2010 Stock Assessment
    The conclusion of the 2010 SARC was that the stock was not 
undergoing overfishing but could not determine if the stock is 
overfished. The unfortunate aspect of this situation is that the SARC 
also concluded that the results of in 2004 were inaccurate and not 
suitable for management decisions. So a rebuilding program was set 
forth for no reason and 6 years later the available data are still 
insufficient to determine whether butterfish is overfished.

Unknown Status will persist due to unique biological characteristics
    Given the fact that butterfish has a very short lifespan (1-3 
years), high natural mortality, highly uncertain and variable survey 
indices, and exceedingly variable catch estimates. It is possible even 
in 10 years we will still not have an assessment that provides much 
reliable information about the condition and productivity of the 
butterfish stock. If we did have such an assessment, it would be out of 
date upon completion because most of the butterfish that were alive 
then will be dead before final review of the assessment, and even less 
would be alive by the time that information worked its way through the 
specification process.

Exemption for the Butterfish Stock
    The 2007 MSA reauthorization provided an exemption for some marine 
species with short life cycles. Abbreviated lifecycle characteristics 
limit the ability of managers to forecast abundance, set control rules, 
and achieve maximum sustained yield (MSY). The MSA allows for a 
specific exemption from ACL for species with a life cycle of 
approximately one year that are not overfished but requires an estimate 
of MSY and a catch level that does not exceed MSY. However, the 
application of the exemption is not clear when it comes to managing a 
species with an extremely high natural mortality rate (M) that 
essentially complete their life cycle within a year but have some 
residual population remaining beyond the first year of life.
    A simple example of the survival of butterfish is that if 1000 
butterfish are born in a given year only 41% survive to a full Age 1. 
Butterfish have been described to have great potential to rebuild in a 
relatively short period of time because some reach maturity at in their 
first year and nearly all are mature at Age 2.

Fishing Mortality is Not Affecting Butterfish
    The available data for butterfish indicate that fishing has almost 
no effect on butterfish abundance and it appears that enough fish 
survive to maintain the reproductive potential of the stock. The 
fishing mortality rate (F) applied to butterfish is exceptionally low. 
The recent Stock Assessment Workshop (SAW) estimated that absolute 
fishing mortality in 2008 was F=0.02, a very low rate compared to other 
managed stocks.

Trawl Survey not Suitable to Estimate Abundance
    Adding to our science problems is the difficulty of generating an 
accurate estimate of butterfish abundance from the survey index. The 
habits of butterfish make it difficult to sample accurately in the 
standard federal trawl survey. It is increasingly clear that the survey 
only partially samples the butterfish population, likely 
underestimating abundance thereby generating scientific and management 
uncertainty. These uncertainties force precautionary decision-making 
when it comes to setting ACL which negatively impacts fishing 
activities directed at other species, in particular the Loligo squid 
fishery.

Allowable Biological Catch (ABC) Reductions
    During the time between the two stock assessments the butterfish 
ABC was reduced from 4,545 metric tons in 2004 to only 1,500 metric 
tons in 2010.

Annual Biological Catch, Annual Catch Limits and Accountability 
        Measures
    In 2012 the butterfish ABC is set equal to the ACL which allows for 
a harvest of 3,622 metric tons. To account for management uncertainty 
and other considerations the MAFMC applied a 10% buffer and an Annual 
Catch Target (ACT) of 3,260 metric tons was approved. Despite an 
apparent doubling of survey results, rigid uncertainty buffers continue 
to reduce yield from this stock when it is likely that harvest could be 
increased substantially on a sustainable basis.

Solutions
    We recommend expanding the current short-lived species exemption in 
the MSA to include species with brief life cycle characteristics (not 
just one year) that also experience a high rate of natural mortality.

2) Monkfish
A Fishery Management Plan is developed
    The directed commercial fishery for Atlantic monkfish did not begin 
to develop until the 1980s and landings increased substantially through 
the 1990s. In 1999, the New England Fishery Management Council 
developed the initial fishery management plan for monkfish and under 
pressure from NMFS, proposed to close the directed monkfish fishery 
permanently, citing concerns that the stock was so small it could not 
sustain a directed fishery.

NMFS Trawl Survey not suitable for estimating abundance
    The primary problem was that the NMFS survey vessels did not catch 
monkfish during the spring and autumn federal trawl surveys which were 
the only fishery independent data sources available to managers. At 
issue was the type of net being deployed on federal survey vessels (not 
designed to catch monkfish) and the speed at which the nets were being 
towed. Poor results from the survey resulted in inaccurate science 
which forced managers to conclude that the monkfish stock was in dire 
condition. Unfortunately, these data were being considered the best 
available scientific information by the NMFS.

Cooperative Efforts Yields Best Available Science
    In 1999, compelled by a pending permanent closure of the directed 
fishery, the fishing industry approached NMFS requesting funding for a 
pilot project to conduct a monkfish-specific cooperative trawl survey 
using federal scientists onboard industry vessels working with monkfish 
fishermen towing the appropriate nets at the correct speed.
    The Agency agreed to a small scale NMFS-Industry cooperative pilot 
project which proved successful. Based on the experience of the pilot 
project a federally-funded coast-wide cooperative monkfish bottom trawl 
survey was completed in 2001. The swept area biomass estimate 
calculated from that survey proved that the monkfish stock was 2 times 
larger than the estimate being used by NMFS to justify closing the 
directed fishery. Based on the results of the cooperative research and 
to NMFS and the New England Fishery Management Council's credit, the 
directed fishery was not closed and the fishery management plan was 
implemented with provisions that included a directed fishery.

Data Poor Status Persists
    Despite monkfish becoming one of the top three most valuable 
finfish species on entire the East Coast, ex-vessel value reported by 
NMFS as high as $44M in some years during 1995-2004; and $17M in 2009, 
the stock still remains on the Agency's ``data poor'' list. It is 
inconceivable that a core stock of such value continues to suffer from 
a lack of reliable scientific information.
    Despite the success of the 2001 cooperative survey, NMFS was not 
supportive of the monkfish survey and would not commit to a triennial 
survey, even though it was scientifically sound. The position of the 
NMFS was that a survey dedicated to monkfish was too expensive 
(approximate cost is $1.5M every third year) and consumed excessive 
staff time for data on just a single species.
    In light of NMFS's disinterest in continuing the monkfish survey 
the fishing industry was forced to seek earmarks from Congress to fund 
subsequent cooperative trawl surveys and try to improve the level of 
scientific understanding. Thankfully, Congress also recognized the 
value of the data generated by the monkfish survey and funded two 
additional surveys in 2004 and 2009 from the ``National Cooperative 
Research'' line item in the NOAA/NMFS budget.

Inconsistent Quotas Resulting from Inconclusive Assessments
    Due to the poor understanding of monkfish it has been difficult to 
determine if and when the stock was overfished and if overfishing was 
occurring. Annual quotas were set for the first 7 years of management 
using catches from the unreliable federal autumn trawl survey as the 
primary data input. Because the trawl survey was not suitable to 
estimate abundance, the result was fluctuating quotas and inconsistent 
fishing opportunities throughout the past decade.
    For example, the days available for fishermen to target monkfish in 
the directed fishery in the Southern Management Area (SMA), which 
covers New Jersey to North Carolina whipsawed from 40 days a year in 
2000 down to 28 in 2004, back to 39 in 2005, and down to a low of only 
12 days allowed in 2006. Fishing days were increased to 23 per year 
starting in 2007 and is set at 28 days for the current fishing season 
2010-2011.
    The monkfish quota fluctuated similarly since it was also linked to 
effort and autumn trawl survey data. In the SMA, the quota was reduced 
from a high of 21,325,318 pounds in 2005 to a low of 8,084,353 pounds 
in 2006--a precipitous near 40% decrease in one year due solely to a 
lack of reliable science and subsequent precautionary decision-making. 
In 2010-2011 the quota was set at 11,243,562 pounds.

Best Available Scientific Information
    Today, monkfish remains a data poor stock and no cooperative trawl 
survey is being planned by NMFS. Sadly, NOAA requested the ``National 
Cooperative Research'' line item contained in the FY2012 NOAA budget 
request be parsed into funding for other programs (e.g. to fund 
research in catch share fisheries and to develop eco-friendly fishing 
gear) thereby reducing survey funding opportunities and highlighting 
the agency's lack of commitment to improve monkfish assessment science. 
Despite this, industry efforts continue in 2011 to seek funding for a 
fourth and final monkfish survey to be conducted in spring 2012 but the 
current earmark situation has effectively undermined those efforts.

Annual Catch Limits and Accountability Measures
    The Secretary of Commerce recently implemented a final rule 
(Amendment 5; See 76 FR 30265) to bring the monkfish fishery management 
plan into compliance with the ACL and AM requirements contained in the 
reauthorized MSA. Among these new measures are formal consideration of 
both scientific and management uncertainties which, in the case of 
monkfish, have not improved measurably since the plan was implemented 
in 2000. Thus, we can expect more precautionary management decisions 
and buffers in the future with no clear plan to address the root cause 
of the problem which remains the lack of reliable scientific 
information.

Solutions
    We recommend the Agency conduct a fourth cooperative trawl survey 
in 2012 to ensure that the monkfish catch rates on the R/V Bigelow, 
NMFS' new vessel being used in the autum trawl survey, are calibrated 
with previous cooperative survey results. This continuation of the 
cooperative trawl survey will help to ensure that quotas are set based 
upon the best available science and will help to remove monkfish from 
the data poor list.
3) Atlantic Sturgeon

The Fishery and the Moratorium
    Historically, there was a large commercial fishery for Atlantic 
sturgeon during the early to mid 1990s. This directed fishery was by 
far the largest source of fishing-related mortality, reaching a 90-year 
peak of approximately 100 metric tons before being closed by the 
Atlantic States Marine Fisheries Commission (ASMFC) throughout the 
entire range from Maine to Florida, in 1998.

The First Endangered Species Act (ESA) Debate
    In September 1998, NMFS issued a ruling citing the entire suite of 
state and federal protective measures already in place, including those 
that were to be implemented, as reasons not to support an ESA listing 
of Atlantic sturgeon at that time. In fact, NMFS indicated that by 1998 
all state jurisdictions within in the U.S. range of the species had 
implemented complete prohibitions on both harvest and possession. (See 
63 FR 50189). In this same ruling, NMFS went so far as to honor the 
pending closure of the Exclusive Economic Zone (EEZ) as yet another 
critical conservation benefit that mitigated any need for an ESA 
listing. Consistent with the 1998 position, NMFS closed all federal 
waters to sturgeon fishing in 1999. The Agency stated that ``the 
duration of the moratorium is anticipated to be approximately 41 years 
from its initiation.'' (See 63 FR 50189).

The Present ESA Debate
    Today, just 12 years into a 41 year recovery plan, NMFS is 
proposing to list Atlantic sturgeon under the ESA and the Agency has 
never ever conducted a single sturgeon stock assessment. In fact, the 
Agency has never produced a full population estimate for any sturgeon 
DPS they propose to list on the entire East Coast. Instead, the NMFS 
stated on January 6, 2010 that the stock has now ``failed to recover in 
the time since a coastwise fishing moratorium was put in place in 
1998'' (see 75 FR 838) despite previously acknowledging 41 years would 
be needed to achieve full recovery. Proposing an ESA listing now, just 
12 years into a 41 year plan, with no population assessment is both 
disingenuous and remarkably unscientific.

Poor Data Persists
    To justify the proposed ESA listing of 2010 the NMFS claims that 
their ``best available scientific data'' is a single estimate of 870 
adults from the Hudson River from 1986-1995. Thus, the entire East 
Coast Atlantic sturgeon ESA listing is based on this ``best available 
scientific information'' which is not a stock assessment at all, which 
incorporates data points that are 25 years old, and which contains no 
information on stock condition since the species was afforded full 
protection in 1998-99. While the Agency has admitted they ``may likely 
underestimate current conditions'' (See 75 FR 839), they are unwilling 
to consider the recent scientific information collected by the New 
Jersey fishing industry and University of Delaware scientists during 
2009-2011.

Cooperative Science Yields New Data
    A NOAA grant was used to fund sturgeon tagging activities in the 
Mid-Atlantic Bight during 2009, 2010 and 2011. The work was conducted 
by researchers and an experienced New Jersey commercial fisherman using 
gillnets designed and fished in a specific manner to catch and release 
sturgeon.
    During 2009, researchers caught 55 individual fish in just 20 short 
sampling events with a single 100 meter gillnet. There were no 
recaptures and 54 of the fish were reported mature. The fish averaged 
163 cm in length and ranged from 120-226 cm.and 12 of the fish (21.8% 
of the total) were larger than 200 cm long. Of particular interest is 
the existence of many very large fish which NMFS considers to be 
exceedingly rare. The information being cited by NMFS to support an ESA 
listing includes the opinion that fish larger than 200 cm are rarely 
observed and corresponds to an age range of 11 to 20 years.
    During 2010, researchers caught 54 individual fish in17 short 
sampling events. There were no recaptures (of 2009 or 2010 tagged fish) 
and 50 of those fish were also reported mature. The fish averaged 163 
cm in length and ranged from 119-230 cm. At least thirteen of these 
fish (24.1% of the total) were larger than 200 cm.
    During 2011, researchers caught 214 individual fish in just 29 days 
of sampling effort. There were 5 recaptures of fish tagged in 1994 and 
no recaptures of fish tagged in 2009 or 2010. Thirty six of these fish 
(16.8%) measured larger than 200 cm and ranged from 71-237 cm in total 
length.
    In just 66 sampling days during 3 brief spring seasons, scientists 
and one NJ fisherman caught and released 323 individual sturgeon. 
Genetic data indicate these fish represent approximately 16% of the 
NMFS estimate of the entire Hudson River adult population. The highest 
rate of catch recorded during the 3-year study was in 2011 when 20 
individuals were caught in just a single day of fishing a 100 meter 
gillnet. Also caught and released were at least 140 mature fish so 
large (and old) they are considered to be virtually non-existent in the 
report used by NMFS to justify the proposed ESA listing.

Old Data or Best Available Science
    Despite having no reliable stock assessment on Atlantic sturgeon 
and after industry has demonstrated that large fish previously thought 
rare are actually relatively abundant, NMFS does not appear willing to 
accept the results of the tagging research. The new tagging data were 
submitted to NMFS during the public comment process. In fact, these 
data may not even be considered in the peer review process of the 
Agency's 2011 ESA listing process for reasons we simply cannot 
comprehend.

ESA Impacts on Other Directed Fisheries
    When commercial fishermen are harvesting Atlantic monkfish, in the 
Mid-Atlantic region and elsewhere along the East Coast they may 
inadvertently interact with Atlantic sturgeon. As sturgeon abundance 
increases so too does the probability that sturgeon may come in contact 
with fishing gear set for species other than sturgeon. Common sense and 
sound fisheries management scientific principles dictate that as 
Atlantic sturgeon benefit from full-scale management protection 
throughout their range they naturally will rebound and become 
numerically more abundant.
    Our concern is that NMFS will once again gravitate toward 
precautionary decision-making to the detriment of the fishing industry 
and coastal economies. Unfortunately, this is precisely where NMFS is 
headed regarding Atlantic sturgeon, all directly attributed to a lack 
of scientific information and the lack of agency commitment to generate 
it.

Solutions
    We recommend NMFS be required to conduct a sturgeon stock 
assessment immediately using the best available science to determine 
the coast-wide condition and abundance of the stock and to inform the 
ESA listing process.

4) Atlantic mackerel
The Mackerel Fishery and US Production
    In 1976, the U.S. established control of the Atlantic mackerel 
fishery with the enactment of the Magnuson -Stevens Fishery 
Conservation and Management Act. In the early 1980's landings were 
about 3000 metric tons and increased to more than 30,000 metric tons. 
In an effort to Americanize the fishery and with considerable 
investment from U.S. shoreside companies, U.S. exports of all mackerel 
products totaled 55,858 mt valued at $58.2 million in 2006. In 2007, US 
exports of all mackerel products totaled 30,380 mt valued at $34.0 
million. Recent catches have decreased dramatically due to lack of 
availability, lack of effort and other unknown causes. A ``regime 
shift'', due perhaps to climate change, is one suspected factor since 
catches in Newfoundland are increasing while U.S. domestic catches are 
a fraction of what they once were.

The Stock Assessment Process
    In January of 2006 the Scientific Assessment Review Committee 
(SARC) held its 42nd Northeast Stock Assessment Workshop (SAW) and 
assessed the health of the Atlantic mackerel resource. At the time of 
that assessment, the Status Stock Determination for Atlantic mackerel 
was the stock was not overfished and that overfishing was not occurring 
and that the annual total catch should not exceed 186,000 metric tons.
    In 2009, due to the trans-boundary nature of the Atlantic mackerel 
resource in the northwest Atlantic region, the NMFS decided to conduct 
a joint stock assessment with the Canadian Department of Fisheries and 
Oceans through the Trans-boundary Resources Assessment Committee (TRAC) 
process, setting aside the U.S. SARC process that had been used in the 
past. The TRAC concluded that the status of Atlantic mackerel is 
unknown and also recommended that annual total catches not exceed 
80,000 metric tons, for both countries, using average catches as a 
proxy for an overfishing level (OFL).

The Disadvantage of a Trans-Boundary Resource to Domestic Fisheries
    While US producers' opportunity to harvest Atlantic mackerel was 
reduced by more than 140,000 metric tons, literally overnight, the 
Canadian government ignored the TRAC advice, allowing the Canadian 
industry to take as much as 65,000 metric tons, of the 80,000 metric 
tons, for themselves. Furthermore, U.S. law requires Canadian catches 
to be deducted from the U.S. ABC calculation and Canada's fishermen are 
under no current obligation to fish within U.S.-established MSA 
resulting in a preferred competitive position for Canada. While catches 
off the Newfoundland shores are increasing, the potential for this 
trans-boundary resource to be harvested solely by Canada is real and 
will harm the interests of U.S. fishermen.

A Formal Sharing Agreement in Needed
    Congressional action is necessary to require the U.S. government to 
implement an Atlantic mackerel resource sharing agreement with Canada 
and begin to budget and plan for the bilateral Atlantic mackerel 
research program identified by the TRAC two years ago. The U.S. fishing 
industry has requested that the NMFS pursue and secure a resource 
sharing agreement with Canada which could implement a research agenda 
between the two countries and make it possible for an exemption from 
control rules that reduce potential U.S. quotas.

Science and Statistical Committee Quota Recommendation
    This year, the Mid Atlantic Fishery Management Council's (MAFMC) 
Science and Statistical Committee (SSC) again used the 2009 TRAC 
results to set an Acceptable Biological Catch (ABC) of 80,000 metric 
tons for both nations' fisheries, as best available science for the 
2012 fishing year.

Annual Biological Catch, Annual Catch Limits and Accountability 
        Measures
    Following the SSC's determination of the ABC, the MAFMC, citing 
additional concerns about the stock beyond those already considered by 
the SSC, decided to invoke a more conservative interpretation of the 
National Standard 1 Guidelines concerning the application of scientific 
uncertainty and further reduced the U.S. quota.
    After considerable discussion and some confusion about where the 
line between management uncertainty and scientific uncertainty should 
be drawn, the MAFMC applied an additional 15% buffer to the commercial 
quota for mackerel, which had the effect of further reducing the quota 
to an Annual Catch Target (ACT) of 34,907 metric tons.
    Due to rigid MSA requirements and confusion among fishery managers 
about whether or not the law requires the production of sustainable 
fishery yields or the application of layers of scientific uncertainty, 
the U.S. mackerel fishery which has not been declared to be overfished, 
has seen significant quota reductions.

Solutions
    We recommend requiring the U.S. government implement the start of a 
research agenda with Canada and also consider the shared stock status 
of the Atlantic mackerel resource and implement an exemption from the 
MSA control rules that reduce potential U.S. quotas.

Conclusions
    Our written testimony is distilled from attending 7 years of 
fishery management meetings regarding these species and from countless 
documents provided by the NMFS, NEFSC and MAFMC. We have attempted to 
provide the Subcommittee with the relevant information about these 4 
stocks, the condition of the science, the real impacts on the 
management and in some cases, the impacts on our fishing activities and 
quotas.
    The ACL and AM requirements of the MSA are creating standards that 
are apparently beyond the capabilities of our current fisheries science 
program, resulting in layers of uncertainty that are reducing fishery 
yields. The National Standard 1 Guidelines (NS1) have evolved to 
include such a level of precautionary decision-making that considers 
both scientific and management uncertainty, that we believe prevents 
the U.S. fishing industry from achieving optimum yield.
    Furthermore, even for stocks not being overfished or where 
overfishing is not occurring, or specifically when stock assessments 
yield inconclusive results, we may never reach the optimum yield 
benchmark. This is the true weakness of U.S. fisheries management 
policy yet achieving optimum yields is the cornerstone objective of 
MSA.
    The U.S. fishing industry needs strong support from Congress to 
increase the NMFS science budgets and require that research be of 
stock-assessment grade quality. Furthermore, Congress needs to require 
NMFS to produce the necessary information to meet its management 
objectives or adjust the MSA implementation requirements to reflect a 
better balance consistent with the state of our knowledge. If this is 
not accomplished we are destined to continue this disturbing trend of 
quota reductions and lost economic opportunity.
                                 ______
                                 
    Mr. Fleming. OK. Thank you, sir. And next up is Mr. Gauvin.

STATEMENT OF JOHN GAUVIN, FISHERIES SCIENCE PROJECTS DIRECTOR, 
                  ALASKAN SEAFOOD COOPERATIVE

    Mr. Gauvin. Thank you, Mr. Chairman and Members of the 
Committee. For the record, I am John Gauvin. I am a fishery 
economist, the Science Director for the Alaska Seafood 
Cooperative, and I have been involved in fishery science in 
Alaska since 1993.
    The question today is whether NOAA's baseline science is 
costing jobs in groundfish fisheries in Alaska. And I say the 
answer is yes. It took me nine pages of testimony in written 
form to get to that, and the answer is because it is 
complicated.
    The one area of concern I have for NOAA science in Alaska, 
it is these duties to evaluate the effects of fisheries on 
protected resources and listed species under the Endangered 
Species Act. There, there is a lack of good, fundamental, 
objective science. In my opinion, NOAA has relied on 
substandard science, biased approaches, and faulty review 
processes in its science related to--particularly to the 
Steller sea lion and the biological opinions and recovery 
plans.
    The result has been that key fisheries in the Aleutian 
Islands have been closed. We estimate $60 million annual loss 
in revenues in those fisheries to fishing boats and the 
processing sector, boats that are now tied up and processing 
facilities that are idle for months when they normally would be 
fishing for Pacific cod and Atka mackerel, and communities at 
risk in Adak and Atka.
    In my opinion, this didn't need to happen, and I think 
application of good science would have prevented it. My remarks 
cover extensively the good science that NOAA is doing, and the 
Alaska Fishery Science Center's commitment to funding fish 
surveys on an annual basis, the high quality stock assessments, 
state-of-the-art research on ecosystems, and fish habitat.
    I personally know that the agency has a willingness to 
engage in cooperative research to find creative solutions to 
issues like bycatch and reducing seafloor contactive trawling. 
I think in the stock assessment process we have an open and 
transparent review process. We have a plan team SSC process 
that is comprehensive and allows outside scientific input in a 
meaningful way.
    I feel that this is a good story in Alaska. However, every 
year there are threats to the funding in these surveys. When I 
read about marine spatial planning and oceans councils and 
regional ecosystem protection restoration initiatives from 
headquarters, I am concerned that money will be pulled away 
from these fundamental stock assessment surveys so critical, 
and by critical I mean that with increased cost to us of 
uncertainty, I would estimate that by just changing the stock 
assessment to every other year in the Bering Sea, we might 
reduce our annual catch limits by 30 or 40 percent. That is 30 
or 40 percent of 2 million metric tons harvested annually.
    My chief complaint on the NOAA science in Alaska is the 
shortcomings with approach to applying science to protected 
resources and ESA listed species. NMFS is responsible for 
preparing biological opinions and recovery plans, and in this 
process, I think they have used a very closed process, without 
transparency, that lacks opportunities for meaningful public 
input or input from outside scientists. They have used 
timelines that are unrealistic and don't allow for meaningful 
comment and input by the North Pacific Fishery Management 
Council and the public.
    And in their attempts to review these opinions using 
scientific reviews, the agency is pushing for use of the Center 
for Independent Experts, a NOAA-funded program, which I believe 
is a closed process, has little opportunity for input from 
outside scientists. And in this case, the agency is pushing for 
a process that does not allow evaluation of the conclusions of 
their biological opinion.
    I feel the reforms that need to be made in Alaska are 
simple. We need the agency doing protected resource analyses 
and biological opinions to have a timeline that allows for 
constructive review of drafts, not just final products, have a 
requirement for outside review in the development stages of 
biological opinions, use of a transparent, open process and 
transparent standards for evaluating effects of fisheries on 
listed species are needed.
    We need an independent review process that uses a 
transparent process similar to the one that the States of 
Washington and Alaska are putting together for their review of 
this biological opinion, and I think that NMFS could, you know, 
open up their terms to match those of the State's independent 
review.
    And finally, Mr. Chairman, I would like to talk about one 
example where I feel NMFS isn't doing research in Alaska where 
it should be. The North Pacific Research Board and a private 
foundation called the North Pacific Fisheries Foundation have 
funded a project to tag active mackerel in the Western Aleutian 
Islands. This project would elucidate key information on 
mackerel movement and whether fishing in outside areas is 
actually able to catch the fish inside near Steller sea lion 
rookeries.
    The project would use NMFS' own scientists for most of the 
scientific methods and field work. It has been funded and was 
scheduled to occur in 2011-2012. I learned recently that NOAA 
is canceling this research. I haven't exactly ascertained the 
reason for this, but I believe it has to do with their concern 
over litigation in catching any fish at all in the Western 
Aleutians. However, I believe this is not really a concern 
because the research wouldn't involve much fish harvest. But 
this is critical information to answering the questions about 
whether fisheries are competing with Steller sea lions in this 
area, and we are pushing the agency to take a hard look at 
doing this research and following through with their commitment 
to collect the data necessary to understand the sea lion 
fisheries competition issue.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gauvin follows:]

         Statement of John Gauvin, Fisheries Science Director, 
                       Alaska Seafood Cooperative

    Thank you Mr. Chairman. For the record, my name is John Gauvin. I 
am a resource economist and have been involved in both applied research 
and the use of science in fisheries management in Alaska since 1993.
    I would first like to express my gratitude to you Mr. Chairman and 
to the members of the Subcommittee for the opportunity to provide my 
perspective on NOAA's science activities in support of the management 
in federal waters groundfish fisheries in Alaska.
    My area of specialization has been applied research on bycatch 
reduction, effects of fishing on habitat, management systems to 
increase economic efficiency, and approaches to implementation of 
ecosystem management in Alaska fisheries. I am currently the fishery 
science director for the Alaska Seafood Cooperative and also 
simultaneously direct several cooperative research projects in Alaska 
and the Pacific Northwest for clients including the North Pacific 
Fisheries Research Foundation, Environmental Defense Fund, and other 
governmental and non-governmental organizations. Finally, I have served 
on the board of the North Pacific Research Board since 2001 and I was a 
recipient of NOAA's Environmental Hero Award in 2000 for conservation 
engineering extension work with the flatfish trawl industry in the 
Bering Sea.
    I would like to title my testimony today as: ``NOAA's science to 
support fishery management in federal fisheries off Alaska: The Good, 
the Bad, and the potentially Ugly''. To summarize my perspective today, 
I would say that there is a lot of good that can be said about NOAA's 
role in providing the fundamental science products needed to support 
the economically important commercial fisheries in federal waters off 
Alaska. This is not to say that NOAA's science in the North Pacific is 
beyond reproach and I will talk about one important shortcoming where I 
feel there is a great deal of room for improvement. But I will start 
with where things are going well and outline the importance of 
continuing that important work to support sustainable fisheries.

The Good:
    The Alaska Fisheries Science Center (AFSC) plays a crucial role in 
providing supporting science across an ever-increasing set of issues, 
scientific domains, and regulatory mandates. AFSC's role in Alaska to 
furnish baseline science has expanded in step with the complexity of 
fishery management. This tracks the ever increasing set of demands by 
public, industry, environmental, and governmental stakeholders who 
insist that fisheries be managed sustainably based on the best peer-
reviewed science while providing food, employment, and recreation to 
the nation.
    If one peruses the Alaska Fishery Science Center's (AFSC) website, 
the breadth of the Center's fishery science mission becomes evident. 
The AFSC provides science products and services for everything from: 
Fisheries Assessment Surveys; North Pacific Groundfish Observer 
Program; Ecosystem Monitoring and Assessment; Habitat Assessment and 
Marine Chemistry; Genetics- Stock Identification; Fishery Ecology Diet 
and Zooplankton; Age and Growth; Stock Assessment and Multispecies 
Assessments; Economic and Social Sciences Research; Bering Sea 
Integrated Ecosystem Research Program; Resource Ecology and Ecosystem 
Modeling; Conservation Engineering; Marine Mammal Research; and Studies 
of loss of Sea Ice. All of these are important at some level to 
managing sustainable fisheries in Alaska given the expectations at the 
scientific and fishery management arena for everything bundled into the 
concept of ``sustainability'' and management of the effects of fishing 
on the ecosystem.
    Of the above disciplines within fishery science at the AFSC, I work 
closest with the Conservation engineering, Stock Assessment, and 
Resource Ecology and Ecosystem modeling branches and I am pleased to 
say that I think the AFSC does a remarkable job providing the science 
needed to meet the ever-increasing mandates for sustainable management 
of our fisheries in Alaska in those areas.
    I can also tell you from experience that when we proposed 12 
fisheries for flatfish and cod for certification by the Marine 
Stewardship Council (MSC), the gold standard of independent 
sustainability certification, I came to appreciate even more the solid 
science that goes into our fishery management system. The standards for 
certification for harvest strategy, fishery management, and management 
of ecosystem effects of fishing embedded in the MSC certification 
process could not have been met if we had mediocre baseline science 
coming out of the AFSC. Meeting those standards, and obtaining MSC 
certification, has allowed us to access a growing set of markets in 
Europe and elsewhere that would otherwise not be available to our 
industry.
    From my numerous cooperative research endeavors with NOAA 
scientists in its Resource Assessment & Conservation Engineering, 
Groundfish Observer Program, and Resource Ecology and Fishery 
Management divisions, it is my experience that these divisions have 
eagerly made their scientists available to assist the fishing industry 
in conducting research to modify fishing practices to address 
sustainability concerns and environmental effects. This research has 
been carried out through partnerships designed to take advantage of 
relative skills of each party within a setting of mutual trust and 
respect. This work has been successful in bringing fishermen's 
knowledge of fish behavior, the environment, and fishing gear into 
scientific exchanges with AFSC researchers. Impressive reductions in 
bycatch, reduced impacts of fishing gear on habitat, other creative 
solutions and even gains in catch efficiency/reduction in fuel use have 
been accomplished through these partnerships.
    As part of the work I do the Alaska Seafood Cooperative, I review a 
wide set of NOAA's science products on a regular basis to ensure they 
are sound and that the content is being correctly interpreted. From my 
experience doing this work every year I can say that NOAA's fishery 
stock assessment and ecosystem modeling studies in Alaska are generally 
of the highest quality available. Several scientists at the AFSC are 
world-renowned and in high demand internationally for workshops and 
symposia. NOAA staff and scientists in these divisions work hard, and 
we appreciate it.
    In my view, this high quality science standard has been achieved 
both through the funding commitment that NOAA has made through the 
AFSC, and because the Center in most areas has not been afraid to open 
its process to outside, independent peer review. Independent review in 
the development stages of modeling and stock assessments is, in my 
opinion, critical to achievement of a high quality science process. I 
would like to touch on each of these.
    First off, in order to successfully manage sustainable fisheries, 
you have to have good basic data. In Alaska, the AFSC has conducted 
annual trawl surveys in the Bering Sea and bi-annual surveys in the 
Gulf of Alaska and Aleutian Islands for an impressive time series. The 
annual trawl surveys in the Bering Sea are the basic underpinning of 
stock assessments and ecosystem models for some of the nation's largest 
fisheries. We are very fortunate to have had NOAA's commitment to 
prioritize that work because it is this top-notch science that has 
allowed the large scale fisheries of the Bering Sea to be managed 
sustainably. Overall, Alaska produces over half the nation's seafood 
landings, worth billions of dollars and tens of thousands of jobs on a 
long term sustainable basis. Simply put good science means sustained 
jobs and revenues for the nation.
    One of the other important factors in good science is having a 
trusted process that builds confidence in management. An open peer 
review process is key to building this trust and critical to 
maintaining the quality of the science. One of the best peer review 
processes takes place through the North Pacific Fisheries Management 
Council. Periodic outside review and annual review by both Plan Teams 
and the North Pacific Council's Science and Statistical Committee are 
key ingredients in what makes the Alaska management process work. The 
success of this scientific peer review is that it is transparent, and 
science driven. This review includes opportunities for non-governmental 
scientists from academia, the industry, environmental organizations, 
and other interests to participate in an open and public manner. 
Transparency builds confidence in the science, and thus the management 
decisions that are made based on the results of that science.
    Unfortunately, both of these key factors are at risk. Every year 
there are new threats to the funding for trawl surveys and other 
scientific work that is fundamental to fisheries management in Alaska. 
I cannot overemphasize the potential downside in terms of loss of 
management precision for fishery resources in Alaska that would occur 
if NOAA's funding for resource surveys is reduced, or redirected 
elsewhere. As I read about NOAA's national priorities for a National 
Ocean Council, Marine Spatial Planning, and Regional Ecosystem 
Protection and Restoration Initiatives envisioned at the national 
level, I grow increasingly concerned that the funding at the regional 
level to support the AFSC, Alaska Regional Office, and the North 
Pacific Fishery Management Council will be redirected to help fund 
different priorities set by NOAA headquarters. In these times of 
limited fiscal resources one has to question whether redirecting 
baseline funding to the latest idea at the Headquarters level is an 
appropriate use of tight federal funds.
    I personally do not believe that moving funds needed for fishery 
science to cover such initiatives at the national level will improve 
our ability to conserve and manage resources sustainably in Alaska. The 
simple fact is that with any reduction in the scope of these surveys or 
their interval will result in more uncertainty. This could lead to a 
reduction in yields even where groundfish populations are increasing. 
With less frequent surveys, uncertainty increases and harvest 
strategies must be reduced to avoid potential for overfishing. I have 
little doubt that if the AFSC conducted the groundfish trawl surveys in 
the Bering Sea every other year instead of every year, the allowable 
catches in the Bering Sea pollock fishery and other important fisheries 
for cod and flatfish would be reduced on average by at least 30 to 40% 
in the absence of any change in the actual abundance of these stocks. 
The downstream effect on fishery yields would have dramatic effects on 
the economies of Alaska, Washington, and Oregon in terms of employment 
losses, effects on coastal infrastructure that supports fishing, and 
loss of domestic and export earnings for the nation.

The Bad:
    With all the glowing examples above it is clear that for the most 
part I believe NOAA is doing a great job providing the a high quality 
science product to support fishery management in Alaska. But I am also 
concerned with recent indications that NOAA is moving to closed door 
peer reviews when it comes to review of the science it does pursuant to 
the Endangered Species Act, protected resources, and marine mammals. As 
I have mentioned above, I believe the open and transparent standards 
for peer review process are critical and this is being undermined in 
this area in particular.
    For review of its recent sea lion biological opinion in Alaska, 
NOAA has turned to a closed peer review with no public involvement 
instead of the more open and transparent peer review normal to the 
Council process. This closed process will take place through the Center 
for Independent Experts (CIE), a NOAA funded process. The problem with 
the CIE is that it is conducted without public involvement or any 
opportunity for presentations of scientific information except that 
provided by NOAA and the CIE is barred from commenting on the 
conclusions reached by the agency in the BiOp.
    Despite several overtures from the North Pacific Fishery Management 
Council, as well as the States of Alaska and Washington, NOAA remains 
steadfast in its determination to only use the CIE to review the 
science in its recent sea lion Bi-op. The States of Alaska and 
Washington are currently conducting an independent scientific review. 
To their credit, they have held public sessions where experts from all 
interests, including NOAA, were invited to present scientific 
information on the topic. Instead of sending someone knowledgeable 
about the BiOp to the first of two planned sessions, NOAA sent one 
individual who played a relatively minor role in its development--in 
essence they boycotted the session. The States just released a first 
draft of their review of the sea lion Bi-op for public comment. Whether 
or not NOAA will elect to participate in a cooperative or meaningful 
manner in the final session and the remainder of the review is not 
known at this time.
    It is important to recognize that the States have set a new 
standard for open peer review of controversial matters related to 
science done for protected resources and ESA listed species. It is 
unfortunate that NOAA is continuing to rely on an outdated process with 
its lack of transparency, especially in matters that are controversial. 
In my view, this lack of transparency will only serve to undermine 
confidence in NOAA's science programs. NOAA should follow the example 
of open process and transparency set by the States of Alaska and 
Washington.
    This leads me to the broader issue I have with NOAA's approach to 
scientific work done to manage effects of fishing on marine mammals and 
protected or ESA listed species. For whatever reason, NOAA tends to 
move away from a scientific approach when it undertakes assessments of 
effects of fishing on marine mammals. This shows up in its development 
of biological opinions and other analyses in ESA Sec. 7 consultations, 
recovery plans and other aspects of NOAA's Endangered Species Act 
duties. I will provide a set of examples below.
    As I mentioned above, the Alaska Regional Office of NMFS recently 
developed a biological opinion on the Western Distinct Population 
Segment (WDPS) of Steller sea lions. The area in question is the 
Aleutian Islands, an island chain spanning roughly 1,200 miles from 
east to west divided into three management areas: western Aleutians, 
central Aleutians, and the eastern Aleutians. The resulting regulations 
closed all fishing for Pacific cod and Atka mackerel in western 
Aleutian Islands including vast areas outside of Steller sea lion 
critical habitat. They also severely curtailed fishing for those 
species in central Aleutians, and reduced areas open to fishing in the 
eastern Aleutians. While sea lion numbers have decreased markedly in 
the western Aleutians and to a lesser extent in the central Aleutians, 
the science used in the development of this latest sea lion biological 
opinion was highly controversial, and did not, in my opinion and the 
opinion of many outside experts, consistently use the best available 
data. Overall, the biological opinion at best suffered from a very 
narrow perspective that appeared to be designed to justify a 
predetermined conclusion that fishing had to be closed in these areas.
    The comments of the Alaska Seafood Cooperative, University of 
British Columbia, Adak Community Development Corporation, and several 
other stakeholders/affected communities as well as the Science and 
Statistical Committee of the North Pacific Fishery Management Council 
pointed out some glaring shortcomings to NOAA's draft Biological 
Opinion. Here are a few examples:
        1.  The use of scientifically inappropriate techniques in the 
        analyses of the effects of prey removals by commercial 
        fisheries as a percentage of local groundfish abundance. When 
        the standard techniques, those used by NOAA's own scientists in 
        the stock assessment process, were later applied in the final 
        draft Bi-op, these correctly done calculations essentially 
        removed the Bi-op's basis for asserting that cod and Atka 
        mackerel fishing was taking a higher percentage of local fish 
        populations in the Aleutian Islands. In acknowledgment of this 
        fundamental error, NMFS's final Bi-op listed the new 
        calculations in obscure tables in the document but ignored the 
        new findings and left the old estimates in its conclusions and 
        rationale for the closures NMFS finally adopted.
        2.  Analyses of how much sea lion food per individual sea lion 
        were done using inappropriate spatial comparisons. Again, when 
        the analysis was done correctly in the final Bi-op, it showed 
        that the ``forage ratios'' (amount of forage fish in the 
        Aleutian Island per individual sea lion) are actually higher in 
        the Aleutians than other areas where sea lions numbers are 
        increasing. As in the above example, this corrected analysis 
        was ignored in the final Bi-op's conclusions.
        3.  Use of data from just three individual tagged sea lions 
        (out of a population of approximately 50,000) to conclude that 
        offshore banks in the western Aleutians, well outside of SSL 
        critical habitat, were important to sea lions and therefore 
        should be closed to fishing. This assumption was roundly called 
        into question as not scientifically justified. Nothing was done 
        to correct this in the final Bi-op.
        4.  Single-species models runs in the draft and final Bi-op 
        used to show that fishing restrictions would increase the 
        amount of fish available to sea lions. These overly simplistic 
        estimates were used in favor of NOAA's own available multi-
        species models and per-reviewed ecosystem modeling. In this 
        part of the Bi-op, NOAA also failed to take into account the 
        most recent information that Atka mackerel abundance which is 
        currently at high levels in the western Aleutian Islands. The 
        final Bi-op still asserts that mackerel abundance is at low 
        levels in the western Aleutians but the new survey results were 
        available well in advance of the drafting of the final Bi-op.
        5.  Premise that fishing is competing with foraging and 
        affecting SSL natal rates based on studies done outside the 
        Aleutian Islands. This was a glaring example of NMFS' 
        selectively choosing which scientific opinion would bolster its 
        preconceived determinations. NMFS chose to base its case on an 
        overridingly narrow selection scientific papers and results, 
        and specifically ignored, mischaracterized, or dismissed a long 
        list of other peer-reviewed science where conclusions differed 
        from those of NMFS Protected Resources division.
    Biological opinions are required to use the best available science 
and make a reasoned and balanced assessment of the available scientific 
information to inform the opinion. The ESA does not give license to 
subjectively choose which science to consider, to use non-standard 
analytical methods, nor to dismiss out of hand the work of 
internationally recognized experts. A big part of the problem is the 
lack of concrete management standards, and a consistent and uniform 
manner for implementation. An effective peer review in the development 
of biological opinions is sorely needed to ensure balanced science is 
applied. I am clearly not the only one who sees this shortcoming with 
NMFS' role in assessing effects of fisheries on ESA listed species, 
this has also been observed by NMFS' own former chief scientist as I 
will point out below.
    A big step in reshaping the process of development of biological 
opinions for ESA listed species would be to make that process more open 
and more subject to technical and scientific review from the outset. In 
our experience, those involved in the development of biological 
opinions are not required to engage in meaningful internal or external 
peer review of the science used for development of their biological 
opinions. It should be mandated that they work within the same review 
standards that stock assessments, habitat effects analyses, and 
ecosystem models operate under. An open process, with adequate time for 
all parties to review the data and the analyses is totally lacking in 
the current biological opinion process.
    Additionally, implementing procedures for thorough and timely 
review would avoid the problem that occurred in the recent sea lion Bi-
op where self-imposed agency deadlines and the fear of litigation (if 
one reads the administrative record) trumped the need to correct 
fundamental problems with the basic constructs of the biological 
opinion. Some stakeholders believe the time schedule was developed 
intentionally by the authors of the Bi-op to circumvent concrete 
review. Whether that was the case or not, if the system was set up to 
allow adequate transparent scientific review early on during the 
development of the Bi-op, the ability to drive a pre-determined outcome 
would be greatly reduced, and there would be more confidence in the 
final result.
    In making the above criticisms and suggestions, I should point out 
that others have seen the same problems with NMFS' science in support 
of protected species and ESA-listed species and marine mammals in 
particular. Similar views were expressed in a January 2011 programmatic 
review of the NOAA's science programs by Drs. Sissenwine and Rothschild 
(NMFS' former chief scientist for many years and Dr. Rothschild is 
professor emeritus at the University of Massachusetts at Dartmouth's 
School of Marine Technology and Science). Their review, entitled: 
BUILDING CAPACITY OF THE NMFS SCIENCE ENTERPRISE, states: (Page 68 with 
emphasis added)
        One important category of scientific product of the Alaska 
        Fisheries Science Center that is not subjected to a formal 
        process of quality assurance is scientific input to Agency 
        decisions under the Endangered Species Act (e.g., listing 
        decisions, recovery plans, jeopardy decisions). The science 
        underlying these decisions is often subjected to intense 
        scrutiny after the fact (for example, an NRC review of factors 
        that potentially threaten Alaskan Stellar Sea Lions), but this 
        is not an appropriate alternative to a credible (with some 
        independent experts, transparency, stakeholder buy-in) pre-
        decisional quality assurance processes similar to the ones used 
        for fishery management decisions.
    I believe that the recent SSL Bi-op in Alaska is the very 
unfortunate outcome of a flawed process and is responsible for annual 
revenue loss that NMFS' itself concluded was approximately $60 million. 
Fishermen that depended on those fisheries unfortunately are now tied 
up at times of the year when mackerel and cod fishing in the Aleutians 
would be going on. There are fewer crew members employed and 
communities such as Adak that are attempting to develop their economy 
based on shoreside fish processing activities and vessel support 
services in the Aleutian Islands are clearly in danger of permanent 
failure and abandonment.
    Most unfortunate in the process was that one of NMFS' own 
scientific studies, which had undergone full peer review, could have 
provided the basis for allowing some fishing in areas where the fishing 
was known to harvest as little as 5% of the local abundance of Atka 
mackerel. But that study was essentially ignored. Instead the Bi-op's 
authors relied on their own non-standard methods to evaluate amount 
harvested of local mackerel abundance. The methods used in the Bi-op 
even departed from the prescribed stock assessments methods and with 
this NMFS concluded that fishing was creating negative effects on SSL 
feeding opportunities.
    In its efforts to find a viable landing place short of closing 
fisheries, during a special meeting held during the brief public 
comment period for the draft SSL Bi-op, the North Pacific Fishery 
Management Council developed an alternative for fisheries mitigation in 
the western Aleutians. That alternative was based in part on the 
results of several published scientific studies done by NMFS' own 
Fisheries Interaction Team (part of the Alaska Fisheries Science 
Center. The studies are available at the following url: http://
afsjournals.org/page/fidm/specialsections). The mackerel tagging 
studies the Council used in its alternative were based on data from 
recoveries of tagged Atka mackerel. These returns were evaluated to 
characterize movement of mackerel and elucidate whether fishing in 
areas open to the fishery affected mackerel abundance inside rookeries. 
The tagging studies also developed estimates of local mackerel biomass 
so that amounts removed in the fishery could be evaluated and 
controlled to be under five percent (a benchmark in the Bi-op itself 
that would prevent localized depletion). But the NPFMC's alternative 
was thoroughly dismissed by NMFS along with all other ideas for 
mitigating fishery effects save closing down fishing for mackerel and 
cod in its entirety.

The Potentially Ugly:
    I have already said that good management is founded on good basic 
data. In order to get good data, there also needs to be a commitment to 
do the field work to get it.
    NOAA has said that it will conduct mark/recapture (branding) and 
telemetry work on sea lions in the western Aleutians in 2011. This will 
surely be a big improvement over the data used in the recent Bi-Op 
where location information from three non-resident juvenile SSL was 
used to as a rationale for extending the scope of the fishery closures 
to include areas outside of critical habitat. NMFS' stated commitment 
to do some branding and telemetry research on SSL in the western AI is 
a good step forward in support of addressing the huge holes in the 
science NMFS used to put the current closures in place. But that 
information will only address one piece of the puzzle and information 
on fish movement and local biomass is also needed.
    Another critical piece of information was slated to be addressed in 
research in 2011 and 2012 but NMFS has apparently decided to cancel or 
postpone the research. That project was funded in part by the North 
Pacific Research Board. The project was an extension of the mackerel 
tagging work to the western Aleutians and it was slated to take place 
in the summer and fall of 2011 and early 2012. At this point we are 
unsure of the agency's rationale for this decision.
    The Fisheries Interaction Team of the AFSC had been successful in 
applying for North Pacific Research Board for funding to conduct an 
Atka mackerel tagging and tag recapture experiment in the western 
Aleutian Islands. Part of the reason this project was successful in 
obtaining NPRB funding was that it is vital new information and it was 
supposed to occur in the area where the management questions 
surrounding effects of fishing on sea lions are the most critical. The 
mackerel research was also partially supported by the North Pacific 
Fisheries Foundation, which had committed to supply vessels for the 
tagging and tag recovery as well as other logistics. The Foundation's 
funding was specifically designed to help NMFS conduct research in this 
critical area with minimal use of NMFS' limited resources.
    The previous mackerel tagging research had progressed to cover 
nearly all fishing areas in eastern and central Aleutians and a series 
of peer reviewed publications had been generated which highlighted the 
low exploitation rates in most the areas that used to be fished. 
Although NMFS had largely ignored this information in the rush to do 
the recent Bi-op, there was still some potential for consideration of 
this type of information in the development of more surgical mitigation 
measures in a trailing process through the NPFMC.
    Now, with the biggest information needs clearly in the western 
Aleutians, NMFS has apparently opted not to conduct the mackerel 
tagging research that NPRB and an independent foundation had provided 
funding for. The reason NMFS made this decision is not clear. Informal 
dialogue with AFSC officials has generated one possible reason being 
the agency's concern over litigation if any catch of mackerel is 
allowed in the western Aleutians. This is a spurious issue, in our 
view, as amounts of fish taken in the tagging studies are a very small 
fraction of the harvest levels prior to the closures and would surely 
have no negative effect. NMFS may also be concerned that the field 
research would require a separate Section Seven formal consultation 
under the ESA or this could just be a policy decision. We just don't 
know.
    However, from the perspective of the industry and affected 
communities we know that a broader scientific baseline is needed to 
evaluate the assumed effects of fishing on SSL in the western 
Aleutians. NMFS' cancelation of the mackerel tagging study is very hard 
to accept.
    Until we have a concrete understanding of NMFS' reason for 
derailing this important research, this incident falls into the 
``potentially ugly'' category. At this point, even if we are successful 
in getting them to reconsider allowing the research to occur, getting 
the project resubmitted into the NPRB or other funding sources will 
take time. So at a minimum, the cost will potentially be several more 
years before information critical to reopening SSL critical habitat to 
mackerel fishing in the western AI is likely to be available. This 
means addition revenue forfeitures and fewer jobs in some of the 
nation's healthiest fisheries.
    In conclusion Mr. Chairman, I want to again thank you and the 
subcommittee for this opportunity to testify today, and I stand ready 
to answer any questions you may have.
                                 ______
                                 
    Mr. Fleming. Thank you, sir. And then last, Mr. Geiger.

STATEMENT OF GEORGE GEIGER, OWNER/OPERATOR, CHANCES ARE FISHING 
                            CHARTERS

    Mr. Geiger. Thank you, Chairman Fleming, Ranking Member 
Sablan, and Members of the Subcommittee. Thank you for inviting 
me to testify on fishery science and NOAA Fisheries data. I am 
George Geiger, owner of Chances Are Fishing Charters, and a 
past chairman and outgoing member of the South Atlantic Fishery 
Management Council, after three appointment terms. I am also a 
retired U.S. Army officer, and it was an honor to serve our 
country for 21 years, including being stationed in Daytona 
Beach, Florida from 1971 to '72.
    During those two years, I experienced fishing opportunities 
in abundance heretofore undreamed of by me. Upon my retirement 
from active duty and return to Florida in 1987, I was at first 
shocked, increasingly disgusted, and even angered to see that 
the fisheries, which lured me to my retirement Mecca, had 
become virtual shadows of what I had experienced in the 1970s.
    I was angered to the point of seeking out and joining the 
Florida Conservation Association, now Coastal Conservation 
Association of Florida. This association lasted almost as long 
as my military career, and culminated in my rise through 
leadership positions to the chairmanship of CCA Florida in 
2007. My 19 years with CCA led me to an at-large seat on the 
South Atlantic Council, and I have held that seat since 2002.
    Like others on this panel, my business has been severely 
impacted by the current economic recession. My decades of work 
with CCA and on the Council provide me with firsthand knowledge 
of exactly why Congress reauthorized the Magnuson-Stevens 
Fishery Conservation and Management Act with the new 
requirements to finally overfishing.
    Through all the heated debates, nothing has been more clear 
or important to me than the need to follow through with 
science-based management, including the new requirements to set 
annual catch limits and accountability measures to finally end 
overfishing.
    Over-fishing, catching fish more quickly than the 
population can reproduce, is ultimately a losing proposition, 
for the fish, but more importantly long term for fishermen. 
Just like it is important to maintain fiscal discipline and 
make hard choices, fishery managers must make difficult and 
sometimes unpopular decisions to ensure that we don't overspend 
by allowing more fish to be caught than the populations can 
reasonably sustain.
    Simply put, overfishing kills jobs, and science-based 
management with requirements to end overfishing is indeed a 
proven solution. When Congress reauthorized the Magnuson-
Stevens Act, with the intent of moving science ahead of short-
term economics, the South Atlantic region had 11 stocks that 
were overfished, undergoing overfishing, or both, the highest 
number of any region in the country.
    The new catch limit requirements changed how the Council is 
operated and forced action to address and prevent overfishing 
with proven scientifically rigorous methods that stand up even 
in situations with limited data.
    As others on this panel have described, recreational 
fishing is big business, and it is rapidly growing, with 2.75 
million in Florida residents and visitors casting lines in 2006 
alone. These days, with the widespread use of GPS and other 
fish finding technologies, it is easy to get to and get on the 
fish, which has led some populations to being fished to 
dangerously low levels.
    In the past, we managed fishing using indirect controls 
like limits on the number of fish each angler could retain, or 
size and trip limits. However, there was no cap on the total 
amount of fish that could be taken out of the water each year, 
so overfishing really continued. Implementing catch limits now 
is a prudent and sensible and necessary approach to finally get 
severely depleted species back to healthy levels and avoid past 
mistakes.
    As you have heard today, some believe that we should not 
take management action if there is uncertainty. The notion that 
we should ignore existing science and delay management 
decisions in the face of uncertainty will only take us back to 
the failed policies of the past, increasing the risk of 
overfishing and further eroding fishing-related jobs.
    Through my work with the Council Scientific and Statistical 
Committee, I can tell you with certainty that we have basic 
scientific data and information needed to establish catch 
limits that are reasonable and have been extensively considered 
through a public, transparent process that includes fishermen. 
For every species we manage, some combination of data on catch 
and fish landed at the dock, biology, reproduction, habitat, 
and other life history characteristics are available to be 
used, and used in unison to set catch limits.
    Cobia is a great example of this commonsense approach to 
management for stocks with limited information. In June, our 
SSC recommended a catch limit for cobia roughly 25 percent 
higher than the median catch for the past 10 years, based on a 
number of factors, including landings, biological 
characteristics, and if there is a directed fishery. This is a 
completely reasonable approach, and none of the ACLs we have 
set are based on guesstimation, but rather they reflect both 
common sense and the use of high quality science, along with 
input from fishermen and the public.
    Temporary cuts in catch and closures, as difficult as they 
may be for my business and others, they are necessary to 
recover and prevent overfishing, which is the real job killer. 
I am not alone in recognizing that the Magnuson-Stevens Act is 
working in the South Atlantic now, and it is not the time to 
back-peddle and return to the failed policies of the past.
    The annual catch limit measures we have already put in 
place and are nearly finished putting in place in the South 
Atlantic are working and are going to work. It takes a strong 
will to protect and rebuild fisheries.
    Chairman Fleming, Ranking Member Sablan, and Members of the 
Subcommittee, please have the courage to be patient while fish 
stocks recover and confident that the '06 reauthorization was 
the correct action, which will ultimately bring benefits for 
fishermen and fishing businesses, and leave future generations 
with even more fish and fishing opportunities than we have 
enjoyed. Thank you.
    [The prepared statement of Mr. Geiger follows:]

            Statement of George J. Geiger, Owner/Operator, 
                      Chances Are Fishing Charters

    Chairman Fleming and members of the Subcommittee, thank you for 
inviting me to this oversight hearing to discuss fisheries science and 
the National Oceanic and Atmospheric Administration (NOAA). I am George 
Geiger, a past Chairman and current member of the South Atlantic 
Fishery Management Council (SAFMC), serving the final days of my third 
appointment term. Along with my position on the South Atlantic Council, 
I am a recreational fisherman with a Coast Guard 50 Ton Ocean Operator 
License. I operated a for-hire service for offshore and inshore trips 
until 1998, when I switched to guiding near shore and inshore clients 
exclusively. This business has been severely impacted by the current 
economic recession, like so many others. I still enjoy recreational 
fishing offshore for coastal pelagic and benthic species. I am also a 
retired U.S. Army Lieutenant Colonel, privileged to have been stationed 
in Daytona Beach, Florida from 1971--72. During those two years I 
experienced fishing opportunities and abundance heretofore undreamed of 
by me. I knew Florida was where my wife and I wished to retire, if I 
was so privileged as to earn the right to remain on active duty.
    Upon my retirement and return to Florida in 1986, I was at first 
shocked, then increasingly disgusted, and eventually angered to see 
that the fisheries which lured me to my retirement Mecca had become 
virtual shadows of what I'd experienced in the 70's. I was angered to 
the point of seeking out and joining the Florida Conservation 
Association (now Coastal Conservation Association--Florida). This 
association lasted almost as long as my military career and culminated 
in my rise through leadership positions to the Chairmanship of CCA 
Florida in 2007.
    During my 19 years with CCA Florida, I worked extensively on 
Florida inshore fishery issues and was appointed to multiple Federal 
advisory panels, including the Atlantic States Marine Fisheries 
Commission's bluefish advisory panel and the South Atlantic Council's 
red drum advisory panel. That work led to me to apply for an At- Large 
seat on the South Atlantic Council in 2003, and I have served on the 
council ever since, including as Chairman. From this vantage point, I 
understand exactly why Congress reauthorized the Magnuson-Stevens 
Fishery Conservation and Management Act (MSA), with the new 
conservation requirements to finally end overfishing, and I've been in 
the center of the heated debate about how to get the job done in the 
South Atlantic.
    This testimony will focus on my first-hand experience gained over 
decades of work with the South Atlantic Council and other organizations 
to implement the new requirement to set annual catch limits (ACLs) and 
accountability measures (AMs), and the critical importance that 
science-based management plays in achieving that goal.
    Overfishing, or catching fish more quickly than the population can 
reproduce, is ultimately a losing proposition for fish but more 
importantly, for fishermen. Just like it is important to maintain 
fiscal discipline and make hard choices in order to balance the federal 
budget, managers must make difficult, and sometimes unpopular, 
decisions to ensure that we don't ``overspend'' by allowing more fish 
to be caught than populations can reasonably sustain. I think of it 
like an investment account; you have to maintain the principle, and 
only spend the interest or you will eventually end up with an account 
that is overdrawn. Similarly, we need to leave enough fish in the water 
to allow each species to reproduce from year to year so that they can 
support a reasonable amount of harvest. Over the last few decades, it 
has become increasingly apparent that science-based management combined 
with requirements to end and prevent overfishing is the key to 
preserving fish populations and fishing jobs.
    It is also clear to me that we have the basic data and information 
needed to establish catch limits that will ensure overfishing never 
again decimates the fish populations that so many anglers and fishing-
related businesses depend upon. With this science-based framework in 
place, new information can continually inform managers and we can make 
adjustments to maximize the benefits for all participants in the 
fishery. The notion that we should ignore existing science and delay 
management decisions in the face of uncertainty will only take us back 
to the failed policies of the past, increasing the risk of overfishing 
and further eroding fishing-related jobs.
    By 2004, Congress realized that overfishing had become a national 
problem, and needed decisive action. After a few years of debating the 
way forward, Congress passed what I think was a fundamentally positive 
change to the way the law worked: science was moved ahead of short-term 
economics, and the councils lost their discretion to continue inaction 
on overfishing. The 2006 MSA reauthorization required that all U.S. 
fish stocks have catch limits and accountability measures to end and 
prevent overfishing by the end of 2011. At the time the MSA was 
reauthorized, the South Atlantic region had 11 stocks that were 
overfished, undergoing overfishing, or both--the highest number of any 
region in the country.
    The South Atlantic Council is responsible for the conservation and 
management of fish stocks within the 200 nautical mile limit off the 
coasts of North Carolina, South Carolina, Georgia, and east Florida to 
Key West. We manage 98 species through 10 Fishery Management Plans 
(FMPs), and we are still suffering from the ramifications of decades of 
overfishing for a number of snapper and grouper species. The catch 
limit requirements have changed how the councils operate and forced 
real conservation actions. In the past, we generally managed fishing 
using indirect controls like limits on the number of fish each angler 
could retain per day, size limits intended to protect juvenile fish and 
older fish that are often the best breeders, and trip limits that 
capped how many fish commercial vessels could bring back to the dock at 
any one time. However, very few of the nearly 100 species that we 
manage were subject to a cap on the total amount of fish that could be 
taken out of the water each year.
    Fishing tournaments, charter fishing businesses, and individual 
fishing trips are all big tourist draws and they contribute 
significantly to the overall pressure on our region's fisheries. Over 
the last few decades, the number of recreational anglers and the number 
of fishing trips taken each year has increased rapidly since I first 
visited Florida. According to the Census Bureau's National Survey of 
Fishing, Hunting and Wildlife-Associated Recreation, over 2.75 million 
residents and visitors cast a line somewhere along the state's coast in 
2006, and it's probably a safe bet that this number has continued to 
increase since then.
    Another big change that has taken place over the last few decades 
is the widespread use of GPS, sonar, and other fish finding 
technologies that make it easy to ``get on the fish'', whereas in years 
past, you really had to know the waters to know the best fishing spots 
and how to get there. This combination has led to a significant 
increase in fishing pressure and as a result, some populations have 
been fished to dangerously low levels, far below what our science 
advisors deem to be sustainable. For example, Warsaw grouper and 
speckled hind are estimated to have just five and six percent of a 
healthy population remaining, respectively. A population that is below 
thirty to forty percent, depending on the species, is considered 
overfished. Some of these very depleted snapper and grouper can live 
for fifty years or more, and are slow to reach reproductive maturity. 
Thus, it can take many years, sometimes decades, to rebuild the 
population once it has been fished down to a very low level. 
Implementing catch limits now is a prudent, sensible and necessary 
approach to finally get severely depleted species back to healthy 
levels and ensure that we don't make the same mistakes of the past by 
setting some reasonable limits now.
    To meet the MSA's new conservation requirements, the South Atlantic 
Council has taken several crucial steps and we are on track to 
implement science-based management, including annual catch limits and 
accountability measures, for all of our federally-managed fisheries by 
the end of 2011. In December 2010, we passed Amendment 17B to the 
Snapper-Grouper Fishery Management Plan, which fulfilled the 
Congressional mandate to set ACLs for 9 of the species in the region 
subject to overfishing. In June of 2010, we passed Amendment 17A which 
included a moratorium on red snapper catch, as that species was 
hovering around 3--6% of a healthy level at that time. Later this 
month, we will meet to consider approval of an Amendment to set ACLs 
for thirty-nine additional species, and we have developed joint plans 
with the Gulf of Mexico Council to set ACLs for species that occur in 
both regions. In the South Atlantic, and nationwide, we are on the 
verge of establishing science-based management for all of the species 
under our jurisdiction. This is a major, precedent-setting 
accomplishment and one that we should be very proud to have achieved.
    However, getting to this point has required a significant 
investment of time and resources on the part of the Council, NOAA 
Fisheries and most importantly, the public who have weighed in on this 
process. In the South Atlantic, we are faced with managing many species 
for which limited scientific information is available. However, there 
are no species that we know nothing about. For every species we manage, 
some combination of data on catch and fish landed at the dock, biology, 
reproduction, habitat, and other life history characteristics are 
available and using this information, our science advisors developed a 
sound methodology to establish the basis for annual catch limits. 
Through the Southeast Fisheries Science Center, the South Atlantic, 
Gulf of Mexico and Caribbean Councils partner with NOAA Fisheries to 
operate the Southeast Data, Assessment, and Review (SEDAR), which 
conducts stock assessments and provides data and analysis on the status 
of species we manage. Our stock assessment process is a collaborative 
one that includes fishermen, stock assessment biologists, council 
members and staff and provides extensive opportunity for public input 
at each step in the process. Driven by the ACL requirements, we have 
figured out rational scientific ways to set catch limits for stocks 
when full stock assessments are not available.
    As an example of how we have managed stocks with limited 
information, I want to focus in on what we've done in coordination with 
the Gulf Council to protect coastal migratory pelagic species including 
cobia, Spanish mackerel, and king mackerel that spend most of their 
lives from the surface to the middle of the water column. These fish 
are very important for recreational fishermen and businesses like mine, 
as well as commercial fishermen like my fellow Council member Ben 
Hartig, who fishes commercially for Spanish mackerel. Although there is 
no evidence they are in trouble, fishing effort has generally 
intensified over the last decade, and so it makes sense to keep the 
catch levels under control to prevent these fish from suffering a 
decline in population before we have the resources to conduct a full 
assessment. What we did with cobia is a good example of how we've 
handled this ``data poor'' situation, and how good management has been 
mischaracterized. In June of this year, our Scientific and Statistical 
Committee recommended a catch limit for cobia roughly 25 percent higher 
than the median catch for the past 10 years and this is what the South 
Atlantic Council has used to guide our decision. Our science advisors 
considered a number of factors in making this recommendation, including 
trends in landings and whether there is a directed fishery for the 
species. Their expert judgment is informed by consideration of 
biological characteristics such as how often and prolifically each 
species spawns, whether they are long-lived or short-lived, and whether 
they are often caught accidentally by fishermen targeting other 
species, among other things. This is a completely reasonable approach 
and none of the ACLs we've set are based on ``guesstimation'', but 
rather they reflect both common sense and the use of high-quality 
science, along with input from fishermen and the public.
    There are two philosophies when dealing with a lack of data: one 
approach is to wait for more science before acting, which is the exact 
path we took and resulted in dozens of severely depleted species 
nationwide, and required sharply reduced catch levels, and sometimes, 
total moratoriums, to put these populations on track for rebuilding. 
The other approach, and the one I think is right and prudent, is to use 
the best science available to set reasonable catch limits until new 
science becomes available that makes it clear a population can support 
an increase in catch. This is exactly what we are doing now in the 
South Atlantic, and it makes sense because it is a lot better to deal 
with a short period of reduced catch than suffer the years of painful 
recovery after fish populations have crashed.
    Even though the South Atlantic Council's management measures are 
sensible, some of the strongest advocates for the MSA's conservation 
provisions have backpedaled when good science has made it clear that 
temporary cuts in catch and closures are necessary to recover from past 
overfishing. I am attaching the written support we have received at the 
South Atlantic Council within the past week supporting approval of the 
ACL Amendment. An awful lot of people--business owners, anglers, 
scientists and other--have written to us to say that they get why this 
new path is critically important and more importantly, they support it.
    Today, I am seeing several of our South Atlantic fisheries benefit 
from implementation of catch limits and accountability measures. For 
example, a recent assessment found that South Atlantic black grouper 
are no longer undergoing overfishing for the first time in more than a 
decade. This is a species that the South Atlantic Council took action 
to restore back in 2004, based on what some at the time called ``in-
sufficient and non-definitive data.''
    I'd like to offer one more example of why catch limits and 
accountability measures are so crucial to good fisheries management. 
Black sea bass are a popular recreational and commercial target species 
and a mainstay for many charter operators in our region. Unfortunately, 
they have been overfished for more than twenty years. Before the MSA 
was reauthorized to close the loopholes that had allowed overfishing to 
continue for decades, the South Atlantic Council approved not one, but 
two plans to rebuild this species. Both of these plans failed to do so, 
and nothing much changed because there was no accountability when 
quotas were exceeded. Finally, a new rebuilding plan was initiated that 
included accountability measures to make sure the catch limits were not 
exceeded. So far, the new plan has kept the commercial fishery near its 
limits, and the anecdotal evidence indicates that after decades of 
overfishing, black sea bass is recovering. A stock assessment is 
ongoing and the results should be completed by October. I hope the 
assessment will show that black sea bass is finally making a recovery 
after more than two decades and two failed rebuilding plans. However, 
now is not the time to deviate from the course of recovery and prudent 
management practices, which are proving to have been on target. South 
Atlantic fisheries are benefiting from the wisdom of requirements in 
the MSA reauthorization that pertain to ending overfishing.
    We hear at every public hearing how good the fishing is getting, 
and has become, in comparison to past decades. Unfortunately, that 
success (which will only increase over time, creating more jobs and 
fishing opportunities) translates to the majority of the public being 
satisfied but not getting involved in the political process. However, 
it's important for Congress to know that those improvements in 
abundance are due to successful, science-based management. As I 
mentioned, the South Atlantic Council is on the verge of meeting the 
mandate from Congress to set catch limits that will end and prevent 
overfishing. The process was long and deliberate, with extensive public 
participation and scientific contributions, and I sense we are on the 
verge of a great move forward toward actually achieving sustainability 
for our marine resources in the Southeast. Now is not the time to 
backpedal and return to the ineffective management practices that 
existed before the 2006 reauthorization of the MSA and resulted in 
depleted stocks.
    I still remember Florida fishing in the 70's and the astounding 
abundance and variety of fish that led me to retire in the state, start 
a fishing business and to get involved in fisheries management. Even 
back then, a lot of these fish populations were already a shadow of 
their historic numbers. The conservation measures we've nearly finished 
putting in place in the South Atlantic and around the country are going 
to work but it takes a strong backbone to protect and rebuild 
fisheries. That gives me hope because I know what we are working to 
achieve through the MSA and I know it is possible. Now is the hardest 
time for Congress, and even more so for the councils, to have the 
courage to be patient while fish stocks that have been depleted 
recover. That steadfast resolve will allow us to realize the benefits 
this will bring for fishermen and fishing businesses, and leave future 
generations with even more fish and fishing opportunities than we've 
enjoyed.
                                 ______
                                 
    Mr. Fleming. Thank you, Mr. Geiger. OK. At this point we 
will begin Member questions of the witnesses. I want to point 
out that we predict votes to begin in the next 15 to 30 
minutes. The timing may work out just about right. Hopefully it 
will. We have had a lot of input today, and we appreciate it. 
And we want to be sure we get all the way to the very end and 
get all the questions asked and answered.
    As Members know, we are limited to five minutes for our 
questions. If they have additional questions, we may be able to 
do a second round. If not, we can certainly submit them in 
writing and get responses offline.
    I now recognize myself for five minutes. Mr. Angers, the 
majority of witnesses here today seem to believe that the 
amount of information available to fishery managers is 
insufficient to meet the new requirements of the Magnuson Act. 
How do you suggest Congress deal with this concern? And I will 
just point out, particularly on this panel, I am just hearing 
story after story, very credible, of how this is garbage in, 
garbage out type of proposition. So I would love to get your 
perspective on how you think we can improve that.
    Mr. Angers. Thank you, Mr. Chairman. You know, I mentioned 
earlier that Mr. Wittman and several bipartisan Members of the 
full Resources Committee have set forth the Fishery Science 
Improvement Act, H.R. 2304. You know, indeed we see some 
garbage in and some garbage out. But I do want to give credit 
where credit is due. Where there is a legitimate, 
scientifically prepared stock assessment that comes up with 
some good science, we all want science. I mean, goodness, Jane 
Lubchenco, you know, a scientist's scientist, is the head of 
NOAA. We want to make sure that there is good science there, 
and we don't want to dog the actual stock assessments that are 
out there.
    But the 80 percent of the stocks of fish that the Federal 
Government doesn't know anything about from a true scientific--
from a true quantitative method, that is what the members have 
stepped up to tackle with the Fishery Science Improvement Act. 
What Congressman Wittman's bill says is that when there is no 
indication of overfishing, and the agency has not done a stock 
assessment in the last five years, then let's suspend the 
annual catch limit requirement on that particular stock.
    We are not saying let's cast out good science with bad. I 
heard my fellow panelist earlier comment about, you know, there 
are other important sciences like biology. You know, that is 
great, but that doesn't tell us a thing about the number of 
fish that are out there, and we have the capability to discern 
those scientific facts. We just don't have the facts, and then 
we are rushing to meet a statutory deadline that was 
arbitrarily--that is an arbitrary deadline.
    So let's give science a chance to work. Let's figure out 
how many fish are out there, how many fish can come out of a 
fishery. I think everyone at the table would be fine with that.
    Mr. Fleming. Well, thank you for that. You know, we have 
had NOAA here testifying. We had a gentleman from NOAA here a 
little earlier on the other panel. And one of the things we are 
seeing is that NOAA wants to--and I mentioned this in my 
original comments. NOAA wants to put more of their resources 
into satellites to monitor climate change and that sort of 
thing, significant amounts of money. And yet you know the way 
things are up here. We are out of money. We are broke. 
Washington is broke.
    So I guess my question is, with this tight budget 
situation, what do you suggest we do? What are some other 
options that may be available?
    Mr. Angers. Well, I think that the legislative proposal 
that I mentioned earlier, H.R. 2304, really comes at a good 
time, both for the agency and for the country. You know, these 
next few years will not see increased budgets in pretty much 
any Federal agency. And if we know that NOAA Fisheries is using 
a SWAG, a scientific wild guess, to determine a hard number 
that shall not be exceeded, this is probably a good time to 
say, you know, we might have gone a little overboard.
    You know, this whole push to establish a hard ACL is about 
employment of a different type that we have not spoken of 
today. It is about employment for environmental lawyers because 
a Federal judge may not really be that interested in the 
Byzantine fishery management discussion, but a Federal judge 
understands a number. And once there is a number set forth that 
the widget fish or whatever fish, the ACL on the widget fish 
shall be X, once that number, that SWAG, that dart thrown at 
the wall, once that number is exceeded, we are going to be 
guaranteeing full-time employment for environmental lawyers to 
be suing NOAA Fisheries for generations to come.
    Now is a good time for us to take a breath and say let's go 
forth with the science that we have got, and what we don't 
have, let's stop guess.
    Mr. Fleming. OK. Well, thank you. My time is up, so I will 
yield to the gentleman, Mr. Sablan, the Ranking Member.
    Mr. Sablan. Thank you very much. I appreciate it, Mr. 
Chairman. Data is important. I am from the islands, and I know 
what fishing is about. We fish for meals, and data is actually 
so important. And I am going to sort of sidetrack here. There 
are some people in the country who doubt climate change. And 
for those who doubt the scientists, the scientific information 
on climate, I actually can take you to my islands, where I will 
show you land that is under water, and this can only be 
attributed to climate change.
    But, Mr. Geiger, you have been involved with fisheries 
management in the South Atlantic, sir, for many, many years, 
several decades actually. So can you tell us how successful the 
Council was at ending and preventing overfishing prior to and 
following the 2006 reauthorization of the Magnuson-Stevens Act?
    Mr. Geiger. Yes. Thank you, Mr. Sablan. Actually, the 
Councils were abject failures at ending overfishing. If you 
look at the South Atlantic Council, since 1984, the 
implementation of the first snapper/grouper fishery management 
plan and all subsequent plans, we are now up to fishery 
management plans for snapper/grouper--I think we are on 21 or 
22. Only three of them met the management objectives, and two 
of the fisheries were closed, one for five years. Goliath 
grouper was the one that was closed for--has been reclosed 
since 1992.
    In all cases, short-term economic considerations were 
always used as a determinant in an effort to try and reduce the 
effects of the regulation or reduce the regulations that needed 
to be put in place. So if they knew they needed to something, 
they received advice that said, well, you could back off it a 
little bit, and it was always due because of the public outcry 
based on short-term economics. And when we adjusted the bag 
limits, the size limits, the trip limits, whatever the standard 
methodology was used for that particular stock at the time, 
those reductions resulted in a failed rebuilding or a failed 
result from the management that we attempted to put in place.
    And, I mean, the record stands for itself, which is exactly 
why Congress put or reauthorized the Act in '06 as they did, 
with the intent to finally get the Councils to end overfishing 
and take that discretionary ability the Councils had to 
consider short-term economics at the peril of the fish stocks.
    Mr. Sablan. So how important have the new requirements for 
annual catch limits and accountability measures been to the 
success of the South Atlantic Management Council in ending and 
preventing overfishing?
    Mr. Geiger. Well, I think they are absolutely key to ending 
overfishing, and it is because the standard methodologies that 
have been in the toolbox and employed by the Councils limiting 
anglers to a bag limit, season closures, trip limits, size 
limits, those type of things, have proven they really are not 
very effective because they don't cap the total number of fish 
that can be taken out of the water on an annual basis in a 
species.
    So without limiting that cap or without limiting the amount 
of mortality that occurs within that fishery, there is no way 
to stop it. So overfishing will generally continue unless there 
is a cap, you can stop it, and if you do go over it, there 
needs to be an absolute payback to get back on track in the 
rebuilding plan.
    Mr. Sablan. And I can certainly understand it, Mr. Geiger, 
because at one time where I come from, half a mile, a mile out 
from the reef, you get your first tuna. Now, you have to go 
three, four miles at least because of overfishing. And it is 
not from us, actually. It is from other parts, I mean, you 
know, commercial fishing that passes through the islands.
    Mr. Geiger. And if I may add to the response to your 
question, sir, we have seen successes, and we see successes. 
One of the Congressmen mentioned black sea bass. You know, 
black sea bass is one of those stories that is a success in the 
South Atlantic, a failure and a success. We had two rebuilding 
plans on black sea bass, both of which failed. Finally, in 
amendment 13 in 2004, we put some very severe limits on black 
sea bass. And, of course, the Council voted for a constant-
catch rebuilding strategy, which allows the removal of 104,000 
pounds of fish annually, until you get to a certain point as 
the stock recovers, then you can begin to increase those 
removals as the stock demonstrates its recovery.
    Mr. Sablan. I have one more question before--the House 
Appropriations Committee has proposed cuts to fisheries 
research and management, including funds to expand annual stock 
assessments and for cooperative research with States. What do 
you see as the consequences of such cuts for rebuilding stocks 
and for fishermen? Mr. Geiger again.
    Mr. Geiger. Well, I am opposed to any cuts and reductions 
of any funding for stock assessments, and certainly for data 
improvement. I came on the Council from Coastal Conservation 
Association, and for 19 years, I fought this Federal process, 
and we fought the Federal National Marine Fisheries Service 
over the failed data that they used to manage the stocks. And 
it is evident based on the condition of the stocks we see today 
in the South Atlantic, and the fact that we have to take such 
draconian measures to try and recover these stocks.
    So I certainly am a supporter of improving data, but it 
takes ten years to build a ten-year data set. And it takes 
years to train stock assessment scientists. You don't just go 
out on the street and put an ad in the newspaper and hire a 
stock assessment scientist off the street. And to NOAA's 
credit, they have a program at Virginia Tech in an effort to 
try and recruit mathematicians and young mathematics majors who 
have the abilities to perform these highly complex mathematical 
models. And, you know, recognizing budget limitations, we are 
where we are. If we don't put ACLs in place, and we go back to 
what we were doing before, we are going to use the same data 
that everybody is calling garbage or deficient or bad to do 
what? Set bag limits and trip limits and all the things that 
have failed in the past? We are going to go back to that 
methodology?
    ACLs are the answers. We need to have the courage to stay 
with it, move forward. We actually are seeing benefits 
resulting from ACLs that are put on stocks, and I think we will 
see more if we just have the courage to stay the course.
    Mr. Fleming. OK. The gentleman yields back. Votes have been 
called, so we will try to get through another two or three 
questioners, do the best we can to finish out, and then we will 
have to adjourn because we will have votes for another hour, 
hour-and-a-half, and then we have something after that.
    So with that, I think next up is Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. I will be very quick. 
Mr. Geiger, I heard you make a comment about ten-year data set 
as being part of any study or any determination of closures. 
And I just ask you, are you aware of any ten-year data set on 
the red snapper that was included, that helped lead them to the 
conclusion of closing the South Atlantic?
    Mr. Geiger. Yes.
    Mr. Duncan. So why aren't we making the decision based on 
no data set----
    Mr. Geiger. No. The head boat index is over ten years old. 
It is the longest fishery-dependent index that we have, and it 
was used in the red snapper stock assessment.
    Mr. Duncan. How far do head boats go out?
    Mr. Geiger. I think back to the eighties, maybe '86, '84, 
'86. I don't have it in front of me, but I know it is our 
oldest dependent data set. And that stock assessment--you know, 
if we had the time, I could talk to you directly about that 
stock assessment. That stock assessment reflected clearly the 
condition of the stock that we heard based on the anecdotal 
information of the fishermen that provided this testimony. We 
knew there were a large number of fish out there. The problem 
is they were all under the 20-inch size limit, and people were 
wading through a large number of them to get to the 20-inch 
fish that they could keep.
    And when you look at a classic fishery, and you look at the 
age structure of fish, prior to this they thought red snapper 
only lived to be 24 years old. Based on aging studies that they 
did in preparation for SEDAR 15, they found that the oldest 
fish that they measured was 53 years old. And when you look at 
the age of the over 8,000 otolitks that they sampled and aged, 
when you look at that age curve, there was a precipitous, 
straight-down decline after age four out to age nine, and then 
basically from age nine out to 53, there were virtually no 
representative samples of those age fish in that stock that was 
sampled. And they took over 8,000 samples.
    So then subsequent to that, and prior to doing SEDAR 24, 
the science center actually went to the dock and cherry-picked 
large fish that were caught that people suspected were older 
than the average age that was portrayed in the stock 
assessment, and they found that there was no real-age 
correlation in red snapper between age and length. So you can 
have young fish that appear to be large, and you can have older 
fish that aren't as large as the younger fish.
    So there is no direct correlation. And what they found when 
they cherry-picked all these large fish, they found that the 
age actually mirrored what was in the stock assessment based on 
the 8,000 samples that they aged. And, oh, by the way, the 
science center also conducted a longline survey offshore 
because there was some stock that the commercial--or some 
people felt was beyond where the current recreational fishery 
prosecuted the fishery, and the commercial fishery prosecuted 
it. They were deepwater fish, and that is where all the big 
fish were, and were not considered.
    Mr. Duncan. Not to cut you off, but I am on my time here 
and about to run out. I would like for you, if you don't mind, 
to provide this Committee with the sources and the data that 
you are mentioning today because I have yet to see that.
    Mr. Geiger. I would be absolutely delighted to do that. 
Thank you.
    Mr. Duncan. Because the captains I talk to basically 
repudiate that. But, Captain Nelson, do you recognize this? 
Could you tell me what this is?
    Mr. Nelson. That is a series of emails, 73 I believe is--
you know, I think that is the number, 73 emails concerning the 
red snapper science over a period of about 18 months that I 
sent to National Marine Fisheries Service, the Council, South 
Atlantic Council, and Eric Schwaab, you know, different groups.
    Mr. Duncan. And I read through much of these. And, Mr. 
Chairman, I would like to submit this as part of the record and 
allow the other Committee members to look at it. But one of the 
emails that I see here back in December of 2010, this was to 
Dr. Roy Crabtree, and this is what Captain Nelson says, ``Are 
we to believe that the red snapper in the Gulf of Mexico are 
highly productive and that the same exact species in the 
Atlantic is not? The only difference in that spawn or 
recruitment science for the two assessments is one has data and 
the other does not. Therefore, the people in the Gulf of Mexico 
are fishing and making a living, and the people in the South 
Atlantic are not because of lack of data, not lack of fish.''
    And, you know, we can show based on the catch surveys that 
Captain Nelson and I have talked about wouldn't differ from 
what the fishery NMFS has. So I am going to submit this for the 
record, Mr. Chairman, and I yield back.
    Mr. Fleming. Without objection, so ordered.
    Mr. Fleming. We are down to eight minutes, 55 seconds. I 
know Mr. Pallone has not had a chance to ask, so I am going to 
basically make Mr. Pallone our last person to ask questions so 
we can make it to our vote. So, Mr. Pallone, you have five 
minutes, sir.
    Mr. Pallone. Thank you, Mr. Chairman. I just wanted to say 
that in order to provide for a sustainable future and ensure 
economic prosperity today, Magnuson-Stevens aimed to balance 
conservation with fishing opportunities in an informed and 
scientific way. But I am afraid, however, that because we can 
build the lack of information into our scientific models, we 
have lost the balance and instead fisheries managers use 
uncertain and unreliable information as a scientific basis for 
their decisions. And that is why I introduced the Coastal Jobs 
Creation Act, because I am frustrated with the lack of 
scientific data in management.
    My bill would invest in successful programs that are 
specifically targeted at aiding coastal communities and 
creating jobs because without the scientific data collection 
that my bill prioritizes, we would continue to reduce fishing 
quotas not because the science tells us we must, but because we 
are simply compensating for the unknown.
    Now, I wanted to ask Mr. Greg DiDomenico--good to see you--
a couple of questions in this same regard. NMFS has had 
closures in fisheries like snapper and black sea bass in 
instances where the stock is not overfished, in other words, it 
is a healthy stock. But the current rate of removal is too 
high, in other words, overfishing is occurring. In these 
particular instances, it makes intuitive sense that we should 
allow a more tailored management response such as specifying a 
reduced rate of fishing for a period of time rather than 
requiring an outright closure that hurts jobs and coastal 
economies.
    What specifically needs to be changed in the Act to give 
you this flexibility, and would you welcome such flexibility? 
And I am going to try to get through a few of these, so if you 
don't mind, Greg.
    Mr. DiDomenico. Sure. Are you asking that specifically for 
black sea bass?
    Mr. Pallone. No, just in general. I mean, in other words, 
closures are closures, whereas, you know, there should be some 
flexibility in my opinion. But what do we need to do to change 
Magnuson in order to accomplish that?
    Mr. DiDomenico. Well, I would say that I am going to use 
your example of black sea bass. It affects the recreational 
community much more, especially the closures, than the 
commercial industry. But I would say the first thing that we 
should do is put back the $4 million that was taken--well, not 
taken, but the NOAA budget, as you know, in 2012, their request 
moved $4 million from cooperative research, to go to 
cooperative research on catch shares. Now, some of the examples 
that I used today rely or provide a very good example of where 
cooperative research has helped. In my opinion, putting that 
money back into cooperative research with recreational and 
commercial fishermen would be the way to go.
    Mr. Pallone. OK. Let me ask you this. Under current law, 
the Regional Fishery Management Councils are required to 
include a fishery impact statement for each management plan or 
amendment to that plan, and this impact statement is supposed 
to evaluate the economic impact of the plan or the amendment 
and possible mitigation measures. Since these impact statements 
are only done with a new management plan or amendment, do you 
believe that NOAA and the Commerce Department have up-to-date 
information on the impact fisheries management is having on 
local fishermen, and do you believe--I mean, comment to me on 
these impact statements and, you know, how valuable they are 
and whether we need something else.
    Mr. DiDomenico. They are valuable in time, but what has 
occurred in the past is that the cumulative impacts of 
regulations over time have not been accurately assessed. And 
that is for both recreational and commercial industries.
    Mr. Pallone. But, now let me ask a last thing. As you know, 
I introduced in the last Congress--and we are going to do 
another Flexibility in Rebuilding American Fisheries Act, a 
Magnuson amendment. I have been hearing concerns from the 
fishing community about the regional councils ratcheting down 
quotas because of a lack of scientific certainty. Do you have 
any other suggestions to how we can ensure fishermen have 
access to healthy stocks that are not overfished in light of 
the fact that fishery managers are I think compensating for 
uncertainty, in effect.
    Mr. DiDomenico. Yes. Have this Subcommittee make achieving 
MSY, maximum sustainable yield, back-to-the-cornerstone of 
Magnuson-Stevens Act. Make it a national policy. I briefly went 
through the quota-setting process. And if you allow me 30 
seconds, I will give you a good example. And I think my request 
to have the agency provide you the numbers species by species, 
which they can do, to show you the reductions--I am going to 
give you approximate numbers.
    We have a spiny dog fishery throughout the entire East 
Coast. It is a shared stock with the Canadians. The OY is 
approximately 20,000 metric tons. We reduced that by 25 
percent. The OY or MSY, reduce it to 15, then we take off 
another 6,000 metric tons for discards, both the fisheries and 
the possible Canadian catch, leaving us with nine. That example 
may not be perfect for every species, but when the agency shows 
you where they start, where we could fish up to, I think we are 
overly cautious and are risking reaching--missing reaching MSY 
on many stocks. I think that will give you the information that 
you need. Thank you.
    Mr. Pallone. All right. Thank you. Thank you, Mr. Chairman.
    Mr. Fleming. The gentleman yields back. Members of the 
Subcommittee may have additional questions for witnesses, and 
we ask that you respond to these in writing. The hearing record 
will be open for ten days to receive these responses. Finally, 
I want to thank Members and staff for their contributions to 
this hearing. If there is no further business, without 
objection, the Subcommittee stands adjourned. And thank you 
again, witnesses.
    [Whereupon, at 5:11 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [The prepared statement of Mr. Markey follows:]

     Statement of The Honorable Edward J. Markey, Ranking Member, 
                     Committee on Natural Resources

    Thank you, Chairman Fleming. I come from Massachusetts, where, like 
Louisiana, fishing is embedded into the cultural fabric of our state.
    While the financial deficit has been the main focus in Washington 
lately, this country is also suffering from a fish deficit. There might 
not be consensus on how to fix the financial deficit but I hope we 
share the same commitment to using science-based management to overcome 
our fish deficit.
    Congress first required the Councils to end overfishing and rebuild 
stocks in 1996 and strengthened that resolve in 2006 when, in a bi-
partisan fashion and under the Bush Administration, we reauthorized the 
Magnuson-Stevens Act. This reauthorization strengthened the role of 
science in fishery management decision-making and required that fishery 
management plans adopt annual catch limits and accountability measures 
for stocks subject to overfishing.
    Rebuilding fisheries can have a substantial impact on local 
economies and jobs. The National Marine Fisheries Service estimated 
that if we fully rebuild our stocks, dockside value for commercial 
fisheries would increase by 54 percent, from $4.1 to $6.3 billion 
annually. This potential increase could generate an additional $31 
billion in sales and support an additional 500,000 jobs. A recent study 
also found that in 2009, commercial fishermen in New England, the South 
Atlantic, and the Gulf of Mexico regions lost $164.2 million and 
realized only 25 percent of potential revenues because of chronic 
overfishing. Clearly, rebuilding these fish stocks is critical to 
creating jobs, supporting local economies, and revitalizing our coastal 
communities.
    Stocks are showing promise in rebuilding by using science-based 
annual catch limits. In the past year, three New England stocks were 
fully rebuilt and revenues have increased. After 15 years of rebuilding 
efforts, there are now more fish in the sea.
    We must continue to ensure that the best available science is used 
in managing our fisheries to rebuild stocks and get fishermen back on 
the water. That is why I cosponsored H.R. 2610, the Asset Forfeiture 
Fund Reform and Distribution Act, which was introduced by my friend and 
colleague, Congressman Barney Frank. This bill would eliminate the 
incentive of NOAA law enforcement to levy fines for its own use and 
distribute those monies to NOAA for high priority stock assessments and 
to States for fisheries data collection, research, and monitoring.
    Now is not the time to be cutting funding for fisheries science, 
but that is exactly what the Republican's FY 2012 Commerce, Justice, 
Science Appropriations bill does. In this bill, fisheries research and 
management is cut 17% below the President's request, even after 
Congressman Farr inserted an additional $3 million for cooperative 
research to leverage the knowledge of fishermen within the scientific 
process.
    Choosing to make these cuts to fisheries science is like a 
fisherman throwing all his navigation equipment overboard right before 
a storm. We need not navigate blindly, but can choose to invest in the 
fisheries science needed to rebuild stocks, fishing jobs, and coastal 
communities.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
